<html>
<title> - THE NATIONAL EARTHQUAKE HAZARDS REDUCTION PROGRAM: PAST, PRESENT AND FUTURE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                    THE NATIONAL EARTHQUAKE HAZARDS
                           REDUCTION PROGRAM:
                        PAST, PRESENT AND FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2003

                               __________

                           Serial No. 108-14

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


86-870              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
VACANCY
                                 ------                                

                        Subcommittee on Research

                     NICK SMITH, Michigan, Chairman
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         MICHAEL M. HONDA, California
GIL GUTKNECHT, Minnesota             ZOE LOFGREN, California
FRANK D. LUCAS, Oklahoma             DENNIS A. CARDOZA, California
W. TODD AKIN, Missouri               BRAD SHERMAN, California
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        JIM MATHESON, Utah
JOHN SULLIVAN, Oklahoma              SHEILA JACKSON LEE, Texas
PHIL GINGREY, Georgia                RALPH M. HALL, Texas
SHERWOOD L. BOEHLERT, New York
                PETER ROONEY Subcommittee Staff Director
              DAN BYERS Professional Staff Member/Designee
            JIM WILSON Democratic Professional Staff Member
        ELIZABETH GROSSMAN, KARA HAAS Professional Staff Members
                     JEREMY JOHNSON Staff Assistant


                            C O N T E N T S

                              May 8, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Smith, Chairman, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..    10
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Minority 
  Ranking Member, Subcommittee on Research, Committee on Science, 
  U.S. House of Representatives..................................    11
    Written Statement............................................    13

                               Witnesses:

Mr. Anthony S. Lowe, Administrator, Federal Insurance Mitigation 
  Administration; Director, Mitigation Division, Emergency 
  Preparedness and Response Directorate (Federal Emergency 
  Management Agency), Department of Homeland Security
    Oral Statement...............................................    14
    Written Statement............................................    16
    Biography....................................................    23

Mr. Robert A. Olson, President, Robert Olson Associates, Inc.
    Oral Statement...............................................    24
    Written Statement............................................    26
    Biography....................................................    31
    Financial Disclosure.........................................    31

Dr. Lloyd S. Cluff, Director, Geosciences Department and 
  Earthquake Risk Management Program, Pacific Gas and Electric 
  Company
    Oral Statement...............................................    32
    Written Statement............................................    35
    Biography....................................................    40
    Financial Disclosure.........................................    46

Dr. Thomas D. O'Rourke, President, Earthquake Engineering 
  Research Institute; Thomas R. Briggs Professor of Engineering, 
  Cornell University
    Oral Statement...............................................    46
    Written Statement............................................    49
    Biography....................................................    60
    Financial Disclosure.........................................    62

Dr. Lawrence D. Reaveley, Professor and Chair, Department of 
  Civil and Environmental Engineering, University of Utah
    Oral Statement...............................................    65
    Written Statement............................................    67
    ATC-57,The Missing Piece: Improving Seismic Design and 
      Construction Practices by the Applied Technology Council, 
      2003.......................................................    74
    Biography....................................................   102
    Financial Disclosure.........................................   106

Discussion.......................................................   107

                   Appendix 1: Additional Statements

Dr. Charles G. Groat, Director, U.S. Geological Survey, U.S. 
  Department of the Interior
    Written Statement............................................   122
    Biography....................................................   129

Dr. Priscilla P. Nelson, Senior Advisor, Directorate for 
  Engineering, National Science Foundation
    Written Statement............................................   130
    Biography....................................................   136

Dr. S. Shyam Sunder, Chief, Materials and Construction Research 
  Division, Building and Fire Research Laboratory, National 
  Institute of Standards and Technology
    Written Statement............................................   138
    Biography....................................................   144

Statement of the NEHRP Coalition.................................   146

Statement of the American Society of Civil Engineers (ASCE)......   149

Statement of Support for NEHRP Reauthorization, submitted by the 
  Seismological Society of America...............................   152

             Appendix 2: Answers to Post-Hearing Questions

Anthony S. Lowe, Administrator, Federal Insurance Mitigation 
  Administration; Director, Mitigation Division, Emergency 
  Preparedness and Response Directorate (Federal Emergency 
  Management Agency), Department of Homeland Security............   154

             Appendix 3: Additional Material for the Record

Building for the Future, NEHRP, 25th Anniversary.................   160

Expanding and Using Knowledge to Reduce Earthquake Losses: The 
  National Earthquake Hazards Reduction Program, Strategic Plan 
  2001-2005......................................................   168

 
 THE NATIONAL EARTHQUAKE HAZARDS REDUCTION PROGRAM: PAST, PRESENT AND 
                                 FUTURE

                              ----------                              


                         THURSDAY, MAY 8, 2003

                  House of Representatives,
                          Subcommittee on Research,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick Smith 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    The National Earthquake Hazards

                           Reduction Program:

                       Past, Present, and Future

                         thursday, may 8, 2003
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, May 8th, 2003, the Research Subcommittee of the House 
Science Committee will hold a hearing to examine the current status of 
the National Earthquake Hazards Reduction Program (NEHRP) in 
preparation for program reauthorization later this year. NEHRP is a 
long-term, comprehensive, multi-agency earthquake hazards mitigation 
program established by Congress in 1977 to minimize the loss of life 
and property from earthquakes. Four agencies participate in this 
effort: the Federal Emergency Management Agency (FEMA), U.S. Geological 
Survey (USGS), National Science Foundation (NSF), and National 
Institute of Standards and Technology (NIST).

2. WITNESSES

    (Note: The Subcommittee will also receive written testimony from 
USGS, NSF, and NIST.)

Mr. Anthony Lowe is the Administrator of the Federal Insurance 
Mitigation Administration (FIMA), a division of the Emergency 
Preparedness and Response (EPR, formerly FEMA) Directorate of the 
Department of Homeland Security. He will be accompanied by Mr. Craig 
Wingo, Director of the FEMA Engineering Science and Technology 
Division.

Dr. Lloyd S. Cluff is the Director of Geosciences and Earthquake Risk 
Management for Pacific Gas and Electric Company, and also Chair of the 
USGS Scientific Earthquake Studies Advisory Committee. Dr. Cluff's 
expertise includes identification of seismic faults and their potential 
ground motion, and a member of the National Academy of Engineering.

Dr. Thomas O'Rourke is President of the Earthquake Engineering Research 
Institute (EERI), a nonprofit technical society of engineers, 
geoscientists, architects, planners, public officials, and social 
scientists. He is also a Professor of Civil and Environmental 
Engineering at Cornell University, and a member of the National Science 
Foundation Engineering Advisory Committee. His research interests 
include geotechnical engineering, earthquake engineering, lifeline 
systems, underground construction technologies, and geographic 
information technologies.

Dr. Robert Olson is President of Robert Olson Associates, where he 
consults on areas of earthquake hazards mitigation, emergency 
management, disaster operations, recovery assistance, and public policy 
development. Previously, Mr. Olson served as Executive Director of the 
California Seismic Safety Commission. He has chaired numerous 
committees, including the Governor's Task Force on Earthquake 
Preparedness and the Advisory Group on Disaster Preparedness to the 
California Joint Legislative Committee on Seismic Safety.

Dr. Lawrence D. Reaveley is Professor and Chair of the Department of 
Civil and Environmental Engineering at the University of Utah.

3. OVERARCHING QUESTIONS

    The hearing will address the following overarching questions:

        1. What have been the notable accomplishments and shortcomings 
        in the first 25 years of NEHRP? What is the current status of 
        the program, and what is the appropriate level of funding? How 
        should this funding be prioritized among various research and 
        mitigation activities?

        2. How can Congress improve NEHRP strategic planning and 
        coordination to foster a more unified effort to reduce 
        earthquake hazards?

        3. How will NEHRP be affected by the recent transition of 
        FEMA, formerly an independent federal agency, into the 
        Emergency Preparedness and Response Directorate of the 
        Department of Homeland Security?

        4. How can NEHRP accelerate the implementation of knowledge 
        and tools developed from earthquake-related research?

4. OVERVIEW/ISSUES

        <bullet> Damaging earthquakes are inevitable, if infrequent. 
        Most states face at least some danger from earthquakes, and 
        total annualized damages in the United States are estimated to 
        be about $4.4 billion in direct financial losses (repair costs, 
        inventory loss, and business interruption). The 1994 Northridge 
        earthquake in California (magnitude 6.7) was the most costly in 
        U.S. history, causing over $40 billion in damage.

        <bullet> NEHRP was created in 1977 in response to growing 
        concerns about the threat of damaging earthquakes. The program 
        was originally focused on research into geotechnical and 
        structural engineering and earthquake prediction. Over time, 
        researchers recognized that earthquake prediction was an 
        unrealistic goal, and its focus was significantly de-emphasized 
        within NEHRP, while efforts were expanded to include activities 
        such as seismic retrofitting and rehabilitation, risk 
        assessment, public education and outreach, and code 
        development.

        <bullet> NEHRP Agency responsibilities include:

                FEMA--Loverall coordination of the program, education 
                and outreach, and implementation of research results;

                USGS--Lbasic and applied earth science and seismic 
                research;

                NSF --Lbasic research in geoscience, engineering, 
                economic, and social aspects of earthquakes

                NIST--Lproblem-focused R&D in earthquake engineering 
                aimed at improving building design codes and 
                construction standards.

        <bullet> The program has achieved significant progress since 
        inception, and is generally considered to be a successful 
        undertaking. Loss of life and injuries sustained from 
        earthquakes has decreased substantially, seismic risk 
        assessment capabilities have significantly improved, and 
        technological advances in areas such as performance-based 
        engineering, information technology, and sensing and imaging 
        have provided valuable knowledge and tools for mitigating 
        earthquake hazards.

        <bullet> New knowledge and tools, however, have not translated 
        into decreased overall vulnerability. End-user adoption of 
        NEHRP innovations has been incremental and slower than 
        expected. This is in part because current building codes tend 
        to focus on protecting the lives of the occupants rather than 
        minimizing non-structural damage and economic losses. Further, 
        the cost of rehabilitating existing structures to become more 
        earthquake resistant is often too high, as is the cost of 
        building new structures to minimize risk. The private sector 
        has not had adequate incentives, and State and local 
        governments have generally not had adequate budgets, to take 
        steps to address these challenges.

        <bullet> This slow implementation of new mitigation 
        technologies, combined with continued widespread development in 
        areas of high seismic risk, has resulted in a rapid and steady 
        increase in societal vulnerability to a major earthquake event. 
        Potential loss estimates of a future large earthquake in a 
        major U.S. urban area now approach $200 billion.

5. BACKGROUND OF NEHRP

History
    A culmination of efforts, largely in response to the great Alaskan 
earthquake of 1964 and San Fernando earthquake of 1971, led to the 
creation of NEHRP in the Earthquake Hazards Reduction Act of 1977 (P.L. 
95-124). The original program called on 10 federal agencies to 
implement the objectives of the program, though only the USGS and NSF 
were authorized appropriations. Those objectives were to:

        -- implement a system for predicting damaging earthquakes;

        -- develop feasible design and construction methods for new 
        and existing buildings and lifelines for earthquake resistance;

        -- identify, characterize, and evaluate seismic hazards; 
        develop model building codes and land-use policy 
        recommendations;

        -- increase use of scientific and engineering knowledge to 
        mitigate earthquake risks; and

        -- educate public officials and the public about earthquake 
        phenomena.

    In 1979, a governmental reorganization initiative created FEMA to 
lead government-wide efforts to respond to emergencies. The Earthquake 
Hazards Reduction Act of 1980 (P.L. 96-472) designated FEMA as the lead 
agency for NEHRP and authorized funding for both FEMA and the National 
Bureau of Standards (now NIST) to become part of NEHRP. While NEHRP has 
been reauthorized nine times, the only other substantive changes were 
made in 1990 (P.L. 101-614). This act clarified and expanded program 
objectives and agency responsibilities, required federal agencies to 
adopt seismic safety standards for new and existing buildings, and 
attempted to improve program coordination by requiring NEHRP agencies 
to complete a strategic plan to be updated every three years, prepare 
biennial reports on program progress, and submit a unified NEHRP budget 
to OMB each year with their budget request.
Accomplishments and Goals
    NEHRP has accomplished a great deal since its inception. Perhaps 
most notable is the vast improvement in the ability to design a built 
environment that can resist significant earthquake shaking with little 
or no damage. NEHRP research and mitigation has also produced valuable 
tools for mitigating earthquake hazards, including new national hazard 
maps (Figure 1), improved seismic design provisions for new buildings, 
guidelines for the rehabilitation of existing buildings, loss 
estimation methodologies, performance-based design methodologies, and 
real-time shake maps for first responders and other public officials.
    Today the goals of NEHRP are to:

        -- Develop effective practices and policies for earthquake 
        loss reduction and accelerate their implementation;

        -- Improve techniques to reduce seismic vulnerability of 
        facilities and systems;

        -- Improving seismic hazard identification and risk assessment 
        methods and their use;

        -- Improve the understanding of earthquakes and their effects.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

Transition into the Department of Homeland Security
    On March 1st, 2003, FEMA officially became part of the Emergency 
Preparedness and Response Directorate for the Department of Homeland 
Security (DHS). It is unclear how this change will affect the execution 
of NEHRP, but it is likely that the new arrangement will present both 
challenges and opportunities for the program. While it seems 
appropriate that natural disaster mitigation programs should be housed 
in the DHS Emergency Preparedness and Response Directorate, many are 
concerned that the Department's primary focus on acts of terrorism 
could reduce the attention paid to NEHRP and other natural disaster 
efforts. Conversely, though, it is clear that risk reduction efforts 
such as strengthening buildings and lifelines and developing 
comprehensive building databases would also benefit counter-terror 
operations, and may therefore benefit from the Department's primary 
mission.
NEHRP Budget
    Original funding for NSF and USGS earthquake research activities in 
1978 was $67 million (Chart 1). Though program activities have expanded 
substantially, today's NEHRP budget is well below its original level in 
real dollars. Also, funding for the program has tended to be reactive, 
going through periods of gradual decline only to be followed by sharp 
increases after significant earthquake events. Expanded program 
activities and inconsistent, declining funding, combined with the fact 
that the cost of performing research has increased faster than 
inflation, have clearly limited the ability of NEHRP to effectively 
meet program objectives.
    The FY 2004 total funding request for NEHRP is $112.9 million 
(Table 1). This level is essentially flat, both in total and across 
agencies, compared to the appropriated levels of the last three years 
(with the exception of NSF, which has had a gradual decrease due to the 
planned completion of the George E. Brown, Jr. Network for Earthquake 
Engineering Simulation, NEES). NEHRP is funded through three different 
appropriations bills (VA/HUD, Interior, and Commerce-State-Justice), 
none of which include agency lines for NEHRP programs. This factor, 
along with the often unclear budget request breakdowns for the program, 
have made NEHRP budget and activities difficult to interpret and 
analyze.
    The Science Committee has been particularly concerned with the lack 
of funding for the Advanced National Seismic System (ANSS), a network 
of instruments for monitoring and providing early warning of 
earthquakes. ANSS was authorized by the most recent NEHRP 
reauthorization law in 2000 (P.L. 106-503) at $170 million over five 
years. In each of its first three years, it has been funded at only 
about 10 percent of the authorized level.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


6. ABOUT EARTHQUAKES

        -- When the crust of the earth is subject to tectonic forces, 
        it bends slightly. But because the crust is rigid, when the 
        stress or pressure from the tectonic forces exceeds the 
        strength of the rocks, the crust breaks and snaps into a new 
        position. This creates vibrations called seismic waves, which 
        travel both through the earth and along its surface. These 
        seismic waves cause the ground shaking we call earthquakes.

        -- It is estimated that there are 500,000 detectable 
        earthquakes in the world each year. 100,000 of those can be 
        felt, and 100 of them cause damage.

        -- In the 20th century, more than 100 earthquakes occurred 
        worldwide that each resulted in losses of more than 1,000 
        lives. The deadliest earthquake in modern times occurred in 
        1976 in Tangshan, China, killing more than 250,000 people. In 
        1990, a major earthquake in Iran killed 40,000 people.

        -- Almost 40 states are subject to either moderate or high 
        seismic risk. Alaska is the most earthquake-prone state and one 
        of the most seismically active regions in the world. Alaska 
        experiences a magnitude 7 earthquake almost every year. The 
        largest recorded earthquake in the United States was a 
        magnitude 9.2 that struck Prince William Sound, Alaska on March 
        28, 1964.

        -- Southern California experiences 10,000 earthquakes a year. 
        Only about 15-20 of these are above magnitude 4.0. On the other 
        side of the spectrum, there were four states that did not have 
        any earthquakes from 1975-1995: Florida, Iowa, North Dakota, 
        and Wisconsin.

        -- While most earthquakes in the United States occur on the 
        West Coast and in Alaska, a major fault line also exists in the 
        Central United States. Known as the New Madrid Fault, a series 
        of major earthquakes occurred on this fault line in 1811 and 
        1812. The effects of shaking from these magnitude 8+ 
        earthquakes reportedly caused church bells to ring in Boston 
        and moved furniture in the White House.

8. WITNESS QUESTIONS

    The witnesses were asked to address the following questions in 
their testimony:

Question for all witnesses
    What factors have limited the success of NEHRP, and what policy 
changes would you recommend to remove these limitations? How can the 
NEHRP participating agencies improve planning, coordination, and 
general administration of NEHRP to better meet the vision for the 
program set forth by Congress?
Questions for Dr. Lloyd Cluff

        <bullet> Discuss how geology and earth sciences research 
        related to earthquake processes has improved our understanding 
        of seismic hazards. How have these advancements contributed to 
        our ability to protect from the loss of lives and property due 
        to earthquakes? How has the focus of NEHRP earth sciences 
        research evolved since the inception of NEHRP?

        <bullet> How would a major earthquake potentially affect the 
        operations of critical lifelines such as utilities, hospitals, 
        and communications centers? How does Pacific Gas and Electric 
        utilize NEHRP research and activities to protect against such 
        disasters?

        <bullet> In your capacity as Chairman of the USGS Earthquake 
        Studies Advisory Committee, discuss the findings and 
        recommendations of your Committee with regard to the U.S. 
        Geological Survey's role in NEHRP.

        <bullet> How would you prioritize limited federal funds among 
        specific NEHRP research and mitigation activities (earthquake 
        monitoring, hazard assessment, performance-based engineering, 
        lifeline reinforcement, code development and adoption, 
        education and outreach, post-earthquake response and 
        investigation, etc.)?

        <bullet> How will the transfer of FEMA into the Department of 
        Homeland Security affect the success of NEHRP? How do NEHRP 
        research and mitigation activities benefit other efforts to 
        increase our preparedness for all types of hazards, such as 
        hurricanes, floods, tornadoes, and terrorist events?

Questions for Mr. Anthony Lowe

        <bullet> Discuss the significant achievements of the NEHRP 
        program during its first 25 years. What factors have been most 
        important in contributing to this success? In what areas may 
        the program not be realizing its full potential? How does the 
        NEHRP of 2003 differ from the program that was originally 
        established in 1977?

        <bullet> Provide an overview of FEMA's NEHRP activities, 
        including information on efforts related to: (1) planning and 
        coordination of the program with participating agencies; (2) 
        promoting the implementation of earthquake hazard reduction 
        measures by Federal, State, and local governments, as well as 
        private entities; (3) accelerating the application of research 
        advances into practice; (4) combining measures for earthquake 
        hazards reduction with measures for reduction of other natural 
        hazards; and (5) harnessing the potential of information 
        technology in meeting NEHRP goals.

        <bullet> How will the transfer of FEMA into the Department of 
        Homeland Security affect the success of NEHRP, and how will 
        FEMA ensure that the program receives adequate support within 
        the expanded layers of government in the DHS structure? How do 
        NEHRP research and mitigation activities benefit other efforts 
        to increase our preparedness for all types of hazards, such as 
        hurricanes, floods, tornadoes, and terrorist events?

        <bullet> Please provide with your testimony a detailed 
        budgetary breakdown of each participating agency's NEHRP 
        activities, as well as a status report and estimated timetable 
        for the completion of the strategic plan required by Public Law 
        101-614.

Questions for Mr. Robert Olson

        <bullet> Discuss the evolution of federal earthquake 
        mitigation efforts over the last 40 years, from initial 
        interest in the 1960's, through establishment of NEHRP in 1977, 
        to where we are today. What notable successes have these 
        efforts produced? What significant events and developments have 
        impacted the program, both negatively and positively?

        <bullet> How can the resources and expertise of non-NEHRP 
        emergency preparedness activities (hurricane, flood, tornado 
        mitigation) and agencies (i.e., NASA, NOAA) best partner with 
        NEHRP to further the goals of the program?

        <bullet> How will the transfer of FEMA into the Department of 
        Homeland Security affect the success of NEHRP? How do NEHRP 
        research and mitigation activities benefit other efforts to 
        increase our preparedness for all types of hazards, such as 
        hurricanes, floods, tornadoes, and terrorist events?

Questions for Dr. Thomas O'Rourke

        <bullet> Discuss how research in structural, geotechnical, and 
        other engineering disciplines has improved our ability to 
        protect lives and property from earthquake hazards? How has the 
        focus of NEHRP engineering research evolved since the inception 
        of NEHRP?

        <bullet> Discuss the findings and recommendations of the 
        comprehensive EERI report ``Securing Society Against 
        Catastrophic Earthquake Loss: A Research and Outreach Plan in 
        Earthquake Engineering.'' How should policy-makers prioritize 
        limited federal funds among and within the five program areas 
        discussed in the report (Understanding Seismic Hazards, 
        Assessing Earthquake Impacts, Reducing Earthquake Impacts, 
        Enhancing Community Resilience, and Expanding Education and 
        Public Outreach)?

        <bullet> Discuss the potential of information technology to 
        contribute to earthquake mitigation. To date, has NEHRP 
        effectively harnessed this potential?

        <bullet> How will the transfer of FEMA into the Department of 
        Homeland Security affect the success of NEHRP? How do NEHRP 
        research and mitigation activities benefit other efforts to 
        increase our preparedness for all types of hazards, such as 
        hurricanes, floods, tornadoes, and terrorist events?

Questions for Dr. Lawrence Reaveley

        <bullet> Discuss how research in structural engineering has 
        improved our ability to protect lives and property from 
        earthquake hazards? How has the focus of NEHRP structural 
        engineering research evolved since the inception of NEHRP?

        <bullet> How would you prioritize limited federal funds among 
        specific NEHRP research and mitigation activities (earthquake 
        monitoring, hazard assessment, performance-based engineering, 
        lifeline reinforcement, seismic rehabilitation, code 
        development and adoption, education and outreach, post-
        earthquake response and investigation, etc.)?

        <bullet> What are the major impediments to improving the 
        overall seismic performance of buildings, both new and 
        existing? Is the pace and extensiveness of code development and 
        adoption improving? Is there anything the Federal Government 
        can do to facilitate increased adoption of seismic codes in 
        areas of high seismic risk? Is seismic rehabilitation an 
        economical use of earthquake mitigation funds?
    Chairman Smith. The Subcommittee on Research will be in 
order. I thank all of the witnesses for being here today, and I 
apologize for holding up the starting at the beginning of this 
committee session on the important topic of reauthorizing NEHRP 
and how do we best protect ourselves from earthquakes in this 
country and help with our advice and technology around the 
world. You know, NEHRP was established in 1977, created as the 
Federal Government's response to several large earthquakes in 
the United States and around the world that served, probably, 
as a wake up call to the significant threats that earthquakes 
posed to the people and infrastructure of many of our heavy 
populated metropolitan areas.
    And I think it is important that we stress that this just 
isn't a West Coast problem. It is certainly the best known 
location for earthquake risks lately, but it is not the only 
part of the country vulnerable to earthquake hazards. Alaska is 
even more seismically active than California, in fact. The--a 
massive 7.9 magnitude earthquake underneath the Trans-Alaskan 
Oil Pipeline struck just last November and we will hear from 
witnesses of this quake that went unnoticed, largely thanks to 
some of our witnesses today and the foresight and funding to 
mitigate the hazard when the pipeline was being constructed.
    The Eastern United States is not immune, either. A very 
large fault centered in eastern Missouri was the site of one of 
the largest earthquakes in American history, which had 
consequences all the way to James Madison's White House and the 
bells in Boston. More recently, two smaller but noticeable 
quakes, one last week in Alabama and one on Monday near 
Charlottesville, Virginia, I think, surface to remind us that 
the threat is constant and far reaching and indeed deserves the 
attention and the funding of taxpayers from all over the 
Nation.
    I look back at the progress from the first 25 years of 
NEHRP and it shows that the program has contributed 
significantly to our ability to protect against earthquake 
hazards. Our understanding of fault lines and seismic risks has 
improved dramatically, and we know much more about how to build 
structures that perform well even during severe earthquakes. 
And the question I think and the challenge before us is how do 
we implement these precautions that we know how to construct at 
the moment.
    And without objection, the rest of my statement will be 
going into the record, and I would call on the Ranking Member.
    [The prepared statement of Mr. Smith follows:]

               Prepared Statement of Chairman Nick Smith

    Good afternoon and welcome to the first Research Subcommittee 
meeting of the 108th Congress. Today we meet to review the National 
Earthquake Hazards Reduction Program, NEHRP, in preparation for 
reauthorization later this year.
    Established in 1977, NEHRP was created as the Federal Government's 
response to several large earthquakes in the United States and around 
the world that served as a wake-up call to the significant threats that 
earthquakes posed to the people and infrastructure in many of our 
heavily populated metropolitan areas.
    While the West Coast--and California in particular--is certainly 
the best-known location for earthquake risks, it is not the only part 
of the country vulnerable to earthquake hazards. Alaska is even more 
seismically active than California--in fact a massive 7.9 magnitude 
earthquake underneath the trans-Alaskan oil pipeline struck just last 
November. As we will hear from our witnesses this quake went unnoticed, 
largely thanks to the foresight and funding to mitigate this hazard 
when the pipeline was being constructed.
    The Eastern United States is not immune either. A very large fault 
centered in Eastern Missouri was the site of one of the largest 
earthquakes in American history--which in 1812 famously rang church 
bells in Boston and moved furniture in James Madison's White House. And 
more recently, two smaller but noticeable earthquakes--one last week in 
Alabama and one on Monday near Charlottesville, Virginia--serve to 
remind us that the threat is constant and far reaching. Indeed, 
earthquakes are clearly not just a state or regional problem, but a 
nationwide problem, demanding nationwide mitigation.
    A look back at the progress from the first 25 years of NEHRP shows 
that the program has contributed significantly to our ability to 
protect against earthquake hazards. Our understanding of fault lines 
and seismic risks has improved dramatically. We know much more about 
how to build structures that perform well during even the largest of 
earthquakes. And we now have technologies available for seismic 
monitoring that provide real-time earthquake information to public 
officials and emergency responders.
    Despite these advances, our vulnerability to earthquakes has 
continuously increased. Widespread development still occurs unabated in 
areas of high seismic risk. Development, adoption, and enforcement of 
pertinent building codes have been incremental and slower than 
expected. And now we see funding for available mitigation technologies 
at all levels of government has steadily declined in real terms. The 
only exceptions are two brief increases following the 1989 and 1994 
Loma Prieta and Northridge earthquakes, respectively. While the 
reactive nature of Congressional support for programs like NEHRP is a 
political reality, disasters should not be the only time we acknowledge 
the importance of earthquake mitigation.
    It is clear that NEHRP needs to be strengthened. In addition to 
funding challenges, several aspects of program leadership and 
coordination continue to be an ongoing problem. The low visibility of 
the program has also limited its success. Knowledge and awareness of 
these needs within the Office of Management and Budget, relevant 
appropriators, and even to some degree NEHRP agencies--has been too 
low. Many outside of this committee and a small outside community of 
earthquake interests--are unaware that this coordinated effort even 
exists. These factors need to be addressed as we reauthorize the 
program.
    Finally, I want to note my disappointment with the continued under-
funding of the Advanced National Seismic System (ANSS), the real-time 
seismic monitoring system for which we authorized funds for 
construction and operation as part of the last NEHRP authorization bill 
over three years ago. The earthquake community is in almost unanimous 
agreement that funding ANSS should be a top priority--the NEHRP 
Strategic Plan, the EERI Research and Outreach Plan, and the USGS 
Advisory Committee recommendations all cite ANSS as the top priority--
but this has not translated to funding requests anywhere near the 
levels this committee authorized. We need to find a way to fund ANSS. 
We may not be able to do this with all new funding, but rather have to 
find some trade-offs elsewhere in NEHRP, but we have to follow up our 
recognition of its importance with funding.
    Certainly we know that earthquakes cannot be prevented. But we can 
mitigate their impact. That is why the NEHRP exists, and that is why we 
are here today to discuss how we can improve the program.
    We have a very esteemed panel of witnesses before us today that 
will present some innovative ideas and opinions on how to best bring 
about meaningful improvements to NEHRP. I thank them for appearing here 
today, and look forward to a productive discussion.

    Ms. Johnson. Thank you very much, Mr. Chairman. I thank you 
for calling this hearing, and I am pleased to join you in 
welcoming our witnesses today for this initial hearing on the 
National Earthquake Hazardous--Hazards Reduction Program. This 
hearing will begin to lay the groundwork necessary for the 
Research Subcommittee to develop authorizing legislation for 
this interagency program. NEHRP was established 25 years ago to 
address the serious seismic hazard in the United States. It has 
the major goal of determining how to lower the risks to people 
and to the built environment.
    Today, 75 million Americans and 39 states are directly 
vulnerable to a serious earthquake. The potential economic 
losses in a large metropolitan area due to a major earthquake 
could be over $100 billion. These facts make the justification 
for NEHRP self-evident and its relevance even after 25 years 
continues.
    The Subcommittee's attention will be directed to other 
questions about the program. These include: how well is it 
being run, is it focused on the highest priority issues, and is 
it adequately funded to meet the goals? The witnesses today, 
hopefully, will describe the accomplishments of NEHRP, and 
there have been many, but as we approach the reauthorization of 
this program, it is important to consider the areas where more 
needs to be done. On such--one such area is the technology 
transfer that will bring into practice what has been learned 
from the research activities--most effective and economically 
ways for enhancing the seismic safety of the built environment. 
Also, attention must be directed to deficiencies in the 
planning and administration of the program.
    In 1993, the former Chairman of the Science Committee, Mr. 
George Brown, wrote the President to express his concerns about 
NEHRP. He cited the lack of strategic planning, insufficient 
coordination and implementation of research results, and a lack 
of emphasis on mitigation. Unfortunately, most of these 
concerns are still valid.
    I am particularly disappointed with the performance of FEMA 
in its role as the lead agency for NEHRP. The strategic plan 
FEMA is statutorily mandated to develop and submit to Congress 
has been in limbo for a very long while and has only now 
surfaced, just in time for today's hearing, but about 10 years 
overdue. In the last NEHRP reauthorization in 2000, Congress 
directed FEMA to work jointly with the other NEHRP agencies to 
prepare a detailed implementation plan and budget for the 
program for submittal to OMB during the budget formulation 
process. I doubt that this has been done for any budget year 
since the requirement was put into place.
    FEMA was not able to provide a breakout of the various 
agencies' NEHRP budgets on the day the President's fiscal year 
2004 budget was released. Developing a NEHRP authorization 
bill, the Subcommittee must reassess the current structure of 
the program, including the roles and responsibilities of 
participating agencies. We must determine whether FEMA, in its 
new status as a component of the Department of Homeland 
Security, is willing and able to provide the leadership needed 
to ensure a well coordinated, carefully planned, and 
effectively executed NEHRP.
    Another major issue I look forward to exploring in this 
hearing is the adequacy of the resources available for NEHRP. I 
invite the witnesses to comment on whether the current funding 
is allocated in optimum ways and to identify what they consider 
the most serious deficiencies of the program. If NEHRP were to 
receive an infusion of funding, what are the priorities that 
deserve attention? I would also welcome suggestions on how 
NEHRP could help accelerate the transfer of research findings 
to practical mitigation practices.
    Mr. Chairman, I want to thank you for calling the hearing. 
And I might have to leave since I am working with another 
Committee, but I do--I would like the answers. Thank you very 
much.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Mr. Chairman, I am pleased to join you in welcoming our witnesses 
today to this initial hearing on the National Earthquake Hazards 
Reduction Program. This hearing will begin to lay the groundwork 
necessary for the Research Subcommittee to develop authorizing 
legislation for this interagency program.
    NEHRP was established 25 years ago to address the serious seismic 
hazard in the United States. It has the major goal of determining how 
to lower the risk to people and to the built environment. Today, 75 
million Americans in 39 states are directly vulnerable to a serious 
earthquake. The potential economic losses in a large metropolitan area 
due to a major earthquake could be over $100 billion.
    These facts make the justification for NEHRP self evident, and its 
relevance, even after 25 years, continues. The Subcommittee's attention 
will be directed to other questions about the program. These include: 
how well is it being run, is it focused on the highest priority issues, 
and is it adequately funded to meet its goals?
    The witnesses today will describe the accomplishments of NEHRP, and 
there have been many. But, as we approach the reauthorization of the 
program, it is important to consider the areas where more needs to be 
done. One such area is the technology transfer that will bring into 
practice what has been learned from the research activities about the 
most effective and economical ways for enhancing the seismic safety of 
the built environment. Also, attention must be directed at deficiencies 
in the planning and administration of the program.
    In 1993, the former Chairman of the Science Committee, George 
Brown, wrote the President to express his concerns about NEHRP. He 
cited the lack of strategic planning, insufficient coordination and 
implementation of research results, and a lack of emphasis on 
mitigation. Unfortunately most of these concerns are still valid.
    I am particularly disappointed with the performance of FEMA in its 
role as the lead agency for NEHRP. The strategic plan FEMA is 
statutorily mandated to develop and submit to Congress has been in 
limbo for a long while and has only now surfaced, just in time for 
today's hearing, but 10 years overdue.
    In the last NEHRP reauthorization in 2000, Congress directed FEMA 
to work jointly with the other NEHRP agencies to prepare a detailed 
implementation plan and budget for the program for submittal to OMB 
during the budget formulation process. I doubt that this has been done 
for any budget year since the requirement was put in place. FEMA was 
not able to provide a breakout of the various agencies' NEHRP budgets 
on the day the President's FY 2004 budget was released.
    Mr. Chairman, in developing the NEHRP authorization bill, the 
Subcommittee must reassess the current structure of the program, 
including the roles and responsibilities of the participating agencies. 
We must determine whether FEMA, in its new status as a component of the 
Department of Homeland Security, is willing and able to provide the 
leadership needed to ensure a well coordinated, carefully planned, and 
effectively executed NEHRP.
    Another major issue I look forward to exploring in this hearing is 
the adequacy of the resources available for NEHRP. I invite the 
witnesses to comment on whether the current funding is allocated in 
optimum ways and to identify what they consider are the most serious 
deficiencies of the program. If NEHRP were to receive an infusion of 
funding, what are the priorities that deserve attention? I would also 
welcome suggestions on how NEHRP could help accelerate the transfer of 
research findings to practical mitigation measures.
    Mr. Chairman, I want to thank you for calling this hearing and 
thank our witnesses for appearing before the Subcommittee today. I look 
forward to our discussion.

    Chairman Smith. The Chair would like to align himself with 
your comments, Congresswoman Johnson, particularly your 
suggestion to FEMA that better late than never, but better on 
time than being late. And so with that, if there is no 
objection, all additional opening statements by the 
Subcommittee Members would be added to the record. And without 
objection, so ordered.
    At this time, I would like to introduce our panelists. Mr. 
Anthony Lowe is the Administrator of the Federal Insurance 
Mitigation Administration for FEMA. Mr. Robert Olson is 
President of the Robert Olson Associates, Incorporated. Mr. 
Lloyd Cluff is Director of Geosciences and Earthquake Risk 
Management at Pacific Gas and Electric Company and Chair of the 
USGS Federal Advisory Committee for NEHRP. And Dr. Tom O'Rourke 
is the President of the Earthquake Engineering Research 
Institute at Cornell University and civil and environmental 
engineering professor. And Dr. Lawrence Reaveley is Professor 
of Civil Engineering, but will be more completely introduced by 
Mr. Matheson.
    Mr. Matheson. Well, thank you, Mr. Chairman, and Ranking 
Member Johnson. I appreciate having the opportunity to 
introduce my constituent, Dr. Lawrence Reaveley. And very 
briefly, he has 40 years of experience in structural 
engineering, earthquake code development, and earthquake risk 
mitigation, and he also assessed damaged concrete buildings 
following the 1999 earthquake that devastated Turkey as part of 
an Advanced Technology Council Survey Team. Currently, Dr. 
Reaveley is Professor and Chair of the Department of Civil and 
Environmental Engineering at the University of Utah. He also 
serves as the President of the Structural Engineering 
Association of Utah. He was just telling me he was involved in 
the seismic retrofit of the Federal building in downtown Salt 
Lake City for which he--GSA [General Services Administration] 
recognized that effort with an award.
    Thanks to the Utah Legislature, I no longer have that 
building in part of my district, so my office is no longer in 
that building, but we were there for the construction. Dr. 
Reaveley, it is really a pleasure to have you here today, and I 
want to thank you for your participation in this hearing and 
look forward to your comments.
    Chairman Smith. Thank you. And we no longer formally 
administer the oath, but you are, in effect, under oath 
testifying before a panel of the United States Congress. And 
Mr. Lowe, as best you can, limit to about five minutes, but 
thereabouts we would be comfortable with. Mr. Lowe.

   STATEMENT OF MR. ANTHONY S. LOWE, ADMINISTRATOR, FEDERAL 
   INSURANCE MITIGATION ADMINISTRATION; DIRECTOR, MITIGATION 
   DIVISION, EMERGENCY PREPAREDNESS AND RESPONSE DIRECTORATE 
 (FEDERAL EMERGENCY MANAGEMENT AGENCY), DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Lowe. Thank you. Thank you so much. Chairman Smith, 
Ranking Member Johnson, Members of the Subcommittee, my name is 
Anthony S. Lowe, Federal Insurance Administrator and Director 
of the Mitigation Division of FEMA in the Department of 
Homeland Security. On behalf of the National Earthquake 
Hazard----
    Chairman Smith. Mr. Lowe, just a second. Sorry for the 
interruption. What is happening now? It is--they are calling a 
vote, which sometimes disrupts the proceedings, but we will go 
along with at least your testimony and then we will recess for 
five minutes to make the vote. So excuse the interruption.
    Mr. Lowe. Thank you so much. I am used to being over on the 
Senate side where the buzzer is a little different, and you 
have got the clock with the lights on it. So I was looking 
around the room, but I didn't see one. Okay. I guess we need 
lights over there. You are a little more sophisticated on this 
side, I think.
    Nevertheless, as I said, on behalf of the National 
Earthquake Hazards Reduction Program, NEHRP, we appreciate the 
invitation to appear today before the Subcommittee on Research. 
The Committee has asked me, and so I am joined by Craig Wingo, 
head of our Engineering Science and Technology Program. 
Congress assigned the Federal Emergency Management Agency, 
FEMA, the core of the Department of Homeland Security's 
Emergency Preparedness and Response Directorate, to serve as 
the lead agency for NEHRP. Our role, in reality, is leadership 
among equals. And that also includes the United States 
Geological Survey, USGS, the National Science Foundation, NSF, 
and the National Institute of Standards, NIST.
    This past year, as you know, marks the 25th year since 
Congress first authorized NEHRP, and I am pleased to report 
that it is sound. In our role as lead federal agency, we are 
implementing a number of results-oriented management 
initiatives so that we can build upon the program's past 
successes and current strengths. We will accomplish this while 
maintaining strong partnerships with other NEHRP agencies and 
stakeholders. These partnerships have been vital to our success 
over the past 25 years, and they are also key to our future 
success.
    As you may be aware, we recently co-sponsored a forum with 
the other NEHRP agencies and the National Academy of Sciences 
to celebrate the 25th anniversary of the program and its many 
successes. Mr. Chairman, with your permission, I would like to 
present a brochure from that forum that illustrates just ten of 
the programs accomplished over the past 25 years.
    [Note: The information referred to is located in Appendix 
3: Additional Material for the Record.]
    Thank you so much. Two other more notable accomplishments 
are we now have a nationally applicable seismic building 
standard that serves as a basis for the Nation's modeling--
model building codes, and many states are adopting those 
provisions in their own codes. Also, we have made significant 
progress in providing seismic design guides for the Nation's 
lifelines, such as power, water, transmission, and the critical 
infrastructure such as bridges and hospitals.
    Fundamental to NEHRP's mission is that our earthquake loss 
reduction efforts are built upon a solid foundation of basic as 
well as applied research. To further that goal, FEMA, in 
concert with other NEHRP agencies, has completed the 
development of the NEHRP strategic plan, which has been 
referred to by the Committee.
    Mr. Chairman, with your permission, I would also like to 
submit another copy, for the record, of the strategic plan.
    [Note: The information referred is located in Appendix 3: 
Additional Material for the Record.]
    As you know, this plan represents considerable coordination 
among our NEHRP----
    Chairman Smith. Is that a different----
    Mr. Lowe. No, it is the same.
    Chairman Smith [continuing]. Plan from the first?
    Mr. Lowe. No. This plan represents considerable 
coordination among our NEHRP partner agencies and stakeholders 
to arrive at a national consensus document, and we all are 
pleased with the results. Now, however, that the strategic plan 
is in place, I have consulted with my counterparts from the 
other NEHRP agencies, which is called the Policy Coordination 
Council, PCC, to begin to develop a management plan.
    I am going to just divert from my remarks a little bit and 
say a couple of words in reference to what has been said so far 
by both you, Mr. Chairman, as well as the Ranking Member. At 
the 25th anniversary celebration, what we were able to do is 
certainly celebrate the 25 years of accomplishments, but we did 
so without the strategic plan, which of course, really was the 
guiding document for the work that had been begun even before 
its passage and now really sets the stage. But with the 
strategic plan, my objective there and now was to 
operationalize that strategic plan. And the first part of that 
was to call for the first meeting of the PCC, the political 
heads, as well as the executive policy heads of the four NEHRP 
agencies, because in order for us to thoroughly carry out the 
strategic vision that the strategic plan calls for, it needs 
the commitment, both monetarily as well as staff-wise and 
expertise-wise, and also, if you will, the commitment of the 
synergy of our missions to really achieve the results that we 
are looking for. And so sitting with the four principals, we 
all decided that what we really needed was a management plan. 
And the purpose of that management plan, of course, is to 
provide monetary and control, both the systems to monitor as 
well as the process to, if you will, begin to implement the 
strategic plan.
    In addition, I called for, at that time, an annual plan, 
which would be really the operation and the program of work by 
which the ICC, which are Craig and the other program level 
folks who, if you will, take care of the day-to-day operations, 
would lead their work by, that way we all could look at what we 
are asking them to do that is coming from the strategic plan 
and then be able to monitor that against a set of performance 
metrics, which the management plan would call for and would be 
monitored.
    We also, of course, during that process, want to be able to 
continually evaluate programming, budgeting, planning, 
execution. We want to begin to be able to do that at the 
management level. And so I think this process allows us to do 
that.
    [Slide.]
    The next slide, very quickly, shows the many advisory 
groups that have been involved in this strategic planning 
process up to this point. The last thing I would say about the 
management plan is the purpose here in part is to carry out the 
full spirit of Section 206, which I--which really has to be 
done at the highest level of all of the agencies.
    That concludes my testimony. I look forward to any 
questions you may have.
    [The prepared statement of Mr. Lowe follows:]

                 Prepared Statement of Anthony S. Lowe

Chairman Smith, Ranking Member Johnson, and Members of the 
Subcommittee,

    I am Anthony S. Lowe, Federal Insurance Administrator, and Director 
of the Mitigation Division of the Emergency Preparedness and Response 
Directorate in the Department of Homeland Security. On behalf of the 
National Earthquake Hazards Reduction Program, or NEHRP, we welcome and 
appreciate the invitation to appear today before the Subcommittee on 
Research. I am joined by Craig S. Wingo, head of our Engineering 
Science and Technology Unit.
    I would like to do three things today: first, share with the 
Subcommittee what we
    have accomplished under NEHRP during the past two years; second, 
review for the Members our roles and responsibilities as lead agency of 
NEHRP; and finally, look to what lies ahead for NEHRP, especially in 
the post-9/11 environment.
    Congress assigned the Federal Emergency Management Agency (FEMA), 
now the core of the Department of Homeland Security's Emergency 
Preparedness and Response Directorate, to serve as the lead federal 
agency for NEHRP. Our lead role is in reality a leadership among equals 
that also include the United States Geological Survey (USGS), the 
National Science Foundation (NSF), and the National Institute of 
Standards and Technology (NIST).
    This past year marked 25 years since Congress first authorized 
NEHRP. We are pleased to report that the state of NEHRP is sound, and, 
in our role as lead federal agency, we are implementing a number of 
results-oriented management initiatives so that we can build upon the 
program's past successes and current strengths. Further, we will 
accomplish this while maintaining strong partnerships with the other 
NEHRP agencies, State and local governments, academia, the research 
community, code enforcement officials, design professionals, and the 
remainder of the private sector. These partnerships have been vital to 
the success of NEHRP during the past 25 years, and they will be key to 
our continued success in what lies ahead to reduce the exposure of our 
people, our economy, and our overall security as a nation to the 
threats of earthquakes and other related hazards.
    Specifically, we are responsible for the overall coordination of 
the NEHRP, both within the Federal Government and with external 
constituencies. By Congressional mandate, we prepare a consolidated 
multi-year plan and periodic reports to Congress. We also translate the 
results of research and technology into effective earthquake loss 
reduction methodologies, and we administer a program of grants and 
technical assistance to States and multi-state consortia. These 
activities heighten public awareness of the earthquake hazard and 
foster plans to reduce seismic vulnerability.
    We also support the development and dissemination of improved 
seismic design and construction criteria for new buildings and retrofit 
guidance for existing buildings. This material is made available to 
design professionals, and Federal, State and local entities for 
voluntary use through model building codes and standards.
    NEHRP is a key component in the Department's mission to secure and 
protect this nation because earthquakes represent the largest single 
potential for casualties, damage, and economic disruption from any 
natural hazard facing this country. All but 11 States and territories 
are at some level of earthquake risk.
    The National Security Council (NSC) in 1982 underscored the threat 
of earthquakes to the United States and estimated that a large 
magnitude earthquake in urban areas could cause thousands of 
casualties, and losses approaching $200 billion. The NSC issued a 
report identifying the need for FEMA to develop a federal interagency 
response plan for the life-saving and life-protecting phases of a 
disaster operation to assist States and localities since States and 
localities would, in many cases, be overwhelmed in the first days after 
a catastrophic earthquake. In the 20 years since this report was 
completed, our improved knowledge of the earthquake hazard has only 
served to buttress the Council's findings.
    Recent findings from the USGS show a significantly increased 
potential for damaging earthquakes in both southern and northern 
California. Studies also show higher potential of earthquakes for the 
Pacific Northwest, the New Madrid fault zone in the central U.S., and 
coastal South Carolina. This exposure is in addition to other areas of 
earthquake risk, such as New England and the Wasatch front in Utah. We 
know that while earthquakes may be inevitable, earthquake disasters are 
not.
    Furthermore, earthquakes in critical locations can have national 
economic consequences. For example, a major earthquake in the central 
United States on the New Madrid fault might well disrupt oil and gas 
distribution to the Northeast, gridlock barge traffic on the 
Mississippi River, and disrupt travel and communications hubs that 
serve national and international markets.
    The good news is that we can reduce the earthquake risk that our 
nation faces through a shared responsibility under the NEHRP. In the 
face of this threat, NEHRP is working and succeeding.
    Since we last appeared before you, our country has experienced 
several large-scale events, most notably the Nisqually earthquake 
outside of the Seattle area in February 2001. The Nisqually event was 
roughly the same magnitude as our largest recent earthquake disaster, 
the January 1994 Northridge earthquake. That latter event, located on 
the fringe of a major metropolitan area, caused over $30 billion in 
damage. However, the epicenter of the Nisqually earthquake was fairly 
deep in the earth, and this depth served to significantly reduce 
surface ground motions and resultant damages. Nonetheless, we need to 
recognize the City of Seattle for their significant mitigation 
activities and the effective building code which helped further reduce 
the impact of the event. By comparison, the Kobe, Japan earthquake 
demonstrated the impact of an event of similar size located directly 
under a major metropolitan area. The result was over $100 billion in 
damages and approximately 5,500 fatalities in Kobe, a city strikingly 
similar to Oakland, California in its proximity to the sea with 
resultant poor soil conditions, and the fault which runs through the 
middle of the city.
    The depth of the Nisqually earthquake, which served to reduce its 
effects at the surface by at least a full point of magnitude, and the 
timing of both the Northridge earthquake, which occurred at four in the 
morning on a holiday, and the Loma Prieta earthquake, which shook the 
San Francisco Bay area on a day when many had left work early to watch 
the World Series game, all worked to lessen the impact of these events. 
Thus, thankfully, we avoided the types of losses that Kobe suffered, 
but we cannot ignore their warning signs.
    Many of NEHRP's activities include taking what research has 
discovered and what technology has developed and translating those 
findings into practical seismic risk reduction measures as well as 
training, education, and advocacy for earthquake hazard mitigation 
measures. In these activities the NEHRP agencies work together, work 
with other Federal and State agencies, universities, and private, 
regional, voluntary and professional organizations. The end results are 
safer buildings, safer infrastructures, more aware citizens, and more 
proactive State and local governments.
    As you may be aware, we were pleased to have recently co-sponsored 
a forum with the other NEHRP agencies and the National Academy of 
Sciences celebrating the 25th anniversary of the program and its many 
successes. Mr. Chairman, I have a brochure from that forum that 
illustrates just 10 examples of the program's successes over the past 
25 years. With the Committee's permission, I would like the brochure to 
be included in the record. A number of representatives of the 
stakeholder community who have been so instrumental in the success of 
the NEHRP provided input for this brochure, and I am pleased to see 
some of them here today.
    In addition to the 10 examples listed in the 25th anniversary 
brochure before you, there have been many more successes. Among them 
are the following:

        <bullet> At the program's inception 25 years ago, the geologic 
        theory of plate tectonics was less than 10 years old, and we 
        really did not understand how earthquakes worked. We now have 
        significantly more knowledge of the faults located throughout 
        our country and how they work. This may allow us eventually to 
        forecast, if not actually predict, future activity.

        <bullet> When Congress first authorized NEHRP in 1977, the 
        only State with an adequate seismic building code was 
        California, and that code was not applicable outside of the 
        State. We now have a nationally applicable seismic building 
        standard. It serves as the basis for the seismic requirements 
        in the Nation's model building codes, and many States are 
        adopting those provisions in their own codes.

        <bullet> We now have earthquake engineering research centers 
        throughout the country funded through NSF that are continuing 
        to add to the body of knowledge about earthquakes and their 
        effects. Soon we will have a national high-speed Internet 
        system in place that will allow researchers to access and 
        participate in research work from anywhere in the country.

        <bullet> We now have design guidance in place that addresses 
        the risk from existing buildings, and we have facilitated the 
        introduction of this material into the Nation's building codes 
        and standards.

        <bullet> We have begun the process of providing seismic design 
        guidance for the Nation's lifelines, such as buried pipelines 
        and water systems, and other critical infrastructure.

        <bullet> We now have seismic expertise at the State and local 
        level throughout the country that has done much to implement 
        the program and reduce future losses.

    While the Program has been a success by all measures, it is not 
without its challenges.
    The Earthquake Hazards Reduction Act of 1977 (Act) designated FEMA 
as the lead agency of a program consisting of four federal agencies 
with different cultures and different charters, each with its own 
budget. The Act did not, however, authorize us to direct resources to 
where the Program may have the greatest need. In spite of this 
challenge, the NEHRP has accomplished what it has through collaboration 
and cooperation.
    That spirit of cooperation must continue. Toward that end, I assure 
this subcommittee that the Interagency Coordinating Committee, 
consisting of the four agencies' program managers, will continue to 
meet on a bimonthly basis to improve communication with respect to our 
program activities. In addition, I recently held a meeting of the 
Policy Coordination Committee, with my three counterparts from the 
other NEHRP agencies, and I plan to hold these meetings three times a 
year.
    But fundamental to NEHRP's mission is that the Nation's earthquake 
loss reduction efforts are built upon a solid foundation of basic and 
applied research. To further that goal, FEMA, in concert with the other 
NEHRP agencies, has completed the development of the NEHRP Strategic 
Plan, Using Knowledge to Reduce Earthquake Losses. Mr. Chairman, with 
your permission, I would like to submit this strategic plan for the 
record.
    All four agencies worked closely throughout this process, and we 
believe this Plan and the way it was developed have been responsive to 
the March 1997 letter co-signed by then-Chairman Sensenbrenner and 
Ranking Member Brown. That letter raised the concerns that the NEHRP 
was not sufficiently focused on actions to reduce future earthquake 
losses and specifically requested the development of a strategic plan 
for the program. This Plan is the product of a considerable amount of 
coordination among our NEHRP partner agencies as well as all of our 
outside partners, and we are all pleased with the results.
    This process required more time than we anticipated, but the Plan 
before you has the approval of the NEHRP agencies and its stakeholders. 
While the production of the Plan itself may have been delayed, let me 
assure you that the material contained in the Plan, the four goals and 
all that they represent to the Program, have been in use by the four 
agencies and many of our partners for quite some time.
    The NEHRP Strategic Plan cites the following mission for NEHRP to 
provide effective, timely guidance as we work to improve seismic safety 
in this country:

        ``The mission of the National Earthquake Hazards Reduction 
        Program is to develop and promote knowledge and mitigation 
        practices and policies that reduce fatalities, injuries, and 
        economic and other expected losses from earthquakes.''

    To achieve this mission, the Strategic Plan spells out four goals:

        A. Develop effective practices and policies for earthquake 
        loss-reduction and accelerate their implementation;

        B. Improve techniques to reduce seismic vulnerability of 
        facilities and systems;

        C. Improve seismic hazard identification and risk-assessment 
        methods and their use; and

        D. Improve the understanding of earthquakes and their effects.

    The goals are deliberately ordered, beginning with the most 
important, that is, reducing losses, followed by successive goals, each 
of which provides a basis for the previous one, ending with a solid 
foundation of basic and applied research.
    With the completion of the NEHRP Strategic Plan, the next challenge 
is the coordination of program research within that framework.
    While research alone increases our knowledge of earthquakes, it 
must be coordinated and applied to reduce future losses to be 
effective. Dr. Dan Abrams of the Mid America Earthquake Center recently 
wrote an excellent article detailing this need for improved 
coordination of research.
    To this end, I have directed the formation of a subcommittee of the 
FEMA-chaired Interagency Coordination Committee to specifically address 
research coordination issues. The National Science Foundation has 
volunteered to chair the initial term. This Research Coordination 
Subcommittee is charged with developing a Research Coordination Plan of 
Work, which will be an operational component of the overall NEHRP 
Strategic Plan. This Subcommittee will be chaired on a rotating basis 
by each of the three NEHRP agencies that conducts research.
    While research will always be an integral component of NEHRP, we 
believe that NEHRP will need to shift the program's emphasis from 
primarily one of research to the application of research results to 
reduce losses. Our knowledge has now reached the point where we have to 
effectively implement the results of this work to reduce earthquake 
losses. I have directed the Research Subcommittee to address this issue 
in its work. I have also directed this group to reassess the NEHRP 
role, particularly the USGS, in producing cost-effective earthquake 
prediction technology, as called for in the 1977 legislation. This is a 
key complementary component to enhance the existing seismic monitoring 
program within the USGS.
    I will make certain that the work of this subcommittee is closely 
coordinated with my colleagues. I intend to coordinate this 
subcommittee's work with the new Department of Homeland Security 
Science and Technology Directorate to leverage efforts in both areas in 
an all-hazards framework which will benefit both NEHRP and the Science 
and Technology Directorate.
    Building upon the NEHRP Strategic Plan and my goal of a 
performance-driven, results-oriented Program, I would like to present 
our vision for the future of the Program. For NEHRP to remain relevant 
in the 21st century, it is no longer enough to study the earthquake 
problem; we must also develop and implement effective mitigation 
solutions. This means that the Program agencies must continue to 
evaluate our priorities and focus our activities in ways that will 
emphasize implementation of the Program. The Program must be able to 
provide not only the tools needed to reduce future losses, but also the 
incentives to encourage their use.
    NEHRP has been extremely successful in developing an impressive 
array of mitigation technologies that have been used very effectively 
by engineers, architects and building regulators when they have been 
given the resources to address the hazard. The problem, however, is 
that there has been little incentive or public demand to provide the 
resources necessary to reduce the risk.
    This is partially due to a lack of understanding or knowledge of 
the actual seismic threat which exists in any given area. It is also 
due to the faulty assumptions that designing and building to the 
building codes currently in place in many communities will result in a 
completely damage-free structure and that when there is damage, the 
Federal Government will invariably fund the necessary repairs through 
disaster assistance to make the building whole again. Both assumptions 
are false.
    Building codes in general only provide the minimum level necessary 
to protect lives, and do little to prevent damage. In addition, as you 
know, federal disaster assistance was never meant to replace insurance.
    Changing perceptions is key to serving the basic mission of NEHRP. 
Just as the American consumer has come to consider the safety of a 
vehicle to be a significant factor when buying a car, we envision a 
future where one of the key criteria in buying a house or building will 
be its safety from all hazards--how well was the building designed and 
constructed and whether it is certified to meet or even exceed a 
certain level of code performance and an associated level of safety.
    Unfortunately, one of the major weaknesses of the NEHRP is our lack 
of leverage for local and State levels of government to implement 
earthquake risk-reduction measures. So we must look for and find ways 
to provide this leverage with incentives and rewards for communities at 
risk that adopt and enforce adequate mitigation standards.
    The current public policy emphasis on pre-disaster mitigation and 
on improving the preparedness of local emergency management offers new 
avenues that we need to pursue in order to get our earthquake disaster-
resistance message into the hands of those who can best use this 
information. Our hope is that pre-disaster mitigation activities will 
serve both as the catalyst and the foundation for future risk-reduction 
activities by public and private sector interests.
    Ultimately, the Program will need to explore possible incentives 
that will encourage the use of our technology by the American public. 
Several years ago a study done by the Earthquake Engineering Research 
Institute, with NEHRP funding from FEMA and the State of California, 
provided some possible incentives. The findings of this study need to 
be pursued. I have directed the FEMA earthquake program staff to 
explore possible incentives and develop recommendations that would 
allow us to promote their use.
    However, all of this will require a careful review to ensure the 
best use of the resources of all of the parties--public and private. 
This means that we need to emphasize those aspects of our program that 
offer the greatest promise of helping communities and individuals 
acknowledge their risk, accept responsibility for reducing that risk, 
and take appropriate actions to become more disaster-resistant. It is 
the intention of the Program to use this strategic planning process to 
focus more heavily on this facet of our responsibilities.
    As I have indicated, a key to the success of NEHRP has been, and 
will continue to be, an effective translation of research to practice. 
A major element of this translation is a strong approach to 
communicating risk to different audiences in different parts of the 
country. The perception of the earthquake threat in California, where 
earthquake loss reduction is viable and risk perceived as probable, is 
far different than in other areas of the country, such as the New 
Madrid region with its high loss and low probability of occurrence, 
where the perception of risk is minimal. The general population of New 
England and other areas on the east coast represent an even greater 
contrast in that there is little perception of earthquake risk. A risk 
communications strategy will need to acknowledge these differences.
    The NEHRP agencies need to shift some of the focus of their 
research efforts to put a greater emphasis on behavior to understand 
how to influence perceptions, how to effectively communicate 
information in a way that helps those affected to not only understand 
their risk but begin to manage it as well.
    We have already started this shift in emphasis. This Subcommittee 
tasked FEMA with determining how effective the Program is in addressing 
the needs of at-risk populations, such as the elderly, people with 
disabilities, non-English-speaking families, single-parent households, 
and the poor. We found that there were a number of documents and 
delivery mechanisms directed at some of these audiences. The results, 
however, were mixed.
    It is apparent from the conclusions of the report, The National 
Earthquake Hazards Reduction Program and At-Risk Populations, which I 
have previously submitted under separate cover, that there are 
strategic opportunities that can increase the effectiveness of NEHRP 
agencies in addressing at-risk populations. Specifically, we found that 
there are five broad-based areas of opportunity:

        1. Leadership: Increase emphasis at the national and regional 
        levels.

        2. Research: Encourage the development of a research agenda 
        that integrates the vulnerabilities of the at-risk populations 
        with earthquake science, risk communication, risk mitigation, 
        and disaster management.

        3. Communications/Educational Outreach: Develop risk-reduction 
        outreach that is relevant to at-risk populations.

        4. Technology: Promote the application of research, 
        informational tool development, and building and social science 
        technology issues to the at-risk populations.

        5. Policy: Reflect commitment through new and renewed policy 
        approaches.

    One area of opportunity that our report cites is the schools. They 
provide the best immediate mechanism for affecting a positive change 
and disseminating information to at-risk populations on hazards and how 
to reduce or avoid them. In addition, working through the schools 
offers a number of possibilities for working with other federal 
partners, such as the Department of Education and Centers for Disease 
Control and Prevention, which are not directly involved in the NEHRP 
but have an extensive involvement with various aspects of education 
policy and procedures. By taking advantage of these opportunities in a 
collaborative, inclusive manner, the Program will further achieve its 
defined mission and reduce losses among the most socially vulnerable 
populations.
    With the Program's new emphasis on risk communication, we will 
bring a systematic approach to taking our understanding of people in 
their environment and apply it to the way in which we disseminate 
technically based information. Included in this systematic approach 
will be the development of metrics to evaluate the effectiveness of our 
communications in raising awareness and motivating risk-reduction 
activities at the individual and community levels.
    One of FEMA's roles as lead agency under NEHRP is to present this 
subcommittee with a report covering our activities for fiscal years 
2001 and 2002. I have previously provided the completed NEHRP Biennial 
Report under separate cover.
    The Biennial Report outlines many activities of the agencies and 
highlights State and local efforts to reduce earthquake risk. It 
illustrates how the Strategic Plan is already being used as a guide by 
the earthquake community in their efforts to meet the four program 
goals. The report gives you an idea of just how much is being 
accomplished from this relatively small program.
    The final NEHRP lead agency responsibility I want to mention is our 
reporting on the NEHRP budget. The actual Program budget numbers for 
the last two fiscal years have already been sent to Committee staff 
under separate cover. We have already reported on the other three NEHRP 
agencies' budgets for FY 2003. FEMA's FY 2003 NEHRP budget, 
approximately $19 million, represents level funding from FY 2002, less 
a Congressional rescission of 0.65 percent, applied to all programs. 
The FY 2004 budget request will be at the FY 2003 level. However, 
approximately $4.4 million will be transferred from the Emergency 
Management Performance Grant program to the Office of Domestic 
Preparedness.
    The breakout among the agencies continues to be approximately 48 
percent for the USGS; 35 percent for NSF; 15 percent for FEMA; and a 
little over 2 percent for NIST. Over and above those figures are: The 
USGS Global Seismic Network at approximately $3.5 million; and NSF's 
George E. Brown, Jr. Network for Earthquake Engineering Simulation 
(NEES) at $24.4 million last year and $13.5 million this year.
    One of the best examples I can offer of how we are effectively 
using our resources is the updating of the NEHRP Recommended Provisions 
for New Buildings. This document serves as the basis for the Nation's 
seismic code language and is updated for us every three years by the 
National Institute of Building Sciences' Building Seismic Safety 
Council to maintain its consensus backing. This updating relies heavily 
on the efforts of volunteers, and it has been estimated that we get 
eight dollars of work for every dollar we spend.
    I would also like to share with the Subcommittee the role of NEHRP 
as FEMA has become an integral part of the Department of Homeland 
Security.
    This consolidation of agencies into DHS focuses greater resources 
on protecting people and property from all hazards--natural and man-
made. The creation of the Department of Homeland Security offers us the 
opportunity to share our successes and the lessons learned from NEHRP 
and our other natural hazard mitigation programs and leverage them to 
address other perils.
    That does not mean that there is any reduction in focus or 
commitment to serve the underlying mission of the NEHRP; however, since 
earthquakes do not happen with sufficient regularity to remain in the 
collective memory, it often appears that there has been a diminished 
earthquake presence in the NEHRP agencies. The earthquake threat is 
still very real, and it is this hazard that still holds the greatest 
potential of all natural hazards to cause death and destruction in a 
single moment. Several faults in this country have the potential to 
create the most catastrophic disaster we have ever faced. The 
earthquake hazard is a critical part of our all-hazards work.
    NEHRP is one of the only federal programs that has experience in 
preparing for, responding to, recovering from, and mitigating the 
future effects of large-scale disasters. This experience can be 
transferred to the Nation's work and mission to protect our nation from 
the threats of terrorism.
    Some examples where this experience can support the Nation's risk 
of terrorism include the following:

        <bullet> Seismic design criteria developed under the NEHRP 
        have been proven to provide a significant level of resistance 
        to other outside loads, such as blast, and has proven to 
        prevent progressive collapse such as that which occurred in the 
        Oklahoma City bombing.

        <bullet> The NEHRP has already developed and is currently 
        implementing a plan to improve the protection of lifelines and 
        critical infrastructure. The current American Lifelines 
        Alliance, supported by FEMA's NEHRP funds and based on a plan 
        developed by NIST, has already accomplished much to address the 
        protection of this vital link, and we are expanding this 
        program to improve protection from man-made hazards.

        <bullet> The NEHRP has made significant investments in 
        improving post-event reconnaissance and the collection and 
        analysis of damage data, and these investments have already had 
        direct benefits after 9/11. The ability to rapidly examine 
        buildings after a damaging event and tag them based on their 
        level of damage and habitability is critical after a large 
        disaster. The NEHRP funded an existing system known as ``ATC-
        20,'' that was quickly modified by New York engineers and used 
        after the WTC attacks to evaluate surrounding buildings. Such a 
        resource will be needed after future damaging events, no matter 
        what the cause, and we are working with ATC to expand this 
        program to other hazards.

        <bullet> The ability to design a new building or an upgrade to 
        an existing building to achieve a defined level of performance 
        to mitigate a specific hazard is critical to reducing future 
        losses economically. FEMA, through the NEHRP, has already 
        funded the first two phases of a project to develop 
        Performance-Based Design Guidance to meet this capability. We 
        have already taken steps to expand this program beyond seismic 
        hazards to include fire and blast as well.

        <bullet> The ability to screen, evaluate, and upgrade existing 
        buildings to improve their resistance to external forces is an 
        important process in reducing the risk from structures built 
        prior to current building codes. Current FEMA-NEHRP 
        publications provide guidance on how to visually screen 
        existing buildings to identify those that are potentially 
        hazardous, how to perform more detailed evaluations on those 
        potentially hazardous buildings, and how to upgrade those 
        buildings to satisfy minimum safety criteria. Such a system of 
        guidance publications has considerable applicability in 
        addressing man-made hazards, and we are working to adapt these 
        publications to reflect this.

        <bullet> The urban seismic networks that the USGS is trying to 
        develop under the Advanced National Seismic System (ANSS) would 
        be capable of detecting, locating, and timing explosive blasts 
        in urban areas. The WTC impacts and collapses, the Pentagon 
        impact, and the Oklahoma City bombing were all recorded on 
        seismographs.

        <bullet> NEHRP assets were used in the development of our 
        current Urban Search and Rescue Program, and helped fund the 
        development of some recent technologies such as robots for 
        search, rescue and recovery following earthquakes and other 
        natural hazard events. It was this same Urban Search and Rescue 
        Program that was so visible immediately after the 9/11 attacks.

        <bullet> NEHRP investments in earthquake disaster risk 
        assessment such as the development of Hazards US, or HAZUS, 
        have been extended to include multi-hazard risks from 
        hurricane, wind and coastal flooding, and to develop integrated 
        risk assessment methodologies to manage social and 
        infrastructural vulnerability.

        <bullet> NEHRP investments in testing equipment and cyber 
        infrastructure, including the NSF's George E. Brown, Jr. 
        Network for Earthquake Engineering Simulation, are used to 
        investigate and mitigate earthquake vulnerability in critical 
        infrastructure systems. These facilities are also used for 
        study of infrastructure performance and damage under any kind 
        of hazard.

        <bullet> Building on previous work under the NEHRP, NIST is 
        already working with the private sector to develop needed tools 
        and guidance for improving overall structural integrity by 
        mitigating progressive collapse.

    Through the Hazard Mitigation Grant Program (HMGP), which is 
authorized under Section 404 of the Robert T. Stafford Disaster Relief 
and Emergency Assistance Act, FEMA has funded several projects that 
have improved earthquake resistance, even though the availability of 
funding was triggered by a different event. As a result of the WTC 
attacks, FEMA and the State of New York have funded the seismic upgrade 
of two major transportation facilities: the George Washington Bridge 
and the Port Authority Bus Terminal for a total of $61 million. This is 
an excellent example of how the NEHRP has helped to shape decisions at 
the State and local level, and has influenced their priorities.
    In conclusion, in spite of its many challenges, the NEHRP has been 
a success and has done a great deal to improve this nation's ability to 
prepare for, respond to, recover from, and mitigate future earthquakes.
    It is beneficial to look back and celebrate our successes over the 
last 25 years, and we have many to be proud of. It is also meaningful 
to look forward and plan where we are heading in the next 25 years. As 
part of the Department of Homeland Security, I can assure you that we 
will continue to lead the NEHRP to protect the American people from the 
earthquake hazard.
    I want to express my appreciation for the consistent support and 
counsel of this subcommittee and look forward to our continuing 
association in addressing the challenges before us.
    Thank you, and I will be happy to answer any questions that the 
Subcommittee may pose.

                     Biography for Anthony S. Lowe

    Anthony S. Lowe was appointed director of the mitigation division 
of the Emergency Preparedness & Response Directorate/FEMA, in the newly 
created Department of Homeland Security, in March 2003. He continues to 
serve as the Federal Insurance Administrator, a role to which he was 
nominated by President Bush in March 2002. Mr. Lowe is responsible for 
providing leadership for some of the Nation's leading multi-hazard risk 
reduction programs, which seek to secure the homeland from hazards both 
natural or manmade. His areas of oversight include the National Flood 
Insurance Program, the National Earthquake Hazards Reduction Program, 
the National Dam Safety Program and the National Hurricane Program. In 
his position, Mr. Lowe works closely with public and private risk 
managers, as well as leaders in government, industry, research and 
academia.
    Before assuming this post, Mr. Lowe was the senior legislative 
counsel for the U.S. Senate Judiciary Subcommittee on Antitrust, 
Competition and Business Rights and on the staff of the Subcommittee on 
Terrorism, Technology and Government Information. Previously, he was 
the deputy prosecutor with the King Country Prosecutor's Office. He 
also was a commissioner on the city of Redmond's planning commission.
    Earlier in his career, Mr. Lowe was associate director at the 
International Center for Economic Growth and International Center for 
Self-Governance programs of the Institute of Contemporary Studies, in 
Washington, D.C. Mr. Lowe also served as legal counsel to the 
Washington State Senate majority office and as legislative assistant to 
U.S. Senator Slade Gorton of Washington.
    A native of King County, Wash., Mr. Lowe holds a Bachelor of 
Science degree in international political science from University of 
Washington, a law degree from the University of Santa Clara and a 
Master of Divinity degree from Virginia Union University.

    Chairman Smith. We have about seven minutes to get to our 
vote, so excuse us, but the bad news is there are four votes. 
So we will have one 15-minute vote and four 5-minute votes, but 
we go over about two minutes on each of the time limits. I 
would ask staff, in our period of recess, with your permission, 
I would ask staff to maybe discuss with you some of the 
questions that we have put together that we would like to know 
if you would get some of those more detailed answers, and we 
will try to return in the next, I am guessing, 20 minutes. With 
that, the Subcommittee is in recess.
    [Recess.]
    Chairman Smith. The Subcommittee on Research has 
reconvened, and we would turn to Mr. Olson for his statement.

   STATEMENT OF MR. ROBERT A. OLSON, PRESIDENT, ROBERT OLSON 
                        ASSOCIATES, INC.

    Mr. Olson. Thank you very much. It is a pleasure to be 
here. I will very quickly summarize my written testimony.
    I wish I had the time, we had the time today, actually, to 
close our eyes, close all of our eyes for four minutes, and try 
to imagine the non-stop violent shaking, the noise associated 
with buildings coming apart, the unsteadiness of large blocks 
of earth as they slip away beneath us, and hearing the 
occupants' and victims' screams of terror. This is what 
happened in Alaska, 1964. And that particular earthquake is 
what got people thinking about the threat to other metropolitan 
areas where earthquakes have occurred and could be expected.
    I won't go into details on that, but we can trace the 
origin of that program, of the current program, to that event 
in 1964. Your action here in Congress represented a public 
policy decision to look at the earthquake risk nationally, one, 
as you noted, that is shared by at least 39 states. The act of 
1977 was a political action that took many years to achieve, 
actually. And three key Members of Congress, including the 
Science Committee's former Chairman, Representative Mosher from 
Ohio played a key role in this along with Congressman George 
Brown and Senator Alan Cranston.
    On February 20, I had a challenging request to attend the 
forum that has been referred to and to summarize what I heard 
that day. And I thought I would just take my time to hit the 
high points of what I heard people talk about in the context of 
the earthquake program. There is a concern, and it has been 
reflected already, about the budget stagnation and erosion. In 
terms of real dollars, the earthquake program's purchasing 
power has declined steadily to the level where essential 
program activities are being sacrificed, because the actual 
appropriations have not kept pace with at least inflation.
    There is a concern in the community about program 
leadership, particularly as the new Department of Homeland 
Security comes on line, a very large agency. And FEMA, of 
course, didn't exist in 1977, but was given the leadership role 
in 1980. And how this leadership responsibility will be 
continued or performed within the new, and frankly, huge 
Department of Homeland Security, this is some concern to us in 
the earthquake community.
    You have touched on the strategic plans. Well, there are 
two or three out there, new programs and strategic plans now 
exist on which we might be able to base long-term modifications 
to the act. Much like the years leading to the original act's 
passage, there now exists several of these plans that could 
provide a new foundation for amending the earthquake 
legislation to set the program's direction for, well, the next 
decade or two.
    There are a lot of agencies who have significant roles to 
play in the earthquake program, and we must find better ways to 
involve and support these participating agencies that are 
involved heavily in construction and in financing construction 
and others. Patience is needed, also. Knowledge is cumulative, 
and sometimes it is slow in coming. And a great deal of our 
effort in the last two decades has been spent on research, 
and--as it must. And that has helped develop knowledge as well 
as a large pool of human resources: better educated students, 
more practicing earthquake engineers, and others. We must keep 
that benefit in mind, as well.
    But there is a need to balance the investments in research 
with the program's commitments to improving practice and 
governments as well. You have touched on it already. We must 
speed up the rate of applying knowledge. This is a real 
challenge. And while new research leads to improved knowledge, 
there exists a gap in applying what is known and what is 
accepted already, the results of previous investments in 
research. We have got to find better ways to accelerate the 
application of knowledge.
    Earthquake risk is increasing. This worrisome condition is 
due partly to growing populations and to little or no attention 
being given to the hazard in areas that we believe are subject 
to the risk. During its existence in the last 25 years, the 
program has fostered the development of intellectual and 
organizational capabilities to the earthquake program that 
simply didn't exist before.
    I would like, also, to make note that understanding the 
context is critical to achieving earthquake risk reduction. 
Risk reduction decisions are made in a social context by 
individuals, by companies, by governments at all levels. And 
their abilities to address this kind of a risk varies greatly 
depending on their location, their priorities, the knowledge of 
the risk, and other values, and we must be able to intervene in 
those processes to affect future decisions.
    The agencies, and you have heard about them, work in very 
complex and competitive contexts and environments. While the 
earthquake program is just one program, these agencies house--
have activities--other activities, missions, priorities, levels 
of funding, and so on that make these settings for the agency 
people very, very complicated.
    Earthquake prediction was a popular item at the time of the 
original passage, and it may be time to revisit it with the 
advent of new technologies and theories. I don't know. I am not 
an earth scientist, but it might be worth putting back on the 
list to see if we might get there this time. Certainly the 
investment in earthquake prediction in those days led to much 
stronger and better forecasting abilities, which have had a 
major impact.
    So let me conclude with one recommendation that this 
committee as the full Science Committee to convene a truly 
independent panel to look at the charter legislation after 25 
years and to see how it might be modified to help reduce 
earthquake risk over the next 25 years for across the United 
States.
    Thank you very much.
    [The prepared statement of Mr. Olson follows:]
                 Prepared Statement of Robert A. Olson

INTRODUCTION

    The National Earthquake Hazards Reduction Program--``NEHRP'' as it 
is commonly called--is governed by a ``sunset'' provision requiring the 
Science Committee to review and to reauthorize the program every two 
years. This hearing is particularly appropriate because the Science 
Committee was the program's committee of origin, and 2002 was the 
NEHRP's 25th birthday. Such sunset provisions provide a regular means 
for Congress to review the status, progress, and needs of important 
programs beyond the normal annual appropriations processes.
    In response to your invitation, my comments address several 
subjects: (1) the key role of this committee and the origins of the 
program beginning in about 1964 following the occurrence of two 
significant earthquakes in Alaska and Niigata, Japan; (2) some 
observations I offered recently at a National Academy of Sciences' 
forum on the earthquake program's 25th anniversary, and (3) some 
reminders based on my practitioner's observations during the last 22 
years as an emergency management consultant.
    I have been involved in emergency management, disaster assistance, 
and hazard mitigation issues since joining a FEMA predecessor agency in 
1964 in Washington, DC and then moving to a regional office where I 
became involved in earthquake mitigation activities, including serving 
as a volunteer advisor to a California legislative committee. I left 
federal service in 1972 to help establish the San Francisco Bay Area's 
Metropolitan Transportation Commission while I continued my volunteer 
service to the legislature. Governor Ronald Reagan and the legislature 
agreed on the need to establish a state Seismic Safety Commission to 
address the continuing earthquake threat in California. I was selected 
as the Commission's first Executive Director, a post I held for seven 
years. During the last 22 years I have been providing consulting and 
research services to federal agencies, State and local governments, and 
private clients. I was educated in Political Science, with an emphasis 
on American Government.

NEHRP: AN HISTORICAL OVERVIEW

    If we had the time, I would ask everyone here to close their eyes 
for four minutes and try to imagine non-stop violent shaking, noise 
associated with buildings coming apart, unsteadiness as large blocks of 
land give way under us, and hearing the occupants' and victims' screams 
of terror. Soon after, the coastal areas would be devastated by a 
tsunami. This happened in Alaska on Good Friday, 1964.
    The Great Alaska earthquake, one of the most powerful ever 
recorded, affected about 50,000 square miles and triggered many 
research and applications activities that were based on a simple fear: 
What would be the consequences of an event like this one somewhere in 
the ``lower 48'' in an area that was known to have earthquake risk: the 
Wasatch Front in Utah, Northern California (a repeat of 1906), the 
Mississippi Valley (a repeat of the 1811-12 events), Southern 
California (a repeat of the 1857 earthquake), the Puget Sound area of 
Washington, or other locations with a significant but less well known 
hazard?
    The act establishing the program represented a national public 
policy decision to reduce earthquake risk, one that is shared to 
varying degrees by at least 39 states. The Earthquake Hazards Reduction 
Act (EHRA, Public Law 95-124) of 1977 was a political action that took 
many years to achieve by an ``advocacy coalition'' composed of three 
key members of Congress including the Science Committee's former 
chairman, Representative Mosher from Ohio, who had a particular 
interest in science and technology associated with earthquake 
prediction research, and Senator Alan Cranston and Representative 
George Brown. They were supported by influential members of the 
``earthquake community'' from outside and inside the Federal 
Government. Moreover, the Carter Administration was ``receptive'' to 
the proposal, sending a clear signal to Congress that it should proceed 
with the legislation.
    Years before its enactment, however, the NEHRP's foundation was 
laid by a series of program and budget oriented studies and reports 
that taken together defined the program as we know it today. The 
President's Science Advisor recommended a 10-year program of earthquake 
prediction research in May 1965. This was followed in June 1967 by a 
Federal Council on Science and Technology (FCST) 10-year recommended 
earthquake hazards reduction program, which was later updated in 
October 1968. Three more expert reports were issued in 1969: the 
National Academy of Engineering's (NAE) report on earthquake 
engineering research and applications needs, the National Academy of 
Science's (NAS) report on the status of seismological research and its 
needs, and the NAS' multiple volume report on the Alaskan earthquake. 
In 1970 the Office of Science and Technology issued a proposed an 
updated 10-year program of earthquake hazard reduction.
    Several other studies and reports contributed to eventually framing 
the NEHRP during those years. These included a report on the status of 
state and local disaster preparedness (1972), studies of other damaging 
earthquakes and even possibly successful predictions here and abroad 
(e.g., China, Nicaragua, Romania, Guatemala, Italy), a technology 
assessment of earthquake prediction technology (1975), and another 
examining the social and public policy implications of earthquake 
prediction (1975).
    This collection of needs assessments, state of knowledge reviews, 
and recommended programs and budgets provided a ``critical mass'' on 
which to base a national earthquake hazards reduction program. It all 
came together in what we refer to as the ``Newmark-Stever Report'' that 
was titled Earthquake Prediction and Hazard Mitigation: Options for 
USGS and NSF Programs. This carefully crafted and skillfully negotiated 
program and budget document provided the administration and the 
Congress with a scope of work, agency responsibilities, and three 
recommended funding levels.
    The proverbial ``window of opportunity'' that set the stage for 
NEHRP's enactment was the February 9, 1971 San Fernando, California 
earthquake ``on the fringe of a densely populated metropolitan area,'' 
according to an early post-earthquake report by a panel of the National 
Academy of Sciences (NAS). Close to the heart of Los Angeles and only a 
moderate (6.3 Richter magnitude) event, it caused 65 deaths (most in a 
federally-owned building), but this earthquake again raised the 
question about the vulnerability of our heavily populated metropolitan 
areas.
    Three bills were introduced in the Senate in 1972; four in the 
House and three in the Senate in 1973; ten bills in the House and one 
in the Senate in 1974; and one each in the House and the Senate in 
1977. The resulting legislation, H.R. 6683 and on the Senate side, S. 
126, passed in October 1977 and became the Earthquake Hazards Reduction 
Act. Understandably, the new legislation had a strong research 
orientation. We had to know more about the earthquake hazard (and if we 
could predict them) and how we could prevent future disaster losses. 
Thus, the new act focused mostly on strengthening the earth science 
programs of the Geological Survey (USGS) and the earthquake engineering 
research program of the National Science Foundation (NSF). The National 
Bureau of Standards, now the National Institute of Standards and 
Technology (NIST) also was included.
    In short, according to a FEMA-funded study, To Save Lives and 
Protect Property: A Policy Assessment of Federal Earthquake Activities, 
1964-1987 (Robert Olson Associates, 1988):

        Events leading to the EHRA's enactment and its implementation 
        up to 1987 have spanned the terms of five presidents (Johnson, 
        Nixon, Ford, Carter, and Reagan) and thirteen sessions of 
        Congress.

        A few general observations may be helpful. First, many 
        attempts were made to enact a national earthquake program prior 
        to 1977. However, several factors converged in the 1975-76 
        period to create a climate for successful passage of the Act 
        and its signing into law. They included a ``killer year'' for 
        earthquakes (1976), the euphoria over potential earthquake 
        prediction, the presence of legislative and executive leaders 
        in key places, and the completion of an expert report 
        containing the proposed content and budget for legislation 
        (Newmark-Stever, 1976).

        . . .prior to the 1971 San Fernando, California earthquake 
        experts who were designing the scope of the future program had 
        based their ideas largely on the lessons learned from the 1964 
        Alaska earthquake. San Fernando post-earthquake studies 
        produced large quantities of data that significantly added to 
        the understanding of earthquake effects on relatively modern 
        urban areas. (9)

    The Federal Emergency Management Agency (FEMA) did not yet exist. 
It was created in May, 1979, and it was given the NEHRP leadership role 
in 1980 by an amendment to the act. FEMA, more of a mission-oriented 
than a research-oriented agency, thus had two responsibilities: promote 
earthquake hazard mitigation and disaster preparedness measures by 
working primarily with local and state governments and ``carry the 
NEHRP flag'' as the program's designated leader.

A QUARTER CENTURY RETROSPECTIVE

    On February 20 I had the welcome opportunity to participate in a 
National Academy of Sciences' forum on the status of the NEHRP. The 
day's speakers collectively spoke to a number of points central to the 
continued effectiveness of the NEHRP and the challenges it is facing. 
Some of my summary observations included:

        <bullet> Budget stagnation and erosion. In terms of real 
        dollars, NEHRP's ``purchasing power'' has declined steadily to 
        the level where essential program activities are being 
        sacrificed because appropriations have not kept pace with at 
        least inflation. Additionally, the community has identified 
        other important needs that will speed risk reduction if funding 
        can be provided.

        <bullet> Program leadership and the new Department of Homeland 
        Security (DHS). The EHRA was passed in 1977, the Federal 
        Emergency Management Agency (FEMA) was formed in 1979, and FEMA 
        was assigned to lead the NEHRP in 1980. In about 1983 a program 
        review panel, in a ``management letter'' to the then FEMA 
        director, pointed out that the agency, unlike the other three 
        involved (NSF, USGS, and NBS [now NIST]) had two duties: (1) 
        internal mitigation and preparedness program operations and (2) 
        multi-agency leadership. How the leadership responsibility will 
        be performed within the new and huge DHS is of some concern to 
        the earthquake community.

        <bullet> New program and strategic plans exist on which to 
        base program modifications. Much like the years leading to the 
        EHRA's passage, there now exists several documents that could 
        provide a ``new'' foundation for amending the NEHRP legislation 
        to set the program's direction for the next decade or two. For 
        example, the Earthquake Engineering Research Institute (EERI) 
        has released one focusing on research, and the interagency 
        strategic planning process has been reinvigorated with the 
        FEMA-led NEHRP strategic plan soon to be released.

        <bullet> Ways must be found to better involve and support the 
        ``participating agencies.'' Over the decades, really only three 
        agencies (FEMA, NSF, USGS) and NIST (to a much lesser extent) 
        have benefited from funds appropriated to the NEHRP. Yet, many 
        other federal agencies, such as DOD, DVA, and GSA, are directly 
        involved in construction and others greatly influence 
        construction financing and lending. While the NEHRP 
        acknowledges these participating agencies, stronger mechanisms 
        are needed to integrate their risk reduction activities more 
        fully because the results of their activities and decisions 
        directly effect the safety of the built environment.

        <bullet> Patience is needed: knowledge is cumulative and 
        sometimes slow in coming. The core of the NEHRP has been the 
        support of research: knowledge and human resources development. 
        This objective is fundamental to the program and has 
        contributed mightily to new information, better practices, and 
        more capable practitioners. Research, experimentation, 
        instrumentation and testing continues to be an important 
        program need. It must be understood, however, that knowledge 
        most often accumulates relatively slowly and incrementally as 
        theories and data are developed, tested, and finally accepted. 
        Thus, there remains a need to balance NEHRP's investments in 
        research with its commitments to improving practice and 
        governance.

        <bullet> We must speed up the rate of applying knowledge. 
        While new research leads to improved knowledge, there exists a 
        gap in applying what is known and accepted already--the results 
        of previous research investments. There is a growing literature 
        about the barriers and facilitators that affect the adoption 
        and implementation of earthquake risk reduction measures, most 
        of which are attributable to risk communication and acceptance 
        and governmental and private institutional factors. Nationally, 
        and especially in the lower risk areas, we need to give 
        attention to processes and methods for overcoming these 
        obstacles to public safety. In the final analysis, applying 
        knowledge has real effects on our people, buildings, and 
        infrastructure.

        <bullet> Earthquake risk is increasing. This worrisome 
        condition is due partly to growing populations and little or no 
        attention being given to managing the risk in many vulnerable 
        areas. This is a very complex issue consisting of what to do 
        about the existing built and future built environments, and 
        there is a need to better understand decision-making processes 
        to see how risk reduction measures can be included in such 
        processes effectively. Central to this challenge is to find 
        better ways of communicating earthquake risk information 
        repeatedly through multiple channels in ways that compete 
        successfully for attention and lead to decisions and the 
        commitment of resources to increase safety.

        <bullet> During its existence the NEHRP has fostered the 
        development of intellectual and organizational capabilities. 
        Not only have NEHRP-funded activities increased knowledge, they 
        have helped develop new practitioners and researchers who are 
        influencing professional practices, such as through the three 
        earthquake research centers and other programs. Emphasis on 
        this intergenerational mentoring should be continued so that 
        the knowledge pool is widespread, locally influential, and 
        knitted together by such organizations as EERI.

        <bullet> Understanding the context is critical to achieving 
        earthquake risk reduction. Information is received and 
        decisions are made in societal contexts (e.g., individuals, 
        families, small businesses, large companies, public agencies, 
        charitable groups). Their abilities to address items important 
        to them varies greatly depending on their location, priorities 
        (agendas), wealth, values, and others. Applying risk reduction 
        measures must be understood and promoted in specific relevant 
        contexts, and improved techniques are needed to define and 
        influence the controlling contexts.

        <bullet> The NEHRP agency representatives work in very complex 
        and competitive contexts and environments. While the NEHRP is 
        just one program, the agencies housing its activities have 
        other missions, priorities, and levels of funding. Some of 
        these are legislatively, administratively, technically, or 
        politically determined. Any changes to the NEHRP, if they are 
        to be successful, must be sensitive to these environments and 
        address the organizational, administrative, regulatory, and 
        financial capabilities needed to implement them successfully.

        <bullet> Earthquake prediction may deserve to be revisited. 
        The earlier euphoria associated with earthquake prediction 
        contributed significantly to theory development, measurement 
        technologies, international observations, socio-economic impact 
        studies, and other advances. It definitely has led to vastly 
        improved ``earthquake forecasting'' abilities--defining the 
        risk and probabilities of occurrence in ways that were 
        impossible when I first became involved in the mid-1960s. While 
        predicting earthquakes with precision (i.e., date, time, 
        magnitude, etc.) remains elusive, new technologies and theories 
        and accumulated knowledge and other earth science-related 
        programs may advance our abilities if we try again. Only if we 
        had a season like hurricanes or rains or snow melt to watch for 
        flooding!

REMINDER: LOSS PREVENTION/MITIGATION REFLECTS AMERICAN FEDERALISM

    The Constitution of the United States of America defines the 
authority relationships between the national government and the states. 
Individual state constitutions define similar relationships between 
state and local governments.
    The Federal Emergency Management Agency (FEMA) defines mitigation 
``as any sustained action taken to reduce or eliminate long-term risk 
to human life and property from a hazard event.'' Sometimes known as 
``disaster prevention'' in some cultures, mitigation's objective is to 
reduce the direct and indirect losses in ways that protect life, 
physical assets, and national wealth.
    Mitigation programs must be understood within this context of 
``shared governance.'' Thus, some mitigation programs are administered 
by the national government (e.g., nuclear power plant safety) while 
others provide incentives and penalties to encourage state and local 
participation (e.g., planning grants). Some state programs are enacted 
and administered directly by state governments (e.g., public school 
construction in California), enacted by the state but administered 
directly by local governments (e.g., Safety Elements of General Land 
Use Plans in California), others contain shared administrative 
responsibilities (e.g., California's Special Studies Zones Act), and in 
many areas some mitigation programs are enacted and administered 
directly by local governments (e.g., zoning regulations and building 
codes).

REMINDER: MITIGATION OCCURS IN TWO PRINCIPAL TIME FRAMES

    Hazard mitigation occurs within two temporal contexts: (1) 
prospective and (2) retroactive. In general, programs that address the 
future (``prospective'') are easier to adopt and implement than are 
programs to correct past (``retroactive'') deficiencies.
    Incremental changes to building codes that apply to new buildings 
can be incorporated into new designs relatively easily and 
inexpensively, but laws or codes that require the strengthening or 
replacement of existing buildings are difficult to enact, controversial 
to implement, and costly in terms of construction and social costs 
(e.g., dislocation of tenants, loss of rental income). For these 
reasons, most mitigation programs are prospective, and if enacted at 
all, retroactive requirements follow decades later.

REMINDER: MANY FACTORS AFFECT DECISIONS TO REDUCE FUTURE LOSSES

    While disasters often create ``windows of opportunity'' to 
introduce new mitigation efforts, they are not in and of themselves 
sufficient conditions. Moreover, differing mitigation decision-making 
situations exist: (1) regulatory (i.e., government enacts laws 
demanding compliance), (2) voluntary (i.e., a company strengthens 
buildings it owns to protect its assets), or (3) mixed (i.e., 
government provides incentives for those taking voluntary private 
action).
    Some factors that affect decisions to mitigate against disaster 
losses include: (1) the perception and understanding of risk to support 
decision-making, (2) organizational ``champions'' to advocate the 
adoption and implementation of mitigation measures, (3) successfully 
competing with other items on decision-making agendas, (4) sufficient 
wealth to pay for the desired mitigation measure, (5) the possibility 
of achieving multiple benefits from investing in mitigation, (6) 
achieving other organizational goals as part of mitigation programs, 
and (7) convincing those that pay for mitigation now will accrue 
benefits in the future.

CONCLUSION

    Hazard mitigation as a concept is simple to understand: act now to 
prevent future disaster losses. It often takes a long time for the 
benefits of mitigation to be achieved, however. We have a very short 
recorded earthquake history, but when we examine the geologic and 
seismologic evidence we are reminded that earthquakes remain a national 
problem potentially affecting 39 states. Some have paid attention to 
their risk, but many have not. Regardless, a major to great earthquake 
near or in any of our major urban areas will have devastating and eye-
opening effects.
    Laws, policies, and programs must be thought through carefully to 
achieve their desired results, and they must be modified periodically 
to reflect current conditions. While ideas and knowledge about 
successful mitigation programs can be transferred easily, their 
adoption and implementation must be acceptable in particular social, 
economic, cultural, and political environments.
    Does the legislation governing the NEHRP need to be changed? My 
biased answer is ``yes'' because conditions, knowledge, technology, 
contexts, research and applications needs and other factors have 
changed over the past 25 years. It is important that laws, regulations, 
procedures, organizations, duties and responsibilities, and budgets be 
reviewed and changed to assure or enhance the NEHRP's future 
effectiveness.
    Perhaps a new ``advocacy coalition'' needs to be mobilized so, like 
the one that existed from about 1964 to 1977, it can influence the 
political agenda and engage the process to amend the Earthquake Hazards 
Reduction Act. The program's associated implementation and 
administrative processes then will need to be modified so the program 
will continue to lessen the Nation's earthquake risk.
    Thus, I have one simple recommendation: this subcommittee ask the 
full Science Committee to use NEHRP's 25th anniversary to convene a 
truly independent panel to advise the Committee on the future of the 
NEHRP--via another long range program plan with priorities and a 
recommended funded level similar to what as done in 1976 (the 
``Newmark-Stever Report''). The ingredients are there on which to 
proceed. As former California State Senator George Moscone said to us 
in 1970, ``Bring this legislative committee your best recommendations, 
and we will take care of the politics.''
    I look forward to continuing a partnership with the House's Science 
Committee, especially this subcommittee, as we progress steadily toward 
reducing our nation's earthquake risk and to contributing to lessening 
the risks from other hazards including, sadly, human-caused 
emergencies, where I am spending an increasing amount of my time 
working with state and local governments and private firms.

                     Biography for Robert A. Olson

    Robert Olson is President of Robert Olson Associates, Inc., where 
he consults on areas of earthquake hazards mitigation, emergency 
management, disaster operations, recovery assistance, and public policy 
development. Previously, he served as the first executive director of 
the California Seismic Safety Commission. He has chaired numerous 
committees including the Advisory Committee to the National Information 
Service of Earthquake Engineering, the Governor's Task Force on 
Earthquake Preparedness, and the Advisory Group on Disaster 
Preparedness to the California's Joint Legislative Committee on Seismic 
Safety. Mr. Olson also held a variety of research positions in various 
times at the Center for Environmental Design Research, the Institute of 
Governmental Studies, the Mid-America Earthquake Center, and the 
Pacific Earthquake Engineering Research Center. As part of the CUREE 
Kajima research program, Mr. Olson has had affiliations with PEER, 
Stanford University, Caltech, and the University of Southern 
California. He received his Bachelor's degree in political science from 
the University of California at Berkeley and his Master's degree from 
the University of Oregon.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Smith. Thank you. We wrote that down plus being in 
the record.
    Dr. Cluff, thank you all for being here, of course. And 
thank you, Dr. Cluff, for your foresight in determining where 
we should protect our Alaska Pipeline. Please proceed.

    STATEMENT OF DR. LLOYD S. CLUFF, DIRECTOR, GEOSCIENCES 
DEPARTMENT AND EARTHQUAKE RISK MANAGEMENT PROGRAM, PACIFIC GAS 
                      AND ELECTRIC COMPANY

    Dr. Cluff. Thank you, Chairman Smith and Committee Members. 
I am honored to be here today. And I have a few slides to 
enhance my oral presentation.
    I come from the perspective of a user of NEHRP products. I 
was involved from the beginning. I was on the Newmark-Stever 
Panel that created--helped create this program, and I have been 
on several other advisory committees.
    Chairman Smith. Dr. Cluff, I am going to interrupt you. Do 
we have the where with all to keep the disks and reproduce the 
slides for the other Members? We do. Thank you. Proceed, Dr. 
Cluff.
    Dr. Cluff. And I have color handouts that have been given 
for all of the Members of my presentation. Thank you.
    So let me move through.
    [Slide.]
    From the geosciences point of view, we have learned a lot 
from earthquakes. We are really developing products on national 
hazard maps, surface falls rupture characteristics, ground 
motions, regional hazard assessments, and earthquake forecasts 
to build on Bob Olson's comments about prediction. These are 
really the elements in the next slide.
    [Slide.]
    This is a slide of the San Francisco Bay area. You see San 
Francisco and the bay and the faults that have potential for 
very damaging earthquakes with forecasts of the likelihood of 
large, destructive earthquakes in the next 20 years, 70 percent 
aggregated for the whole region. PG&E's service territory, this 
is the heart of it. And Pacific Gas and Electric is the large--
one of the largest investor-owned utilities in the United 
States with millions of customers, hundreds of thousands of 
transmission gas and electric lines at the heart of the sixth 
largest economy in the world. We have 70 percent of the San 
Andreas faults traversing our service territory.
    The earthquake risk management policy that we developed in 
conjunction with the Seismic Safety Commission where I was 
Chairman of the Commission right after the Loma Prieta 
earthquake, a program to understand the hazards and our system 
vulnerabilities, a plan to implement the risk management 
options dedicated staff, dedicated budget, and accountability. 
We have developed and are involved in NEHRP public/private 
partnerships. One of the good ones across the Nation is the 
American's Lifelines Alliance, sponsored by FEMA, ALA, USGS, 
PG&E, the National Bureau of Standards, and others shown on 
this list, are all involved to improve the performance of 
particularly utilities and transportation systems across the 
U.S. Other partnerships, the Lifelines User Driven Research 
Program at the Pacific Earthquake Engineering Center at 
Berkley, a consortium of academic institutions, PG&E, Caltrans, 
and the California Energy Commission, and other stakeholders, 
the USGS, FEMA, and the California Earthquake Center. I came up 
in 1996 with some money out of PG&E's funds, and I said I am 
tired of not being able to use research results from the 
academic community. They are good--it is good research, but we 
can't implement it. We wanted to create a user-driven research 
program. We put money into it so that we set the research 
agenda and then the researchers learned from us what was 
important. And then once results were reached, we could 
implement them immediately. Out of that, working with these 
other partners that are on this program, we have leveraged $13 
million in user-driven research for a NEHRP program.
    [Slide.]
    Here is another partnership that we have with the U.S. 
Geological Survey. The lines on this map are the active faults, 
the heart of PG&E's territory. This program is one to help do 
applied research for the need for PG&E and our customers.
    [Slide.]
    Let me show a series of maps, same faults. This is our gas 
transmission pipelines, our electric system. You can see, all 
of these are traversed by these faults. Our electric 
substations, about 100 of these are critical to keep the lights 
on, and then our major service centers and buildings in the 
heart of our service territory.
    [Slide.]
    And here are all of the PG&E facilities. On one map is the 
Internet GIS map within PG&E that every decision maker can have 
access to at any time.
    [Slide.]
    And then here is a new--the NEHRP project from the USGS 
shake map. When an earthquake like this occurs, within two or 
three minutes, we have this downloaded on to our Internet--our 
decision-makers to deploy people to go to the field and know 
exactly where to go. We have our performance improvement for 
our major customers. We have been guiding Caltrans, East Bay 
MUD, the major water system in East Bay, the Bay Area Rapid 
Transit District, and the San Francisco Water Department. Since 
Loma Prieta, these combined expenditures for those customers 
only, including PG&E, is $15 billion.
    Let me tell the story about the Trans-Alaska Pipeline. I 
was involved and invited by the oil companies to do the 
earthquake and fault displacement study. The Denali Fault does 
cross the pipeline route. I, with a team of earthquake 
engineers, delineated the zone, how much displacement the fault 
could take, and then we constructed the pipeline above ground. 
We put in these--the designers put in the supports with Teflon 
with shoes under the pipeline that also had Teflon that would 
allow the pipeline to freely let the ground move beneath it. 
The fault ruptured on November 3 of last year. It crossed the 
pipeline.
    [Slide.]
    And here is the design drawing from my report to the Alaska 
folks, the pipeline crossing. We designed the pipeline to 
accommodate faulting within a 1,900-foot wide zone. The--a 
yellow zone is where we expected the rupture to take place. The 
November '02 earthquake was 7.9, 18 feet of displacement 
horizontal, 2.5 feet with minor compression. The red zone is 
where it actually displaced. We got it right, and the pipeline 
performed without spilling one drop of oil. This is a NEHRP-
type study that we need. Newmark and I brought this into the 
NEHRP hearings to show what things could be done.
    [Slide.]
    Here is the pipeline as the ground moved beneath it, not 
disrupting the pipeline. The left side photo is before. The 
right side is after. The only thing you can see is that one 
straight segment of it is now bowed because of two meters of 
compression. The pipeline was designed to accommodate that.
    So let me conclude that unless seismic safety is afforded 
priority that is now lacking throughout 39 states with 
significant earthquake exposure, the Nation will experience 
unacceptable, but avoidable, deaths and economic losses from 
earthquakes. There is an urgent need to fully implement the 
USGS advanced national seismic system through appropriations 
that are consistent with Congressional authorizations.
    I recommend the Subcommittee endorse the report that will 
be talked about in the next speaker, securing society against 
catastrophic earthquake losses from EERI. Dr. O'Rourke will 
present that. And I recommend we seize the opportunity of 
FEMA's new position in the Department of Homeland Security to 
recognize the synergy between addressing earthquake threats and 
terrorist threats.
    Last week, I was in Puerto Rico, and Anthony Lowe was there 
awarding 75 million to the electric utility there. The papers 
got it wrong. It should be for all hazards, to protect from 
earthquakes and terrorists, not only hurricanes.
    Chairman Smith. You mean FEMA put more money down there 
than our total United States earthquake NEHRP program?
    Dr. Cluff. 79 million--75 million. But I think the papers 
got it right, because Anthony Lowe knows that all hazards are 
important.
    My last recommendation is----
    Chairman Smith. Mr. Cluff, I am going to have to interrupt 
you.
    Dr. Cluff. All right.
    Chairman Smith. I have four minutes to make this vote. I am 
guessing we should be back in about 12 minutes. My first 
question after we finish the testimony is going to be what is 
more important to what effect in terms of developing new and 
better technology and how much of our emphasis should be on 
implementing that technology? And second, how do we get the 
private sector more involved in doing things that is going to 
protect their lives and their property?
    And with that, recess at the call of the Chair.
    [Recess.]
    Chairman Smith. The Subcommittee is in order. It doesn't 
seem to work. It is not his fault. Are we capable of taking 
testimony and recording it without the speaker?
    Mr. Weirich. It is very minimal. I really wouldn't like to 
do it.
    Chairman Smith. I think we will ask you to record the last 
20 words of Dr. Cluff. You just had--so good. Dr. Cluff, you 
were concluding.
    Dr. Cluff. Thank you very much. My last conclusion and 
recommendation was we need an independent oversight panel, 
similar to what Mr. Olson mentioned, to guide and report to 
Congress annually.
    And I want to end with a quote that is up on the board: 
``Where there is no vision, the people will perish.'' We have 
got to have vision to prevent the people from perishing.
    Thank you.
    [The prepared statement of Dr. Cluff follows:]

                  Prepared Statement of Lloyd S. Cluff

    I was invited to prepare the following testimony for the 
Subcommittee on Basic Research's hearing entitled The National 
Earthquake Hazards Reduction Program: Past, Present, and Future. My 
purpose in preparing this testimony is to guide the Committee on 
Science as they prepare to reauthorize the program during the 108th 
Congress.
    Having been involved since the inception of the National Earthquake 
Hazards Reduction Program (NEHRP), I have been asked to discuss my 
perspectives based on my experience with the program throughout its 
lifetime. I was a member of the Advisory Group on Earthquake Prediction 
and Hazard Mitigation, known as the ``Newmark-Stever Panel,'' convened 
at the request of the President's Science Advisor in 1976. Our report, 
``Earthquake Prediction and Hazard Mitigation Options for the USGS and 
NSF Programs,'' dated September 15, 1976, formed the basis for the 
Congressional enactment of the National Earthquake Hazards Reduction 
Act of 1977.
    I have served on various NEHRP expert review committees over the 
past 25 years to give guidance on ways to improve the program to reduce 
earthquake risks. I have also had the opportunity to present testimony 
during past Congressional NEHRP reauthorization hearings, most recently 
on March 1, 1990 to the Subcommittee on Science, Research, and 
Technology. At that time, my testimony was from the perspective of 
Chairman of the California Seismic Safety Commission, where I served 
California as a Seismic Safety Commissioner for almost 15 years.
    For my testimony today, I have been asked to speak from the 
perspective of Director of the Geosciences Department for Pacific Gas 
and Electric Company in San Francisco, one of the Nation's largest-
investor owned gas and electric utilities, as well as from the 
perspective of Chairman of the Congressionally mandated Scientific 
Earthquake Studies Advisory Committee (SESAC). The SESAC was appointed 
by the Secretary of the Interior to advise on the NEHRP activities of 
the U.S. Geological Survey. The first SESAC report to Congress, dated 
September 21,2002, is appended to my testimony. I have been asked to 
include specific comments on current NEHRP activities, as well as to 
recommend how federal earthquake mitigation efforts can be 
strengthened.

NEHRP After 25 Years

    During the 25 years since the National Earthquake Hazards Reduction 
Program was established, the NEHRP has provided insightful scientific 
and engineering leadership toward reducing earthquake risks. This 
leadership has resulted in major advances in identifying and 
characterizing active faults (earthquake sources) and understanding the 
destructive effects of earthquakes that will eventually be released by 
slip on these faults. Twenty-five years ago, there was hope that short-
term earthquake predictions would have been realized by now. Although 
that capability has not been realized, reliable estimations of the 
locations of future major earthquakes, their size, their likelihood of 
occurrence, and the character and extent of their effects are now 
possible.
    Additionally, a wealth of information has been developed to enhance 
our knowledge of the vulnerabilities of the built environment to 
earthquakes. We now better understand the factors that influence good 
as well as poor earthquake performance of utilities and transportation 
systems, as well as specific types of structures and buildings. This 
improved knowledge has resulted in useful tools that, if applied, have 
the potential to bring unacceptable risks under control.
    However, the risk is growing faster than our ability to provide 
effective mitigation. In spite of the increased knowledge and the good 
work that has been done, particularly in regions of high seismic 
exposure, earthquake risk continues to grow nationwide. This is largely 
due to (1) uncontrolled growth in earthquake-prone areas, (2) the lack 
of effective land-use planning in the hazardous areas, (3) the lack of 
implementation and enforcement of appropriate building standards, and 
(4) the high cost of strengthening the existing built environment. This 
trend has positioned the Nation in an unacceptable situation, one that 
will eventually result in catastrophic losses. Studies such as the 
1999, National Research Council publication, The Impacts of Natural 
Disasters: A Framework For Loss Estimation, show the per-event costs 
could reach thousands to tens of thousands dead, hundreds of thousands 
injured and homeless, and direct and indirect economic losses that 
could exceed $200 billion. This trend will not be reversed until the 
earthquake-prone communities in all 39 vulnerable states understand the 
threat and take action to mitigate unacceptable risks.

Value of NEHRP to Private Industry

    In addition to its concern for employee and customer safety during 
earthquakes, Pacific Gas and Electric Company has a strong economic 
interest in ``keeping the lights on.'' PG&E has vast resources in dams 
and power plants, transmission and distribution systems, and 
administrative buildings. Although protecting these resources from 
earthquake damage is important, equally important is functionality 
following an earthquake. The ability to continue to provide utility 
service to customers will assist emergency response efforts and reduce 
recovery time, as well as assure a continuing income stream during a 
particularly challenging time. Functionality also affects the 
communities PG&E serves, as businesses having gas and electricity can 
remain open, lessening the overall economic impact to the community.
    PG&E has been able to leverage their efforts to improve earthquake 
safety and reliability of their gas and electric systems through the 
development of user-driven, public/private research partnerships, 
funded in part by NEHRP programs. Three examples are presented below.

PG&E/U.S. Geological Survey--The 1989 Loma Prieta earthquake provided 
an opportunity and motivation for PG&E to focus on better understanding 
the nature and character of earthquake hazards in Central and Northern 
California, PG&E's service territory. After extensive discussions with 
the USGS Menlo Park office in 1992, PG&E entered into a non-financial 
Cooperative Research and Development Agreement (CRADA) with the USGS. 
We agreed to cooperate on research on earthquake hazards throughout the 
greater San Francisco Bay Area. Based on the success of this effort, in 
1996 the agreement was modified into a financial CRADA. Over the next 
few years PG&E provided $4.4 million in funding for projects with USGS 
scientists that would focus on PG&E's needs for system safety and 
reliability improvements. Generally, the projects include studies to 
better understand the location and characteristics of specific active 
faults, the effects of strong ground shaking, local site effects known 
to influence the degree of damage at particular locations, and the 
nature of ground failure mechanisms (landslides and liquefaction). Many 
projects have been completed, and the results are being used to help 
reduce earthquake risks not only to PG&E facilities, but also to PG&E's 
industrial customers, private homeowners, and the public at large.

Pacific Earthquake Engineering Research Center--The research results 
from the PG&E/USGS cooperative program feeds directly into another 
user-driven, applied research, public/private partnership, the PEER 
Lifelines Research Program. Program partners include PG&E, Caltrans, 
and the California Energy Commission (CEC), under the auspices of the 
Pacific Earthquake Engineering Research Center (PEER), at the 
University of California at Berkeley.
    In 1996, PG&E and the University of California entered into an 
agreement to focus applied research efforts toward improving the 
earthquake performance (safety and reliability) of gas and electric 
systems in California. The concept of the users driving the research 
agenda, in collaboration with the best earthquake researchers, was the 
focus of this initial partnership. PG&E engineers are intimately 
involved in selecting research topics, as well as guiding the research. 
This collaboration provides a mechanism for research results to be 
immediately implemented to improve system performance during 
earthquakes.
    The initial funding from PG&E was $3.5 million, however, the user-
driven concept interested Caltrans for their earthquake safety and 
reliability research program for bridges and highways, and a matching 
funding arrangement was established. The combined leveraged funding 
from PG&E, Caltrans, and the CEC to support the PEER Lifelines Research 
Program is now at $13 million, through 2004. We are seeking additional 
partners to participate in the benefits of the research and to join in 
future funding of user-focused applied research. Additional matching 
funding from NEHRP funding agencies would provide opportunities to 
enhance the user-driver research.

American Lifelines Alliance--The formation in 1997 of the American 
Lifelines Alliance (ALA) initially by FEMA and the American Society of 
Civil Engineers (now with the Multi-hazard Mitigation Council within 
the National Institute of Building Sciences, NIBS) is in direct 
response to needs for improved lifeline performance that were 
identified more than ten years ago, and was specifically required in 
the 1990 reauthorization of the NEHRP. Leaders from lifeline 
organizations strongly endorsed the need for developing and adopting 
seismic design guidance for lifelines in a 1997 Lifeline Policy-makers' 
Workshop.
    The ALA's objective is to facilitate the creation, adoption, and 
implementation of design and retrofit guidelines and other national 
consensus documents that, when implemented by lifeline owners and 
operators, will systematically improve the performance of lifelines 
during natural hazard and human threat events. The current participants 
in the partnership include FEMA, NIBS, U.S. Geological Survey, U.S. 
Bureau of Reclamation, PG&E, Rohn Industries, Pima County, Arizona, and 
various private sector consultants.
    Although the formation of the ALA was closely tied to concerns 
regarding earthquake threats, the consideration of multiple hazards was 
determined necessary by the ALA to facilitate decisions on design and 
retrofit measures to achieve improvements in reliability on a national 
scale, where the level of risk from various natural hazards is highly 
variable. The initial focus of ALA guidance development was on all 
natural hazards, including earthquakes, floods, windstorms (including 
hurricanes and tornadoes), icing, and ground displacements (including 
landslides, frost heave, and settlement). However, following the 
September 11, 2001, terrorist attacks, FEMA directed the ALA to address 
hazards posed by human threats, including blast, chemical, biological, 
radiological, and cyber threats. The utility and transportation systems 
appropriate for the ALA process include electric power transmission and 
distribution, natural gas transmission and distribution, potable water 
conveyance and distribution, waste water transportation and processing, 
oil and liquid fuel handling, transport, and storage, highways, 
railroads, ports and inland waterways, air transportation, and 
telecommunications.
    The ALA is working closely with the Lifelines Subcommittee of the 
Interagency Committee on Seismic Safety in Construction, which is 
charged with assisting federal departments and agencies to develop and 
incorporate earthquake hazard reduction measures in their ongoing 
construction programs. The ALA's efforts to develop national consensus 
guidance documents are aligned with many of the objectives of the 
Lifelines Subcommittee. ALA products will provide appropriately 
qualified seismic guidance, and the Lifelines Subcommittee can help in 
the preparation and adoption of such guidance by federal agencies. The 
ALA has developed matrices that define the current status of natural 
and manmade hazards guidance available in the United States for 
lifeline system operators and other interested parties.
    ALA guidelines published in the last two years include Seismic 
Fragility Formulations for Water Systems, Guidelines for the Design of 
Buried Steel Pipe, Seismic Design and Retrofit of Piping Systems, 
Extreme Ice Loads from Freezing Rain, and Guidelines to Define Natural 
Hazards Performance Objectives for Water Systems. Guidelines currently 
in preparation include those to evaluate the performance of electric 
power, oil and natural gas pipelines, and waste water systems during 
natural hazard and terrorist threat events.

Misplaced Complacency

    Many public policy-makers know that earthquakes are infrequent and 
assume they can be safely ignored in favor of more pressing issues; but 
they can be assured that if a catastrophic earthquake occurs on their 
watch, the truth will be revealed. Public perception, it could be said, 
might be that the United States is not that vulnerable to earthquakes, 
because the number of lives lost has been exceptionally low compared 
with that in other countries. The fact is, it has been a matter of luck 
that earthquake deaths have not been higher in the United States. 
Thirty-nine states have an earthquake threat, and it is just a matter 
of time before disaster strikes. We cannot afford to rely on good 
fortune to minimize earthquake loss of life. Let's look at a few 
examples.

1971 San Fernando, California Magnitude 6.7 Earthquake--The San 
Fernando earthquake was a direct hit beneath the San Fernando Valley, a 
few miles north of downtown Los Angeles. The earthquake occurred at 
6:00 A.M., when most people were safe at home. The Lower San Fernando 
Dam was severely damaged and would have experienced massive failure, 
except the reservoir had been drawn down for maintenance a few days 
before the earthquake. We were lucky that the duration of the shaking 
was short. Had the earthquake lasted a few more seconds, the dam would 
have massively failed, releasing the water in the reservoir onto the 
80,000 people living directly downstream. The first floor of the 
outpatient facility at the new Olive View Hospital massively collapsed, 
but it was unoccupied because of the early morning hour of the 
earthquake; later in the day, the facility would have had hundreds of 
patients.

1989 Loma Prieta, California Magnitude 7.1 Earthquake--In spite of the 
fact that a major earthquake struck the San Francisco Bay Area on 
October 17, 1989, losses were minimal; there were only 63 deaths. We 
take credit for the fact that we had an aggressive program of seismic 
safety improvements throughout the Bay Area, and that helped limit the 
losses. However, we were lucky. The center of the energy release along 
the San Andreas fault was in the Santa Cruz Mountains, 30 to 50 miles 
from the major cities. Had the earthquake been closer, damage, 
particularly to the older building stock that had not been seismically 
upgraded, would have been disastrous. It occurred at 5:04 P.M., commute 
time, the worst time of day for an earthquake according to earthquake 
scenarios, because the streets are filled with people and the freeways 
are jammed with traffic. An upper section of the Bay Bridge dropped 
onto the lower deck, and the Cyprus double-decker freeway in Oakland 
massively collapsed. These two structural failures could have been the 
source of hundreds of deaths. But we were lucky. The World Series 
Earthquake, as it has been called, occurred at the beginning of the 
third game of the World Series between the two Bay Area teams, the San 
Francisco Giants and the Oakland Athletics. The freeways and bridges 
were eerily empty while people were inside, watching the game. It was 
also fortunate that, because of the game, we had media coverage of the 
earthquake that lasted more than two weeks, helping to raise awareness 
of the earthquake threat.

1994 Northridge, California Magnitude 6.7 Earthquake--The Northridge 
earthquake also occurred during the early morning hours, 4:31 A.M., on 
Martin Luther King Day. Had the earthquake occurred only a few hours 
later on the national holiday, the near-massive collapse of the 
Bullocks Department Store in Northridge would have resulted in more 
deaths in that one building than all the deaths (57) in the entire 
region affected by the earthquake. Thousands of commercial buildings 
were badly damaged and many collapsed, and many freeway bridges 
collapsed, but they were all virtually empty at the time of the 
earthquake.

2001 Nesqually, Washington Magnitude 6.8 Earthquake--The February 28, 
2001 earthquake that struck the Nesqually district of Seattle, 
Washington resulted in only minor casualties and localized damage. The 
lack of significant damage and casualties were due to two important 
factors: the focal depth of the earthquake of was two to three times 
deeper (55 km) than most damaging earthquakes, and for the past few 
decades the Seattle region has adopted an aggressive seismic safety 
improvement program, particularly with support from FEMA's Project 
Impact during the 1990s. However, just prior to the earthquake, due to 
Mardi gras-related riots in Pioneer Square and the Sodo District, the 
police had barricaded the area to public access. We were lucky because 
in this old part of the city, unreinforced masonry walls fell into the 
streets when the earthquake struck, and would have resulted in many 
casualties had people been allowed normal access.

2002 Denali Fault, Alaska Magnitude 7.9 Earthquake--The second largest 
earthquake ever to strike the United States, the magnitude 7.9 
earthquake on November 3, 2002 on the Denali fault, was a media non-
event. This was partly because the earthquake struck a very remote 
region of Alaska. We were lucky this large earthquake was released on a 
fault in Alaska, rather than along one of the many faults close to 
major population centers in California. A similar earthquake along any 
of the faults associated with the San Andreas fault would have resulted 
in thousands of deaths and direct and indirect economic losses that 
could have easily exceeded $200 billion.
    But it was also a media non-event because the only significant 
structure situated in the path of this potentially devastating 
earthquake did not fail. It was not a matter of luck that the Trans-
Alaska Pipeline performed so well. It was exceptional scientific 
assessment of the earthquake hazards and innovative engineering design 
that prevented an oil spill. The Denali fault experienced 18 feet of 
horizontal and 2.5 feet of vertical displacement at the pipeline 
crossing of the fault. Thirty years ago, state-of-the-art NEHRP-type 
scientific evaluations of the hazards and innovative engineering design 
were applied to assure the pipeline was well prepared to accommodate 
the earthquake.
    Seventeen percent of U.S. crude oil flows through the Trans-Alaska 
Pipeline. The State of Alaska depends on the pipeline for eighty 
percent of its revenue. If damaged, the pipeline could have been 
disabled for many months, causing gas prices to soar. It is possible 
that if the pipeline had broken, the resulting environmental disaster 
would cause the pipeline never to be restored.

Recommendations

Earthquake Monitoring--Most of the earthquake monitoring 
instrumentation that has been installed and maintained over the past 50 
or more years is focused on identifying the source of earthquakes and 
understanding the overall physics of the earth. Although these seismic 
networks have provided important data contributing to the development 
of seismic hazard maps, they do not provide engineers and emergency 
responders the strong-motion information needed to maximize our 
understanding of how essential lifelines, system components, and 
specific buildings were affected during damaging earthquakes. There is 
an urgent need to fully implement the Advanced National Seismic System 
(ANSS), designed to expand, and at some locations, replace current 
earthquake monitoring systems to provide critically needed information 
for the benefit of the earthquake engineering and emergency response 
communities.
    The ANSS was authorized by Congress in 2000, but is not yet fully 
appropriated. Strong-motion information is critical to making the next 
breakthrough in understanding how to economically halt the growth of 
earthquake risk and reduce it to acceptable levels. The next major 
destructive earthquake is overdue in a wide variety of locations across 
the country. The ANSS is the most important new program needed by the 
NEHRP. Installing this instrumentation after the next destructive 
earthquake will be too late; we need the data that can be recorded 
during that earthquake.

Leadership--Leadership has been an issue since the inception of NEHRP. 
The Program has experienced fragmentation, frustrating the attempts to 
achieve the Act's goal of a coordinated hazard reduction effort. A few 
examples of the fragmentation will highlight the problem. The budget 
process is divided among four agencies, four different budget examiners 
at the Office of Management and Budget, and three subcommittees of the 
House Appropriations Committee. There is no single line item in the 
President's budget for the Earthquake Hazards Reduction Program, even 
though there is statutory authority for the program.
    The Act provides broad, multiple goals, all of which are important 
elements of a comprehensive earthquake hazard reduction program. The 
existence of multiple goals, tight fiscal constraints, and no strong, 
centralized mechanism to guide and coordinate agency efforts and 
expenditures results in the available resources being spread too thin.
    The NEHRP 5-year strategic plan (Expanding and Using Knowledge to 
Reduce Earthquake Losses: The National Earthquake Hazards Reduction 
Program Strategic Plan 2001-2005,'' March 2003) should be a guiding 
document, and each agency's budget should be in step with it, but they 
are not. At present, there is no provision for meaningful 
accountability. Without an incentive to carry out priorities, 
participating agencies need not follow the plan. As a result, multiple 
approaches to the same problem, imbalances between user needs and 
federal services and products, competition among agencies, and lack of 
cooperation make the program less effective.
    Earthquake programs and hazard-reduction priorities are too 
important to risk being lost among competing demands and priorities. In 
California, important earthquake programs were but a small portion of 
the overall responsibilities of departments responsible for emergency 
response, geologic hazards, and structural engineering. The State 
responded by establishing a Seismic Safety Commission as an independent 
and single-minded body charged with making certain that earthquake 
safety is never overlooked. A similar independent, permanent oversight 
advisory body should be established to direct the NEHRP.
    I propose that a NEHRP advisory committee be established to advise 
the four participating agencies (FEMA, USGS, NSF, and NIST). The 
committee would be composed of non-Federal Government experts from 
State and local government and the private sector who are involved in 
reducing earthquake risks. The advisory committee would help the NEHRP 
agencies set goals and priorities and see that they are being met, 
provide coordination, and assure that a consistent, focused national 
program is followed. This body would be independent of the member 
agencies, and would report to Congress annually. It would provide 
overall direction, stature, and visibility to the program.
    I recommend the Subcommittee consider amendments to assure the 
National Earthquake Hazards Reduction Program and its component parts 
are managed in an integrated manner. The Act should be amended to 
provide for strong coordination and accountability.

The Future

    The National Earthquake Hazards Reduction Program is at a 
crossroads, and this reauthorization provides a meaningful opportunity 
for an overall look at the program. We should seize the opportunity of 
FEMA's new position within the Department of Homeland Security (DHS) 
and recognize the synergies between addressing earthquake threats and 
terrorist threats.
    I was at the annual meeting of the Seismological Society of 
American in San Juan, Puerto Rico last week, and read in the morning 
paper (San Juan Star, May 2, 2003) that Anthony Lowe, head of FEMA's 
Mitigation Division, was in town to give $75 million to the Puerto Rico 
Electric Power Authority to protect the metropolitan area's electric 
system against hurricane-strength winds. The FEMA could have leveraged 
the value of this funding if it had been realized that putting electric 
grids underground would also make them less vulnerable to earthquakes 
and terrorism. The American Lifelines Alliance, mentioned earlier, has 
realized that you get more bang for the buck if you have an all-hazards 
perspective. I believe FEMA's new situation within DHS gives NEHRP an 
exciting opportunity to be part of a much larger effort to protect the 
Nation against not only other natural hazards, but human threats, as 
well.
    Even greater strides could be made if other federal agencies that 
have responsibilities in seismic safety were included in national 
planning for earthquake hazards reduction. The Department of Energy, 
Department of Defense, Department of Transportation, Department of 
Housing and Urban Development, General Services Administration, 
Veterans' Administration, Corps of Engineers, NASA, and the Bureau of 
Reclamation all have (or should have) programs that address 
earthquakes. The NEHRP should consider and give guidance to the efforts 
of these agencies.
    The NEHRP needs to continue under an improved organizational 
structure and proceed along the lines of the overdue, but recently 
published, NEHRP Strategic Plan. The Strategic Plan outlines a course 
of action for the best use of existing funding and prioritizes 
opportunities for accelerating the program as additional funding 
becomes available. It outlines a balanced and accelerated approach that 
calls for Federal-level leadership and incentives focused on the 
adoption of proper public policy and expanded funding for the 
activities needed to develop new design techniques aimed at making 
mitigation affordable.
    A strong, viable NEHRP must include proactive implementation 
through increased funding, incentives for risk reduction, new public 
policy, and inspired leadership. As pointed out in the recent 
Earthquake Engineering Research Institute report, Securing Society 
Against Catastrophic Earthquake Losses (Earthquake Engineering Research 
Institute, Oakland, California, 2003), at current funding levels, it 
will likely take 100-plus years to secure the Nation against 
unacceptable earthquake risks. Based on EERI's research and outreach 
plan, implementing an expanded program that has three times the funding 
and includes full appropriations for ANSS and NEES, will provide the 
needed earthquake risk reduction results in the next 20 to 30 years. 
The next major earthquake will demonstrate that 100 years is much too 
long to wait.
    Unless seismic safety is afforded a priority that is now lacking 
throughout the 39 states that have significant earthquake exposure, the 
United States will experience unacceptable and avoidable deaths and 
economic losses from future earthquakes. We have been lucky, we cannot 
afford to base our earthquake public policy on dumb luck.
    Thank you for the opportunity to address the Subcommittee.

                      Biography for Lloyd S. Cluff

PROFESSIONAL EXPERIENCE

Pacific Gas and Electric Company, San Francisco, California, 1985-
Present

        Manager, Geosciences Department

        <bullet> Responsible for assessments of PG&E facilities with 
        respect to earthquake and geologic hazards, soil and rock 
        foundation conditions, and groundwater contamination

        <bullet> Program Manager of the Diablo Canyon Long-Term 
        Seismic Program

                --Responsible for technical and administrative 
                management of the program

                --Directed studies in seismic geology, geophysics, 
                seismology, earthquake engineering, and probabilistic 
                risk assessment, which were required by the U.S. 
                Nuclear Regulatory Commission for the comprehensive re-
                evaluation of the seismic safety of the Diablo Canyon 
                Nuclear Power Plant

                --Manager of PG&E's Earthquake Risk Management Program

California Seismic Safety Commission, Sacramento, 1985-1999

        LCommissioner

        Vice Chairman, 1986-1988; Chairman, 1988-1990 and 1995-1997; 
        Chairman of Research Committee, 1988-1999; Cellular 
        Telecommunication Seismic Risk Task Group, 1991-1992; Chairman 
        of Committee on Acceptable Earthquake Risk Policy for State 
        Buildings, 1990-1991

Woodward-Clyde Consultants, San Francisco, California, 1960-1985

        Vice President, Principal, and Director

                <bullet> Responsible for technical and administrative 
                functions related to geologic, seismologic, 
                geophysical, and earthquake engineering investigations 
                and evaluations

                <bullet> Projects included siting and design studies 
                for critical facilities worldwide

University of Nevada, Reno, Nevada, 1967-1973

        Associate Professor of Geology and Geophysics (Visiting)

Lottridge, Thomas and Associates, Salt Lake City, Utah, 1960

        Geologist

El Paso Natural Gas Company, Salt Lake City, Utah, 1957-1959

        Junior Geologist

University of Utah, Salt Lake City, Utah, 1958-1960

        Teaching Assistant

EDUCATION

Brigham Young University, Provo, Utah 1951-1954

University of Utah, Salt Lake City, Utah, B.S., Geology, 1960

REGISTRATIONS

Geologist: California No. 1725

Certified Engineering Geologist: California No. EG567

AFFILIATIONS

Association of Engineering Geologists--Board of Directors, 1966-1970; 
        Vice President, 1967-1968; President, 1968-1969
Earthquake Engineering Research Institute--Board of Directors, 1976-
        1980 and 1991-1995; President-Elect, 1992-93; President, 1993-
        1995; Past President, 1995-1996; Learning from Earthquakes 
        Committee, 1985-1997
California Earthquake Safety Foundation--Board Member, 1989-1997; Vice 
        President, 1991-1997
Geological Society of America International Association of Engineering 
        Geology--Vice President, 1970-1974; Chairman, Commission on 
        Seismicity, 1970-1976
Seismological Society of America--Board of Directors, 1980-1986; Vice 
        President, 1981-1982; President, 1982-1983
Structural Engineers Association of Northern California

HONORS

U.S. Department of Interior, Geological Survey; John Wesley Powell 
        Award, 2000
California Earthquake Safety Foundation; Alfred E. Alquist Medal, 1998
Earthquake Engineering Research Institute; elected Honorary Member, 
        1996
California Academy of Sciences; elected Fellow, 1992
Structural Engineers Association of Northern California; Degenkolb 
        Award, 1992
Pacific Gas and Electric Company; Excellence Award, 1992
Pacific Gas and Electric Company; Excellence Award, 1991
Woodward-Clyde Consultants; Woodward Lecturer Award, 1979
National Academy of Engineering; elected Member, 1978
International Atomic Energy Agency; Distinguished Lecturer Award, 1975
American Society for Testing and Measurements; Hogentagler Award, 1968
Listed in Engineers of Distinction, Who's Who in Science, and Who's Who 
        in America

RELATED EXPERIENCE

Post-Earthquake Field Studies
Post-earthquake field studies of many destructive earthquakes 
        throughout the world including Hebgen Lake, Montana 1959; 
        Alaska 1964; Parkfield, California 1966; Caracas, Venezuela 
        1967; Dasht-E Bayaz, Iran 1968; Santa Rosa, California 1969; 
        Peru 1970; San Fernando, California 1971; Managua, Nicaragua 
        1972; Oroville, California 1975; Guatemala 1976; Romania 1977; 
        Tabas, Iran 1978; Livermore, California 1980; Algeria 1980; 
        Egypt 1981; Mexico City 1985; Soviet Armenia 1988; Loma Prieta, 
        California 1989; Manjil, Iran 1991; Cape Mendocino, California 
        1992; Landers-Big Bear, California 1992; Northridge, California 
        1994; Kobe, Japan 1995; and Lijiang, Yunnan, China 1996; 
        Kocaeli, Turkey, 1999; Chi-Chi, Taiwan 1999; and Duzce, Turkey 
        1999.
Active Fault Field Studies
Studies of the relationship of tectonics, seismic geology, and 
        seismicity of many active fault zones throughout the world 
        including those in New Zealand, Australia, Chile, Argentina, 
        Peru, Bolivia, Ecuador, Colombia, Venezuela, Costa Rica, 
        Nicaragua, Honduras, E1 Salvador, Guatemala, Mexico, Japan, 
        Taiwan, India, Nepal, Pakistan, Iran, Afghanistan, Turkey, 
        Armenia, Georgia, Russia, Morocco, Algeria, Egypt, Israel, 
        Lebanon, Jordan, Romania, Switzerland, Spain, Portugal, Italy, 
        western United States, British Columbia, and Alaska. Served as 
        an advisor to the governments of many of these countries 
        regarding the evaluation of earthquake and geologic hazards and 
        risk and the formulation of seismic safety guidelines and 
        public policy, especially in the siting, design, and 
        construction of critical facilities.
Publications
    Authored and co-authored more than 180 technical papers on subjects 
relating to seismic geology, paleoseismicity, regional seismicity, 
earthquake hazards and risk, earthquake engineering, and seismic safety 
of critical facilities. These papers have been published in the 
proceedings and journals of national and international scientific and 
engineering associations and societies.
Lectures
    Invited lecturer and keynote speaker on seismic geology, 
seismicity, paleoseismicity, earthquake hazards, engineering geology, 
and seismic safety at numerous national and international symposia, 
conferences, universities, associations, and societies.
Research, Consulting, and Professional Activities
2002-present--Alyeska Pipeline Service Company; member, Senior 
        Earthquake Advisory Panel to advise on seismic safety issues 
        following November 3, 2002 Denali Fault Earthquake.
2002-present--Scientific Earthquake Studies Advisory Committee; 
        Chairman of committee that advises on National Earthquake 
        Hazards Reduction Program activities of the U.S. Geological 
        Survey.
2000--National Research Council, National Academy of Sciences, National 
        Academy of Engineering, and Institute of Medicine; member of 
        U.S./IRAN Interacademies Cooperative Initiative, a delegation 
        to the Islamic Republic of Iran to normalize relations between 
        the U.S. and Iran.
1999-2002--World Bank and People's Republic of China; member of Dam 
        Safety Review Panel for Baise Dam Project, southwestern China.
1999-2001--Sunol Valley Water Treatment Plant, City of San Francisco 
        Hetch-Hetchy Water System; advise on seismic issues of proposed 
        construction near Calaveras fault.
1998-2000--Federal Emergency Management Agency; member of National Pre-
        Disaster Mitigation Program Advisory Panel.
1997-1999--National Academy of Sciences, National Research Council; 
        member of Committee on Assessing the Costs of Natural 
        Disasters.
1997-1999--Institute for Business and Home Safety, the Subcommittee on 
        Natural Disaster Reduction, and the President's Office of 
        Science and Technology Policy; member of organizing committee 
        for Public-Private Partnership, PPP-2000, Forums on Public 
        Policy Issues in Natural Disaster Reduction.
1997-1999--Government of Portugal; Empresa de Desenvolvimento a Infra-
        estruturas do Alqueva, S.A.; evaluated seismic hazards and 
        risks for the proposed Alqueva Dam. The dam will create the 
        largest reservoir in Europe; reservoir-triggered seismicity is 
        a concern for the environment.
1996-2001--Southern California Earthquake Center; member of Advisory 
        Board.
1996-1999--National Academy of Sciences; member of Board On Natural 
        Disasters to advise Congress, the President's Office of Science 
        and Technology Policy, and government agencies with regard to 
        reducing losses from natural disasters.
1994-2002--Greater Vancouver Water District; member of Seismic Review 
        Board evaluating and providing advice on the seismic safety of 
        the district's major dams.
1993-present--Israel Electric Corporation; Chairman of Seismic Review 
        Board providing advice on the seismic safety of siting and 
        constructing a commercial nuclear power plant in Israel.
1993-1996--U.S. Department of Energy, U.S. Nuclear Regulatory 
        Commission, and Electric Power Research Institute; member of 
        Senior Seismic Hazard Analysis Committee to develop state-of-
        the-art implementation guidelines and methods for the 
        performance of probabilistic seismic hazard analyses for the 
        seismic regulation of nuclear power plants and other critical 
        facilities.
1990-1994--Los Angeles Harbor Department; member of 2020 Program 
        Technical Review Committee to evaluate and provide advice on 
        seismic hazards affecting proposed harbor development scheduled 
        for completion in the year 2020.
1991-1993--B.C. Hydro; member of Provincial Seismic Review Panel to 
        evaluate and provide advice on the seismic hazards to British 
        Columbia's hydroelectric facilities and power systems.
1991--National Academy of Sciences; member of Project Site Evaluation 
        Review Committee, Laser Interferometer Gravitational-Wave 
        Observation (LIGO), at the California Institute of Technology.
1990-1992--Yukon Pacific Corporation; member of Earthquake Consulting 
        Board advising on the feasibility of design and construction of 
        a Liquefied Natural Gas Terminal near Valdez, Alaska.
1989-1990--National Academy of Sciences; member of U.S. National 
        Committee for the Decade for Natural Disaster Reduction.
1986-1990--The National Earthquake Prediction Council; member of 
        Working Group on California Earthquake Probabilities, which 
        published two reports (1988 and 1990) on the probabilities of 
        large earthquakes on the San Andreas and associated fault 
        systems.
1986-1989--National Academy of Sciences; member of Committee Advisory 
        to the U.S. Geological Survey (USGS), advising the Director of 
        the USGS and Chief Geologist on the broad spectrum of 
        activities within the USGS.
1987-1988--National Academy of Sciences and National Academy of 
        Engineering; member of Super-Conducting Supercollider Site 
        Selection Committee to review fifty proposed sites and select 
        seven for consideration by the Department of Energy.
1988--Department of Energy Defense Program; member of New Production 
        Reactors Seismic Design Criteria Team to develop site-specific 
        earthquake design criteria for Savannah River and Idaho nuclear 
        facilities.
1987--National Earthquake Hazards Reduction Program; member of Expert 
        Review Committee to review NEHRP program, identify critical 
        issues, and provide recommendations to assist in revising the 
        Five-Year Hazards Reduction Plan and proposed budget.
1984-1987--National Academy of Sciences; member of subcommittee to 
        evaluate earthquake programs of the U.S. Geological Survey.
1982-1986--High and Aswan Dam Authority, Ministry of Irrigation, 
        Government of Egypt, and U.S. Agency for International 
        Development; director of a comprehensive program to evaluate 
        earthquake activity and dam stability. There was concern for 
        reservoir-induced seismicity and the potential for large 
        earthquakes to affect the Aswan High Dam and the safety of 
        Egypt.
1982--U.S. Agency for International Development and National Science 
        Foundation; Chairman of Aswan High Dam Seismic Safety Review 
        Panel formed at the request of the Government of Egypt 
        following the occurrence of a damaging earthquake beneath the 
        reservoir of the High Dam in 1981.
1969-1986--Commission Federal Energia Atomica and Commission Federal de 
        Electricidad, Mexico; advised on siting nuclear power plants in 
        Mexico.
1982-1985--National Academy of Sciences; member of Panel on Active 
        Tectonics.
1972-1985--Interconnection Electrica, S.A.; directed studies of 
        seismicity and seismic hazards for the feasibility of siting 
        large dams, reservoirs, and related hydroelectric facilities 
        throughout Colombia, including Ituango, Canafisto, Alto Sinu, 
        Rio Negro, San Carlos, Penderisco, and Troneras.
1974-1985--Israel Electric Corporation; provided advice on earthquake 
        hazard evaluations regarding the technical feasibility of 
        siting a commercial nuclear power plant.
1970-1985--Government of Venezuela; directed geologic and seismic 
        studies regarding the siting of major dams, reservoirs, and 
        related hydroelectric facilities including Yacambu, Uribante-
        Caparo, La Honda, La Vueltosa, and Borde Seco.
1969-1985--International Atomic Energy Agency, Vienna; Nuclear Power 
        Plant Siting Missions. On behalf of the agency and according to 
        the IAEA siting criteria, evaluated the siting of nuclear power 
        plants in Mexico, Chile, Portugal, and Venezuela. These 
        assignments included site visits, fieldwork, evaluating the 
        likelihood of successful licensing, meetings with the 
        applicant, and writing reports on behalf of the IAEA.
1981-1984--National Academy of Sciences; member of Geological Sciences 
        Board.
1978-1984--National Science Foundation and U.S. Geological Survey; 
        member of Earthquake Hazards Mitigation Advisory Panel.
1972-1984--Washington Public Power Supply System: Hanford Nuclear 
        Siting Studies; responsible for geologic and seismologic 
        investigations to select sites of proposed nuclear power plants 
        Satsop Nuclear Power Plant; responsible for geologic and 
        seismologic investigations that resulted in the licensing of 
        the Satsop site in Washington.
1973-1983--Ente Nazionale Per L'Energia Elettrica (Italian Electric 
        Utility, ENEL); directed detailed seismic studies toward the 
        licensing of Italian nuclear power plants. Proposed sites 
        included Tarquina, Montalto di Castro, Torrente Saccione, and 
        Gargano.
1981-1982--INECEL, Ecuador; directed feasibility studies for dams and 
        hydroelectric facilities in Ecuador, including regional fault 
        and earthquake activity studies to assess the earthquake 
        potential of the Salado and Coca river regions.
1979-1982--Southern California Edison Company; San Onofre Nuclear 
        Generating Station licensing studies. Responsible for 
        evaluations of geologic, seismologic, and earthquake 
        engineering factors to develop a strategy for licensing, taking 
        into account U.S. Nuclear Regulatory Commission criteria, and 
        the seismic issues of intervenors.
1978-1982--Atomic Energy Commission of Portugal; identified acceptable 
        regions for nuclear power plant sites, after a capable fault 
        was found to traverse Portugal's first proposed site north of 
        Lisbon, resulting in the site being abandoned. All Portugal was 
        studied to identify regions where nuclear power plant sites 
        would have a high likelihood of being licensed, based on IAEA 
        seismic siting criteria.
1977-1982--Alaska Natural Gas Transportation System Studies, Northwest 
        Pipeline Company and Fluor Engineers and Constructors; 
        responsible for assessing potential seismic hazards along the 
        pipeline corridor, and their significance to pipeline design.
1977-1982--Pacific Gas and Electric Company, Humboldt Bay Nuclear Power 
        Plant Studies; (In 1977, the U.S. Nuclear Regulatory Commission 
        suspended the plant's operating license until adequate studies 
        were completed to address seismic issues.) Directed detailed 
        geologic and seismic investigations to answer specific issues 
        raised by the U.S. Nuclear Regulatory Commission regarding the 
        potential for surface faulting at the site and the basis for 
        defining the vibratory ground motions.
1981--Western States Seismic Policy Council; member of Panel on 
        Regional Tectonics and Seismic Safety.
1981--National Science Foundation; member of committee evaluating 
        National Program for Strong-Motion Earthquake Instrument 
        Arrays.
1980-1981--California Public Utilities Commission; chairman of Seismic 
        Safety Review Panel for proposed Liquefied Natural Gas Facility 
        at Point Conception, California. Previously unknown active 
        faults traversing the proposed site caused a technical and 
        political controversy and a loss of confidence in the safety of 
        the site. At the conclusion of the Panel's evaluation and 
        report, and after extensive hearings, all seismic safety issues 
        were satisfactorily resolved and the site was approved for 
        facility design and construction.
1970-1981--Comitato Nazionale Per L'Energia Nucleare, (Italian Atomic 
        Energy Commission, CNEN); responsible for studies regarding 
        seismicity and geologic conditions at nuclear power facility 
        sites in Italy, including Brasimone, Latina, Tarquinia, 
        Montalto di Castro, and Busalla.
1979-1980--National Academy of Sciences, U.S. National Committee for 
        Rock Mechanics; member of Panel on Rock Mechanics Research 
        Requirements.
1977-1980--National Research Council, National Academy of Sciences; 
        member of Panel on Earthquake Research for the Safer Siting of 
        Critical Facilities.
1972-1980--President's Office of Science and Technology Policy; advised 
        on earthquake hazards and risk evaluations for the San 
        Francisco Bay Area, the Los Angeles Metropolitan Area, and the 
        Salt Lake City Area.
1979--UNESCO; member of Panel on Earthquake Risk and Insurance, 
        Cocoyoc, Mexico.
1979--National Science Foundation; member of Joint U.S./Japan 
        Symposium, Earthquake Safety Through Urban Design, Tokyo, 
        Japan.
1976-1979--National Academy of Sciences; member of Seismology 
        Committee.
1975-1979--President's Office of Science and Technology Policy; member 
        of Newmark-Stever Panel to develop a national program for 
        earthquake prediction and hazard mitigation for the U.S. 
        Geological Survey and the National Science Foundation.
1978--International Association for Earthquake Engineering, UNESCO, and 
        the National Science Foundation; member of International 
        Workshop on Strong-Motion Earthquake Instrument Arrays.
1977-1978--U.S. Army Corps of Engineers, New Melones Dam regional and 
        site studies, California; directed evaluations of faults as 
        sources of future earthquake activity, the potential for 
        surface faulting, and the potential for reservoir-induced 
        seismicity at the site of the New Melones Dam on the Stanislaus 
        River.
1976-1977--U.S. Bureau of Reclamation, Auburn Dam regional and site 
        studies, California; directed detailed fault and earthquake 
        investigations to assess the earthquake and faulting potential 
        at the proposed dam site, characterize the earthquake ground 
        motions, and evaluate the potential for reservoir-induced 
        seismicity.
1975-1978--Secretary of the Interior; member of Earthquake Advisory 
        Panel to evaluate earthquake programs of the U.S. Geological 
        Survey.
1975-1977--California Seismic Safety Commission; member of Task 
        Committee on Seismic Hazards and State-Owned Structures.
1974-1977--Pacific Gas and Electric Company; directed Regional Inland 
        California Nuclear Power Plant Siting Studies, extensive and 
        comprehensive regional geologic, seismologic, microearthquake, 
        earthquake engineering, and groundwater hydrology studies, as 
        part of PG&E's evaluation of potential sites for nuclear power 
        plants in the inland areas of central and northern California.
1972-1977--Atomic Energy Office of Iran; directed national nuclear 
        power plant siting studies of seismicity and earthquake faults 
        to select power plant sites within the Zagros Mountains and the 
        Persian Gulf Coast regions of Iran.
1970-1976--UNESCO; member of International Panel of Experts on Seismic 
        Phenomena Associated With Large Reservoirs.
1972-1974--Ministry of Planning, Managua, Nicaragua; directed post-
        earthquake studies and earthquake hazards evaluations to assist 
        the people of Nicaragua in rebuilding following the devastating 
        1972 earthquake. Studies resulted in a comprehensive seismic 
        safety plan to rebuild Managua.
1972-1974--Alyeska Pipeline Service Company; directed Trans-Alaska 
        Pipeline Siting Study, a comprehensive program that identified 
        and evaluated geologic and seismic factors to be considered in 
        the siting and design of the pipeline. Where the proposed 
        pipeline crossed active faults, developed design values for 
        surface fault displacements.
1970-1974--California Legislature's Joint Committee on Seismic Safety; 
        member of Advisory Group on Land-Use Planning.
1970-1974--California Governor's Earthquake Council; member
1972-1974--International Atomic Energy Agency, Vienna; provided advice 
        regarding seismic and geologic criteria for the siting of 
        nuclear power plants.
1969-1973--U.S. Atomic Energy Commission, provided advice regarding 
        seismic and geologic criteria for the siting and design of 
        nuclear power plants.
1968-1973--San Francisco Bay Conservation and Development Commission; 
        charter member of the Earthquake Engineering Criteria Review 
        Board.
1970-1972--Atomic Energy Commission of Chile; provided advice regarding 
        seismic review and siting of nuclear power plants in Chile.
1967-1972--President of Venezuela's Earthquake Safety Commission; 
        provided advice regarding seismic safety in Venezuela and 
        recommended the establishment of FUNVISES, the National agency 
        charged to monitor seismic safety.
1966-1970--State of Utah and the Utah Geological and Mineralogical 
        Survey; member of Governor's Earthquake Council regarding 
        earthquake and geologic hazards in Utah.
1969--Office of the President and Secretary of the Interior; member of 
        Santa Barbara Channel Oil Spill Panel to evaluate the 1969 
        Santa Barbara Channel oil well blow-out and recommend measures 
        to minimize future impact.
1968-1969--Commission Federal de Electricidad, Mexico; provided advice 
        regarding seismic review and feasibility of the proposed 
        Sumidero Canyon hydroelectric project.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Chairman Smith. Dr. O'Rourke.

  STATEMENT OF DR. THOMAS D. O'ROURKE, PRESIDENT, EARTHQUAKE 
 ENGINEERING RESEARCH INSTITUTE; THOMAS R. BRIGGS PROFESSOR OF 
                ENGINEERING, CORNELL UNIVERSITY

    Dr. O'Rourke. Chairman Smith and Members of the 
Subcommittee, it is, indeed, an honor to be here to be able to 
testify on behalf of the Earthquake Engineering Research 
Institute.
    This is an organization of about 2,500 people. They come 
from the geosciences, the engineering, and social science 
communities, so it is a very integrated group of people. We are 
dedicated to seismic risk reduction in the United States.
    I have a Power Point presentation that I am looking for in 
the projection here.
    [Slide.]
    This--I think we need to recognize that the National 
Earthquake Hazards Reduction Program has been a highly 
successful program. It has got a number of notable 
accomplishments that are very important for the United States 
and also set a model for the rest of the world. We have been 
able to develop very good earthquake hazard maps, seismic 
design provisions for new buildings, rehabilitation guidelines 
for existing buildings, and loss estimation methodologies, 
which, as I mentioned before, are a model for the rest of the 
world. And FEMA has been an implementer of these particular 
provisions but has worked very closely with other NEHRP 
agencies that have developed the research bases for these 
accomplishments.
    In terms of recommendations, we believe, that is the 
Earthquake Engineering Research Institute, that we need to 
maintain a strong, viable NEHRP. So we urge that Congress do 
that. We think that there are some recommendations that could 
be followed for improved leadership and agency integration. We 
urge you to support the Advanced National Seismic System and 
the George E. Brown network for earthquake engineering 
simulation. We also believe that NEHRP, during its 
reauthorization, should be done so with a thought for increased 
funding reflecting the--our research and outreach plan.
    As you know, the Advanced National Seismic System will be 
putting in 6,000 new stations. These are critically important 
for monitoring seismic events in the United States. There is a 
concentration on urban centers where our risk is the highest. 
And the ANSS also produces shake maps, which provide almost in 
real time an estimation of what the magnitude and severity of 
earthquake ground motion, which is used by emergency 
responders. And this is a very important aspect of this, very 
important aspect of information technology application.
    The George E. Brown network for earthquake engineering 
simulation purports to put together a laboratory, which 
involves the entire United States. Currently there are 15 sites 
at different universities across the United States that are 
accessible by the entire earthquake and--earthquake engineering 
and other communities. It will be establishing, through high-
performance Internet, the capability of doing research and 
testing at very high and sophisticated levels in a way that can 
be done at a number of different locations contemporaneously 
and represents a marvelous advancement in the application of 
practical information technologies and a great boost for the 
education system.
    Some of the leadership improvements that we envision for 
NEHRP involve that NEHRP should have a visible place and 
designated staff within each NEHRP agency, especially 
Department of Homeland Security. We also recommend that some 
consideration be given that OMB assign, perhaps, one of the 
participating examiners to coordinate the budgeting within the 
four agencies so that the funds are invested--that are invested 
will be balanced and prioritized in a programmatic way. We 
recommend that Congress ask the President to create an 
independent committee of external experts responsible for 
oversight of NEHRP. This oversight committee would report to 
Congress no less than biannually, and we note that similar 
recommendations have been made by experts previously convened 
to provide advice on NEHRP.
    NEHRP funding has been subjected to eroding levels of 
support. This is really quite serious, because we are not able 
to accomplish what we need to and what we are able to do. NEHRP 
funding has declined by 40 percent in real dollars since 1978. 
And this has been hurtful. We must recognize that this type of 
funding situation is serious and has consequences that none of 
us wish to have. Perhaps in the future, funding levels could be 
indexed at a computer--through the consumer price index to at 
least provide some protection against inflation.
    And then we also urge you to consider the EERI Research and 
Outreach Plan. That plan is called ``Securing society against 
catastrophic earthquake losses.'' This is a consensus document. 
It has been thoroughly reviewed by--reviewed and approved by 
the community. It provides a comprehensive 20-year plan. Part 
of that plan is focused on increasing current allocations by 
over three-fold to about $360 million a year for the first five 
years. And there is an explicit game plan given for how that 
money would be allocated and spent in important areas that 
contribute to our seismic safety. This recognizes still 20 
times less than annualized losses from earthquakes in the 
United States.
    These are the five components of the program. In the 
written testimony, there is a demonstration of the proportion 
of funding for the first 5-year period of time, where that 
money would be spent. The five different programs here, you 
will notice one is education and outreach. This is public 
education outreach. But in each of the other programs, at least 
35 to 50 percent of the funding is focused on implementation. 
Now what we mean by outreach is implementation, technology 
transfer, and education.
    Now I want to point out that there are tremendous 
contributions of earthquake engineering to our U.S. national 
technological infrastructure. Earthquake engineering advances 
are leveraged beyond earthquakes. They are leveraged to other 
natural disasters. They are leveraged to civil infrastructure 
improvements. They are leveraged to applied information 
technology, and they are leveraged to homeland security. There 
are examples in the written testimony that spell some of these 
examples out, which I think are very important to consider. 
They involve active and passive controls developed in 
earthquake applications, which are now applied for wind control 
that are being considered for blast protection, advanced 
geographical information systems, particularly with respect to 
lifeline networks, the kinds of gas and electrical and water 
supplies that Dr. Cluff was talking about. There are the ATC 20 
inspection procedures and a number of others.
    And I would just like to illustrate the importance of this 
by looking at the Applied Technology Council 20 protocols, 
which were developed under NEHRP for rapid investigation and 
decision making with respect to earthquake damage to buildings. 
This was an off-the-shelf protocol coming from NEHRP that was 
available after the World Trade Center disaster, and it was 
used to examine explicitly and in detail 460 buildings that 
surrounded the World Trade Center site. And as you remember 
during that event, it was critically important to restore these 
facilities so that we had financial market security. Most of 
those buildings surrounding the World Trade Center site were 
buildings that were the housings of--for financial institutes, 
for banks, and so forth that needed to be operational so that 
the markets could start the following week.
    This technology was available because of NEHRP. So our--
excuse me, our final recommendations again are to have a 
strong, viable NEHRP, to consider a leadership situation in 
which we have an external board of experts that can help to 
plan and provide oversight for the activities of NEHRP, and 
then finally to remember us in terms of the funding needs and 
the value that this particular program supplies. It is 
leveraged in ways that are very, very important for a whole 
variety of different technologies, and especially homeland 
security. We like to look at earthquakes as an example of 
extreme events. And some of the things that we do are 
applicable to other extreme events.
    So I will end with a plea and with asking your 
consideration for assistance with, sort of, stemming the tide 
of this eroding funding situation and thinking very seriously 
about the model that has been proposed by the Earthquake 
Engineering Research Institute for increased support for this 
very valuable program.
    Thank you very much, Chairman Smith.
    [The prepared statement of Dr. O'Rourke follows:]

                Prepared Statement of Thomas D. O'Rourke

    On behalf of the Earthquake Engineering Research Institute (EERI), 
I am pleased to testify before the Subcommittee on Basic Research of 
the House of Representatives Committee on Science, and thank the 
members of the House for providing this opportunity. My testimony has 
been prepared in coordination with past president Chris Poland and the 
other members of the Board of Directors of the Earthquake Engineering 
Research Institute, and I thank them for their insights and assistance.

Benefits of NEHRP

    For the past 25 years, The National Earthquake Hazard Reduction 
Program (NEHRP) has been the backbone for protecting U.S. citizens from 
the deadly and economically disruptive effects of earthquakes and for 
seismic risk reduction throughout our nation. Unfortunately, over 75 
million Americans in 39 states are directly vulnerable to serious 
earthquakes, all Americans are vulnerable to the economic and social 
upheaval that earthquakes incur, and despite the remarkable advances 
that have been made over the past 25 years, the earthquake risk to the 
U.S. remains unacceptably high. Direct economic losses from the 1994 
Northridge earthquake in the Los Angeles area were in excess of $40 
billion.\1\ One year later, a severe earthquake struck Kobe, Japan, 
causing over $100 billion2 in direct damage to buildings and 
facilities. There were more than 5500 deaths\2\ as a result of the Kobe 
earthquake in a country that, like the U.S., is among the most 
technologically advanced in the world.
---------------------------------------------------------------------------
    \1\ Eguchi, R.T., J.D. Goltz, C.E. Taylor, S.E. Chang, P.J. Flores, 
L.A. Johnson, H.A. Seligson, and N.C. Blais (1996), ``The Northridge 
Earthquake as an Economic Event: Direct Capital Losses, Analyzing 
Economic Impacts and Recovery from Urban Earthquake: Issue for Policy 
Makers,'' EERI Conference, Pasadena, CA, October 10-11, pp. 1-28.
    \2\ United Nations Center for Regional Development (1995), 
``Comprehensive Study of the Great Hanshin Earthquake, Nagoya, Japan: 
UNCRD.'' The damage cost was estimated at 9.916 trillion yen by the 
Hyogo prefectural government, which, at an average exchange rate of 100 
yen = one U.S. dollar, converts to U.S. $99.2 billion (p. 194). This 
does not include indirect costs following the earthquake (for example, 
loss of port revenue and disruption to other business activities). The 
fatality total was 5,502 (p. 42).
---------------------------------------------------------------------------
    We face inevitable earthquakes that will affect our urban centers 
nationwide. The cost could reach $100 to 200 billion dollars each, with 
the potential loss of thousands of lives. At a time when our country is 
faced with threats of every kind, we need a strong and enhanced NEHRP. 
The problem is two-fold, involving the lack of implementation of 
appropriate building standards and the high cost of strengthening the 
existing built environment. We need to expand the protection and 
technologies that NEHRP is providing to reduce cost to affordable 
levels and encourage the mitigation activities that will provide the 
needed protection.
    NEHRP not only contributes to improved seismic performance, but 
contributes markedly to improved performance and reliability under both 
normal operation and extreme events associated with other natural 
hazards (e.g., hurricanes, floods, strong wind, etc.), severe 
accidents, and terrorist activities. As will be demonstrated later in 
this testimony, NEHRP investments are leveraged into improved safety 
and reliability of all components of the Nation's civil infrastructure, 
including buildings, transportation systems, water supplies, gas and 
liquid fuel networks, electric power, telecommunications, and waste 
disposal facilities.
    Much has been accomplished under NEHRP, and earthquake engineering 
and planning have made substantial advances because of its support. 
Major NEHRP products include national earthquake hazard maps developed 
by the U.S. Geological Survey (USGS), seismic design provisions for new 
buildings developed by the Federal Emergency Management Agency (FEMA), 
guidelines for the rehabilitation of existing buildings and bridges 
developed by FEMA and the Federal Highway Administration (FHWA), loss 
estimation methodologies developed by FEMA and FHWA, and performance-
based design procedures developed by FEMA and FHWA. Many of these 
products are derived from fundamental research sponsored by the 
National Science Foundation (NSF) with supplemental investigations and 
testing by the National Institute for Standards and Technology (NIST).
    Because of the multitude of products and the need to compress 
information into a focused testimony, it is only possible to illustrate 
with a few select examples how research under NEHRP has improved our 
ability to protect lives and property from earthquake hazards. Through 
geoscience research, for example, national seismic hazard maps have 
been developed and adopted by the International Building Code in 37 
states. The maps affect billions of dollars of new construction, and 
are used in seismic retrofits, earthquake insurance, community 
planning, and the design of schools, hospitals, bridges, dams, and 
power systems. Through geotechnical engineering research, for example, 
the effects of site response and local soil conditions on strong 
shaking have been quantified. Provisions for characterizing the 
amplifying effects of different ground conditions have been introduced 
into building codes where they are used to design public works, 
housing, and critical facilities.
    Geotechnical engineering research has also made enormous progress 
in characterizing and stabilizing soils subject to liquefaction. During 
liquefaction, strong ground shaking generates high water pressures in 
saturated sandy soil that, in turn, converts solid ground into a liquid 
that loses its capacity to support structures and moves laterally, 
rupturing underground pipelines and damaging building foundations and 
waterfront facilities. Research in geotechnical engineering has 
produced effective design procedures for liquefaction, developed 
equipment and maps for identifying liquefiable soils, and advanced 
ground stabilization technologies to remove or substantially reduce the 
risk of liquefaction.
    The current reconstruction of the Nation's transportation networks 
under the ICE TEA and TEA-21 programs has significantly benefited from 
NEHRP-sponsored research, including the USGS mapping program. The 
newest design guidelines and codes for bridge design being utilized in 
many parts of the country include advanced seismic design provisions 
and proper characterization of the seismic potential. The hundreds of 
billions of dollars our nation is investing in infrastructure 
reconstruction are better protected from significant earthquake effects 
because of the NEHRP program.
    Structural engineering research under NEHRP has resulted in 
profound improvements in the ways we analyze and design buildings for 
earthquake shaking, the methods we use to rehabilitate existing 
structures to perform safely in future earthquakes, and the advanced 
technologies we apply to isolate or control buildings from the damaging 
effects of seismic motion. A good example of applied structural 
research is the SAC project\3\<SUP>,</SUP>\4\<SUP>,</SUP>\5\ in which 
university and industry participants combined to resolve problems 
related to welded steel moment frame buildings. Over 200 buildings of 
this structural type suffered brittle fractures at welded connections 
during the 1994 Northridge earthquake, and 10 percent of similar steel 
frame buildings in Kobe collapsed during the 1995 Kobe 
earthquake.<SUP>3</SUP> The SAC Joint Venture was formed with FEMA 
sponsorship in mid-1994 to respond to this crisis. The structural 
research, which was produced under fast track conditions, resulted in 
practical and cost-effective standards of practice for the repair and 
upgrading of damaged steel frame buildings, the design of new steel 
buildings, and the identification and rehabilitation of at-risk steel 
buildings.
---------------------------------------------------------------------------
    \3\ Federal Emergency Management Agency (2000), ``Recommended 
Seismic Design Criteria for New Steel Moment Frame Building,'' FEMA-
350, Federal Emergency Management Agency, Washington, D.C.
    \4\ Federal Emergency Management Agency (2000), ``Recommended 
Seismic Evaluation and Upgrade for Steel Moment Frame Building,'' FEMA-
351, Federal Emergency Management Agency, Washington, D.C.
    \5\ Federal Emergency Management Agency (2000), ``Recommended 
Seismic Evaluation and Upgrade for Steel Moment Frame Building,'' FEMA-
352, Federal Emergency Management Agency, Washington, D.C.
---------------------------------------------------------------------------
    The results of structural, geotechnical, and earth science research 
come together in seismic design provisions, guidelines for 
rehabilitation of buildings, and loss estimation methodologies that 
have been distributed throughout the Nation and adopted by building 
codes and communities in virtually every state of the union. The engine 
that drives earthquake-resistant practices and seismic risk reduction 
is the research made possible by NEHRP. U.S. research and engineering 
practices for earthquakes are models for the rest of the world, and are 
emulated globally. Not only does the research supported by NEHRP 
protect lives and property from earthquake hazards, it distinguishes 
the U.S. as being at the forefront of globally important and life-
saving technology. Our nation gains leverage from earthquake 
engineering research through worldwide improvements in safety, 
protection of life, and the exportation of our technology and 
engineering services overseas.

Evolution of NEHRP

    Over the past 25 years, NEHRP agencies have developed a wide 
variety of products to improve significantly the practice of earthquake 
engineering. During this period the agencies have evolved and adopted 
their own roles and specific practices within NEHRP.
    FEMA, which has oversight responsibility for NEHRP, has taken on 
the role of sponsoring the development of guidelines and standards for 
the seismic evaluation and rehabilitation of existing buildings and for 
the design of new structures. Before FEMA involvement, there was little 
coordinated work in this area. The effort consists of developing 
consensus guidelines, code provisions, and background materials, all of 
which have fostered significant improvements in design worldwide, 
encouraged the adoption of appropriate codes in earthquake-prone 
communities, and have allowed billions of dollars to be spent better on 
appropriate seismic mitigation and hardening. FEMA's role for new 
buildings began in 1982 when the agency assumed responsibility for 
developing and updating seismic code provisions, which have become the 
basis for all national seismic codes and standards. FEMA's role for 
existing buildings began with a planning workshop in 1984 that set the 
course for what products were needed. Over the subsequent 18 years, the 
work plan, twice updated, has been implemented and professional 
practice greatly enriched.
    The NEHRP agencies in their latest Strategic Plan,\6\ provide an 
objective look at what now needs to be accomplished to advance the 
state of practice to the next level. Many EERI members were 
participants in the development of this plan, and we endorse the 
balance it calls for between research and outreach activities. 
Unfortunately, this plan, while completed in 2000, has never been 
published nor implemented. Without the guidance of such a plan, 
integrated and effective mitigation programs are hampered. With 
continued FEMA support, we look forward to the implementation of 
strategic planning and the development of mature tools, techniques, and 
policies to reduce seismic vulnerability in the U.S.
---------------------------------------------------------------------------
    \6\ NEHRP Agencies (2003), ``Expanding and Using Knowledge to 
Reduce Earthquake Losses: The National Earthquake Hazards Reduction 
Program Strategic Plan 2001-2005,'' FEMA, NIST, NSF, and USGS, March.
---------------------------------------------------------------------------
    One of the key policies needed to stimulate implementation involves 
financial incentives. Unlike other national programs, such as the 
National Flood Insurance Program, the current NEHRP legislation 
contains no explicit provision and no authorized funding for 
encouraging communities to mitigate the adverse effects of earthquake 
hazards. We believe that a more concerted effort to encourage 
mitigation is needed and recommend that a flexible program of 
incentives, tailored to the specific needs and resources of localities, 
be developed. EERI published a report, entitled Incentives and 
Impediments to Improving the Seismic Performance of Buildings,\7\ which 
outlines the opportunities. We recommend that FEMA undertake a 
concerted study to identify incentives, both tangible and intangible, 
that have motivated seismic rehabilitation of existing buildings, and 
design an incentive program that is applicable to both local public and 
private buildings. To support such a study, as much as five percent of 
the increased funding recommended for FEMA under the forthcoming 
section, entitled EERI Research and Outreach Plan, could be allocated 
to design and implement this incentive program.
---------------------------------------------------------------------------
    \7\ Earthquake Engineering Research Institute (1998), ``Incentives 
and Impediments to Improving the Seismic Performance of Buildings,'' 
Earthquake Engineering Research Institute, Oakland, CA, June.
---------------------------------------------------------------------------
    The USGS has successfully developed a procedure for translating 
earth science into the information needed for seismic design. This 
process has grown from individual efforts by USGS researchers to a 
collaborative program that regularly produces hazard maps for use by 
design professionals. They have developed a hazard mapping office in 
Golden, CO that works closely with various guideline and standards 
organizations to assure that the information is immediately useful. 
This collaboration has allowed the design community to assess seismic 
hazards on a site-by-site basis with increasing detail and reliability. 
The information produced by USGS affects hundreds of billions of 
dollars of construction each year. USGS is currently building the 
Advanced National Seismic System (ANSS) that will modernize and expand 
the earthquake monitoring system in the U.S., with concentrations in 
urban environments and the collection of data pertaining to actual 
building response. If we are to arrest the growth of earthquake risk in 
the United States, the USGS must continue to refine our understanding 
of the seismic potential throughout the country so that we can better 
pin-point the areas that need concentrated mitigation activities. This 
problem is so large and expensive that we can not afford to rely solely 
on the current information to guide our policy decisions.
    NSF research started as a program that primarily involved 
individual researchers in the early days of NEHRP. Although curiosity-
driven, individual researcher support is still a vigorous component of 
the NSF plan, a significant part of its earthquake engineering research 
has evolved into a collaborative effort involving engineering research 
centers (ERCs). There are currently three earthquake ERCs and an 
additional center focused on the earth science aspects of earthquakes, 
each of which involve a large number of universities, enlist the 
support of industry, and engage in active outreach programs and K-12 
education. The Centers are geographically distributed, with 
headquarters in California, Illinois, and New York. They work on 
problems that are both regional and national in scope, and they 
collaborate in areas of common expertise and interest. NSF also 
sponsors collaborative programs with researchers in other countries 
that have a significant commitment to earthquake engineering, such as 
Japan, Taiwan, and Turkey. NSF is currently building the George E. 
Brown, Jr. Network for Earthquake Engineering Simulation (NEES), which 
will consist of state-of-the-art experimental facilities distributed 
across the U.S. working in unison through advanced telecommunications 
and high performance Internet. If we are to arrest the growth of 
earthquake risk in the U.S., we must discover new techniques for 
understanding the vulnerability of structures and more cost efficient 
methods for reducing the vulnerabilities to acceptable levels. This 
requires NSF sponsored basic research, coordinated research, and 
development, all of which include simulation and testing with the NEES 
equipment sites.
    As the Nation's standards agency, NIST has been the leader in the 
development of seismic evaluation, rehabilitation, and design standards 
for federally owned, leased or funded facilities. It serves as the 
secretariat agency of the Interagency Council for Seismic Safety in 
Construction (ICSSC). NIST has assisted in the development of new 
structural systems that have advanced the state of practice in 
earthquake engineering. Most recently, NIST made significant 
contributions to the development of a hybrid, pre-cast, reinforced 
concrete structural system that achieves significant construction 
efficiencies and cost saving without sacrificing seismic performance. 
This innovation, which is known as the Pre-cast Hybrid Moment Frame 
(PHMRF) System, has been implemented successfully in the construction 
of the Paramount, a 39-story apartment tower in San Francisco.
    Unfortunately, NIST's work over the life of NEHRP has been 
constrained due to a lack of funding. The capabilities of NIST need to 
be expanded and leveraged to support the development of codes and 
standards. NIST needs to be authorized to provide the applied research 
that is needed to speed the translation of basic research into 
practice. NIST is in the process of publishing a report\8\ on this 
``missing link'' that clearly identifies the work that needs to be 
done.
---------------------------------------------------------------------------
    \8\ Applied Technology Council (2003), ``The Missing Piece: An 
Initiative to Improve Seismic Design and Construction Practices,'' ATC-
57, Applied Technology Council, Redwood City, CA, in press.
---------------------------------------------------------------------------
    We also recommend that the Federal Government deal immediately and 
in a proactive manner with its own inventory of buildings. Federal 
leadership, in terms of design requirements for federal buildings, 
rehabilitation standards and programs for existing buildings, minimum 
seismic standards for leased buildings and federally funded projects 
are a key to stimulating nationwide interest in seismic safety. We not 
only need the Federal Government to lead by example, we also need to 
protect the millions of federal employees and guests that occupy 
federal buildings that do not meet the governments own standards for 
earthquake safety.

EERI Research and Outreach Plan

    EERI is a national, nonprofit technical society of engineers, 
geoscientists, architects, planners, public officials, and social 
scientists. The 2,500 members of EERI include researchers, practicing 
professionals, educators, government officials, and building code 
regulators. The objective of EERI is to reduce earthquake risk by 
advancing the science and practice of earthquake engineering, improving 
the understanding of the impact of earthquakes on the physical, social, 
economic, political and cultural environment, and by advocating 
comprehensive and realistic measures for reducing the harmful effects 
of earthquakes.
    EERI convened a panel, representing a broad and multidisciplinary 
cross-section of its membership, to develop a Research and Outreach 
Plan.\9\ The plan includes both practical and basic research, and 
contains an outreach component that addresses implementation, 
education, and technology transfer. This plan began with the careful 
deliberations of the panel, and has been prepared with the counsel of 
the NEHRP agencies. It has undergone careful and intense scrutiny by 
our members as well as experts outside our membership. It represents 
the first comprehensive, consensus document from the entire earthquake 
engineering community about what needs to be done from earth science, 
through structural engineering and architecture, to social science and 
public policy. This plan is currently in publication and is receiving 
the endorsement of most of the significant stakeholders, users, and 
researchers who have dedicated their careers to achieving an acceptable 
level of earthquake safety. As of the preparation of this testimony, 
the organizations endorsing the EERI Research and Outreach Plan include 
Applied Technology Council, California Seismic Safety Commission 
(CSSC), Cascadia Region Earthquake Workgroup (CREW), Central United 
States Earthquake Consortium (CUSEC), Consortium of Universities for 
Research in Earthquake Engineering (CUREE), Council of American 
Structural Engineers, Mid-America Earthquake Center, Multidisciplinary 
Center for Earthquake Engineering Research (MCEER), National Fire 
Protection Association, Natural Hazards Center, Oregon Department of 
Geology and Mineral Industries, Pacific Earthquake Engineering Research 
Center (PEER), Public Entity Risk Institute, Seismological Society of 
America (SSA), and Structural Engineers Association of California 
(SEAOC).
---------------------------------------------------------------------------
    \9\ Earthquake Engineering Research Institute (2003), ``Securing 
Society Against Catastrophic Earthquake Losses,'' Earthquake 
Engineering Research Institute, Oakland, CA, March.
---------------------------------------------------------------------------
    At current funding levels, we believe that it will take over 100 
years to secure the Nation against unacceptable earthquake risks. Based 
on the recently released Research and Outreach Plan, Securing Society 
Against Catastrophic Earthquake Losses,<SUP>9</SUP> we believe that if 
program funding is augmented 3 times the current level, we will achieve 
the needed results in the next 20 years. The cost is estimated to be on 
average $330 million per year for the 20-year duration of the plan, 
which is less than one twentieth of the annual projected losses from 
earthquakes in the U.S.\10\
---------------------------------------------------------------------------
    \10\ HAZUS 99, ``Estimated Annualized Earthquake Losses for the 
United States,'' (2000), FEMA-366, Federal Emergency Management Agency, 
Washington, D.C.
---------------------------------------------------------------------------
    We believe that this Research and Outreach Plan provides the 
essential basis for seismic risk reduction by providing tools that will 
be easily understood, feasible, cost beneficial, and adaptable. It 
calls for a five-fold program, consisting of research and development 
pertaining to Understanding Seismic Hazards, Assessing Earthquake 
Impacts, Reducing Earthquake Impacts, Enhancing Community Resilience, 
and Expanding Education and Public Outreach. Detailed descriptions of 
topics and work are provided in the document for each program area, and 
interested parties should refer to it for specifics.
    Figure 1 shows the recommended funding proportions during the first 
five years of the program. Separate categories for capital investments 
and information technologies are indicated in each pie chart. The 
recommended capital investments pertain to NEES experimental 
facilities, ANSS, and field instrumentation. It is assumed that the 
first five-year cycle of the program occurs in FY04-08. The recommended 
annual level of funding in the first five-year period is nearly $360 
million, with a yearly $330 million average over 20 years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We strongly recommend that NEHRP be reauthorized at an augmented 
level consistent with the EERI Research and Outreach Plan. We believe 
that this will require the funding authorization for FEMA related to 
NEHRP to be increased to approximately $70 million per year, NIST to 
$20 million, NSF to $140 million, and USGS to $130 million.
    We believe that the basic proportions illustrated in Figure 1 
represent the appropriate funding allocations within the NEHRP program. 
As the level of overall funding increases, we will achieve the goal of 
reducing the effects of earthquakes at an accelerating rate. As a 
minimum, we firmly believe that support significantly exceeding current 
funding horizons is critically important for ANSS and NEES in FY04-08.
    ANSS is fundamentally important for NEHRP. Advancements in 
earthquake understanding and earthquake engineering occur after major 
earthquakes. The response of the built environment to strong shaking 
continues to provide real time clues to what works and what doesn't. To 
maximize our understanding, we need to know how strong the ground is 
shaking, and we need to understand fully the extent of damage that has 
been caused. ANSS will consist of 6,000 new instruments concentrated in 
high-risk urban areas to monitor ground shaking and the response of 
buildings and structures, together with upgraded regional and national 
networks and data centers. ANSS will provide scientists with high 
quality data to understand earthquakes, engineers with information 
about building and site response, and emergency response personnel with 
near-real-time earthquake information.
    Appropriations for ANSS are only proceeding at one-tenth the 
planned rate. Every year that we delay the deployment of ANSS we run 
the risk of missing the opportunity to record the shaking in a manner 
that will be useful to the engineering community. ANSS is the most 
critical new program needed by NEHRP. Putting the instrumentation in 
after the next earthquake will be too late.
    NEES is a nationwide resource of advanced research equipment sites 
networked through the high performance Internet. The network is focused 
on improving the seismic design and performance of U.S. public and 
private works through advances in the technologies applied in civil, 
mechanical, and telecommunication systems. The network will use state-
of-the-art experimental and simulation capabilities to understand the 
behavior of critical facilities under complex earthquake loading and to 
test and validate the analytical and computer models needed for 
effective engineering. NEES will link sites throughout the U.S. and 
globally to create a shared resource that benefits from open access and 
the contributions of leading researchers at multiple locations. 
Participation in NEES will involve educators, students, practitioners, 
public sector organizations and interested individuals, all of whom 
will have access to equipment, data, models, and software developed 
through the network. Because the network is distributed throughout the 
Nation, it will draw attention to earthquake vulnerability nationwide 
and the need for proper implementation and mitigation activities.
    Support for NEES is support for our future and a significant boost 
for our education system. It is an effective means of promoting U.S. 
leadership in the engineering of critical civil and mechanical systems 
and in applying telecommunications to energize the development of 
innovative and advanced technologies that benefit each American 
citizen.

Information Technology and Earthquake Mitigation

    Information technology (IT) enhances our ability to monitor seismic 
motion, predict how the ground will shake during a future earthquake, 
and model how structures respond. It provides the basis for rapid 
sensing and structural controls that will make buildings perform better 
during seismic excitation. It provides for remote data acquisition and 
interpretation coupled with rapid communication and visualization to 
direct emergency response. In the future, we will find that IT becomes 
a unifying and complementary force for decision-making that will be 
embedded in the most basic and fundamental units of our communities. 
Hence, IT has the potential to improve how communities accomplish the 
necessary tasks to reduce vulnerability, coordinate local with regional 
planning, and prevent catastrophic earthquake loss.
    Securing Society Against Catastrophic Earthquake Losses<SUP>9</SUP> 
presents an overview of IT applications to earthquake engineering, some 
of which are paraphrased here to highlight opportunities for mitigating 
earthquake hazards. New developments in micro-electromechanical sensors 
for acceleration, strain, pore water pressure, and other quantities 
will significantly enhance our ability to collect and process large 
volumes of data. Digital video, infrared, ultrasound, radar and lasers 
provide unprecedented opportunities for damage assessment. Satellite 
imaging, remote sensing, and high-resolution aerial photography provide 
new capabilities to capture and update inventory information on the 
natural and built environment prior to an earthquake, and to provide 
near real-time damage assessments after an event. Since high-end 
computers will likely realize petaflop scale (10<SUP>15</SUP> floating 
point operations per second) computing well before 2010, computational 
simulation of the ground motion in an entire region, with unprecedented 
accuracy in simulation of the built environment and interpretation of 
data collected through sensors, will soon be possible.
    In the post-earthquake environment, IT is providing a more 
efficient way of collecting data, coordinating reconnaissance teams, 
monitoring reconnaissance, and analyzing and distributing data. 
Information technology improves our ability to capture a wide range of 
observations and lessons after earthquakes. Data that would otherwise 
have perished after earthquakes can now be collected, stored, and made 
accessible via IT advances.
    One of the most important earthquake engineering applications of IT 
involves the utilization of large numbers of sensors and related large-
scale data collection. Wide-area wireless networking is a key 
technology to link sensors to modern communication networks. NEHRP-
sponsored programs are already early adopters of this technology. After 
the Northridge earthquake, FEMA funded an upgrading of the southern 
California seismic network with digital, broadband recording 
instruments that report on measurements in virtual real time. The 
upgraded network, which is known as TriNet, has proven its ability by 
rapidly locating the epicenters and determining the magnitudes of 
several significant earthquakes within minutes of their occurrence. 
Maps showing the distribution and severity of ground shaking, known as 
a ``ShakeMaps,'' were released swiftly and accessible through the 
Internet. This application of IT is immensely useful to emergency 
management officials, and the web sites showing contours of earthquake 
severity have become an integral part of the decision-making process 
for allocating resources and organizing emergency response. Extending 
these concepts, a city fully instrumented with networked sensors could 
include tens of thousands of sensors providing the data needed for 
radically improving the knowledge base of earthquake response; video or 
other imaging systems would be used in damage assessment, emergency 
response, and disaster recovery.
    Experience with TriNet was so successful that USGS used it as a 
framework for developing ANSS. As discussed previously, ANSS will 
expand on the regional application of advanced IT in southern 
California to provide nationwide coverage specifically targeted on 
urban areas, where much of our vital public works and critical 
infrastructure are located.
    Another example of advanced IT development and application under 
NEHRP is the support that NSF provides to deploy a large-scale 
permanent global positioning system (GPS) geodetic array in southern 
California, known as the Southern California Integrated GPS Network 
(SCIGN). The array contains 250 stations. It uses satellite measurement 
data to monitor small (sub-centimeter) movements between stations, and 
thus determine the earth deformations that are a prelude to serious 
earthquakes. Using the SCIGN data, scientists and engineers can learn 
how strains build over time before their sudden release during an 
earthquake.
    NSF with NEHRP support is driving a revolutionary application of IT 
through the creation of NEES. As discussed previously, NEES is a new 
major research equipment, computation, and networking initiative. The 
system architecture is based on grid computing that enables 
coordinated, flexible, and secure resource sharing and problem solving 
in real time among geographically dispersed facilities and users. 
Through its IT innovations, NEES will provide a world-renown resource 
for earthquake engineers to conduct advanced experiments, collect data, 
collaborate in improved simulations, and use all this information to 
improve design.
    In summary, NEHRP to date has successfully harnessed IT. In many 
ways, NEHRP is a model for introducing IT into the public arena, where 
it serves as a catalyst for further public interest and incorporation 
in community activities. Because NEHRP involves several engineering and 
science-based agencies, it is able to benefit from and capitalize on 
the cross-fertilization of ideas and technologies of diverse 
researchers and practitioners. This is a great strength of NEHRP, which 
has contributed to cutting-edge development and application of IT to 
protect life and property. This type of synergy needs support, and in 
return leverages investments into technologies that not only reduce 
losses, but substantially enhance the functionality and reliability of 
our nation's infrastructure.

NEHRP Improvements and Policy Changes

    As effective as NEHRP has been in supporting research and 
implementation of great value to our country, it has been subject to 
some significant limitations that need to be remedied if NEHRP is to 
achieve its full potential. The most significant limitations affecting 
NEHRP are leadership and the eroding level of funding.
    A new leadership model could be of great benefit for NEHRP. We 
recognize that leadership is the joint responsibility of all NEHRP 
agencies, with FEMA taking a lead role. We understand and support the 
fact that NEHRP was wisely split among four separate agencies, which 
allows the expertise of each agency to contribute to a significant 
national problem. We recognize and support the need for a lead agency 
with the responsibility to coordinate and facilitate the program. 
Unfortunately, each agency is within a different department of the 
executive branch, with its own Office of Management and Budget (OMB) 
examiner and Congressional oversight committee. As a result, the 
coordination and cooperation among the agencies are hindered, 
especially when it comes to the budgeting details. Previous 
reauthorizing legislation has attempted to correct this problem by 
calling for strategic planning and an interagency coordination 
committee. Although these adjustments in program administration have 
had beneficial results, additional improvements are also needed.
    We recommend that more be done to bring consistency and 
collaboration to NEHRP. We believe that the program should have a 
visible place and designated staff within each agency. We recommend 
that OMB assign one of the participating examiners to coordinate the 
budgeting within the four agencies so that the funds invested will be 
balanced and prioritized on a programmatic basis. We recommend that the 
Congressional Oversight and the Appropriations Committee also take 
steps to bring together the members who oversee each of the related 
agencies, so that they too will watch the program in its entirety and 
promote balance. Finally, we recommend that Congress ask the President 
to create an independent committee of external experts responsible for 
oversight of NEHRP. This oversight committee would report to Congress 
no less than biannually. We note that similar recommendations have been 
made by experts\11\<SUP>,</SUP>\12\ previously convened to provide 
advice for NEHRP. We believe that it is time to take up the 
implementation of this recurrent advice and make the improvements that 
will enhance NEHRP productivity.
---------------------------------------------------------------------------
    \11\ Expert Review Committee (1989) ``Commentary and 
Recommendations of the Expert Review Committee 1987,'' FEMA-164, 
Federal Emergency Management Agency, Washington, DC, Jan.
    \12\ Cheney, D.W. (1989), ``The National Earthquake Hazards 
Reduction Program,'' 89-473 SPR, Congressional Research Service, The 
Library of Congress, Washington, DC, Aug.
---------------------------------------------------------------------------
    NEHRP funding has fallen approximately 40 percent in real dollars 
since its inception in 1978.<SUP>6</SUP> Committees convened in the 
past to recommend NEHRP improvements have consistently emphasized the 
serious erosion in capability and potential that the steady decline in 
real dollars has incurred.<SUP>11<SUP>x-8</SUP>12</SUP> The report of 
the Expert Review Committee<SUP>10</SUP> convened to guide FEMA in the 
development of the NEHRP Five-Year Plan for 1989-1993, stressed the 
importance of increased funding and recommended more than a three-fold 
increase in the annual budget. Recognition of the steady decline in 
fiscal support is echoed today in the EERI Research and Outreach Plan, 
which recommends and provides justification for a similar increase in 
Congressionally authorized funding. If NEHRP is to provide the seismic 
risk reduction required by this country in a reasonable amount of time 
and achieve its potential in developing advanced technologies to 
safeguard U.S. infrastructure, then increased fiscal support for the 
program needs to be authorized by Congress. We strongly recommend that 
increases in funding consistent with those proposed in Securing Society 
Against Catastrophic Earthquake Losses<SUP>9</SUP> and outlined above 
be authorized and appropriated by Congress. To reduce the effects of 
inflation, the resulting funding levels should be indexed to the 
Consumer Price Index, as many federal activities are, thereby 
protecting earthquake mitigation support against the funding erosion 
that has affected NEHRP since its inception.

FEMA Transfer to the Department of Homeland Security

    FEMA is the designated lead agency for NEHRP. It is well qualified 
for this role. Of all NEHRP agencies, it has the most direct 
responsibility and experience with reducing losses from all natural 
disasters. It is focused on implementation, and has long-term 
collaboration and working relationships with code development 
organizations, professional societies, and state, local, and private 
sector groups responsible for reducing earthquake hazards.
    The transfer of FEMA to the Department of Homeland Security (DHS) 
brings about significant mission, administrative, and cultural changes 
for the agency, for which it is too premature to make pronouncements 
and prognostications of effect or outcome. It is not too premature, 
however, to voice honest and supportive concern about such a transfer. 
For NEHRP to continue its mission in a productive manner and realize 
its potential, it needs a strong and dedicated group within DHS to 
provide oversight for and to administer the program. This requires a 
clear identity within DHS with designated staff and agency commitment 
to the program. NEHRP must be visible, and must be maintained as a 
clearly identified line item in the Congressional budget.
    FEMA is a results-oriented agency with expertise in the 
implementation of research findings. It has management responsibility 
in contrast to the research responsibilities of NSF, USGS, and NIST. 
Steps must be taken to work across the cultural divide of management 
and research. We believe that an external expert oversight committee 
will help substantially to achieve this goal.
    The transfer of FEMA to DHS provides substantial opportunities. DHS 
will have responsibilities for research and implementation programs to 
support security of U.S. home property and assets. Earthquake hazards 
are an integral part of this package, and have important 
characteristics in common with the types of extreme events that DHS has 
been created to control. Hence, the expertise of the earthquake 
engineering community under NEHRP has both immediate and ongoing value 
to DHS not only in seismic risk reduction, but in the protection of our 
communities from a variety of hazards, related to natural, accidental, 
and pre-meditated causes. As discussed under the next heading, the 
research and implementation created by NEHRP have immense beneficial 
effects on U.S. technology and the reliability of its civil 
infrastructure. Such outcomes leverage the value of NEHRP investments 
well beyond their very positive influence in reducing earthquake 
losses.

NEHRP Effects on US Technology and Preparedness

    Investments in earthquake engineering through NEHRP have resulted 
in technical advances that apply beyond earthquakes to other hazards, 
civil infrastructure, applied information technology, and homeland 
security. A few of the many examples include passive/active building 
control for wind hazards, advanced geographical information systems 
(GIS) for lifelines and civil infrastructure management, fiber-
reinforced polymers for bridge/building repair and restoration, 
inspection protocol for buildings applied after the World Trade Center 
(WTC) Disaster, seismic monitoring of nuclear tests, and social science 
contributions to federal emergency response plans, early warning 
systems, and community perception of risk.
    One of the most dramatic examples of the application of earthquake 
engineering to extreme events occurred immediately after the World 
Trade Center (WTC) Disaster of September 11, 2001.\13\ This attack on 
our urban infrastructure was unprecedented and beyond planning 
scenarios for serious urban accidents in terms of scale and intensity. 
Fortunately, procedures developed for earthquakes under FEMA 
sponsorship\14\ were available and rapidly deployed to investigate and 
identify the condition of surrounding buildings. For years before the 
WTC Disaster, engineers had been responding to earthquakes that caused 
damage at scales comparable to and exceeding the destruction resulting 
from the terrorist attacks of September 11. Through NEHRP support, they 
had developed the tools to deploy rapidly, examine, and assess the 
condition of buildings in a simple, practical way that allows for 
decisions about structural integrity. This process was of critical 
importance in the aftermath of the WTC Disaster, when determination of 
building integrity surrounding the WTC complex was needed to protect 
lives and property, and to decide on re-occupancy of buildings with 
critical telecommunications, financial banking, and securities trading 
capabilities essential for the restoration of world business markets. 
As a result of NEHRP, the inspection procedures to initiate WTC 
recovery were available ``off the shelf.'' Although an unexpected and 
unintended outcome of NEHRP, this example nonetheless illustrates the 
immense benefits that accrue from our nation's investment in earthquake 
protection.
---------------------------------------------------------------------------
    \13\ Federal Emergency Management Agency (2002), ``World Trade 
Center Building Performance Study,'' FEMA-403, Federal Emergency 
Management Agency, Washington, DC, May.
    \14\ Applied Technology Council (1989), ``Procedures for Post-
earthquake Safety Evaluation of Buildings,'' ATC-20, Applied Technology 
Council, San Francisco, CA.
---------------------------------------------------------------------------
    In other cases, the influence of earthquake engineering investments 
are more subtle, though still of substantial importance. For example, 
research and implementation of fiber-reinforced polymers (FRPs) for the 
seismic retrofitting of bridges and overpasses after the 1989 Loma 
Prieta earthquake were a very important catalyst in proving the 
technology and advancing its practical application under field 
conditions. Now this technology is used routinely for repair and 
rehabilitation of buildings and bridges throughout the country to 
enhance normal functionality and extend facility life. The use of FRPs 
is extending the useful life of bridges, obviating the need to replace 
expensive infrastructure throughout the U.S. They also can improve the 
blast resistance of many existing buildings.
    Another example includes the development of active and passive 
control to dampen or isolate building response from the effects of 
earthquake shaking. Active control uses sensors feeding into 
electrically activated devices that countermand seismic motion, whereas 
passive control involves the use of base isolators and resisting 
members to substantially reduce transient movement within structures. 
Active and passive control technology developed for earthquake effects 
has immediate benefits for similar systems to offset the effects of 
natural hazards like wind and hurricanes. Active and passive control 
systems also have potential for reducing blast effects, thereby 
protecting critical facilities against terrorist attacks.
    In 1996, the authors of FEMA 277, The Oklahoma City Bombing: 
Improving Building Performance through Multi-Hazard Mitigation,\15\ 
suggested that the physical damage and extent of progressive collapse 
inflicted on the Alfred P. Murrah Federal Building might well have been 
lessened if the original design had incorporated seismic detailing. 
Conceptually, this idea has taken root in the structural engineering 
industry and is currently under study by various investigators. If 
validated, seismic engineering and design could make a very significant 
contribution to the homeland security aspects of our built environment. 
Additional research in this area is warranted.
---------------------------------------------------------------------------
    \15\ Federal Emergency Management Agency (1996), ``The Oklahoma 
City Bombing: Improving Building Performance through Multi-Hazard 
Mitigation,'' FEMA-352, Federal Emergency Management Agency, 
Washington, D.C.
---------------------------------------------------------------------------
    One of the most successful loss estimation products is the software 
program, HAZUS, developed through FEMA to estimate physical damage, 
casualties, and other societal impacts from earthquakes. HAZUS is an 
excellent example of how NEHRP-sponsored research converges in a single 
platform, readily transportable through GIS and computer technology to 
communities throughout the U.S. HAZUS embodies a multitude of 
algorithms and correlations originating from NSF- and USGS-sponsored 
research into a program implemented by FEMA for national use. The 
process and program architecture in HAZUS are adaptable to other 
natural hazards, and are currently being applied to floods and 
hurricane wind. Hence, NEHRP investments in this case have direct 
application for other natural hazards because, in addition to 
earthquakes, HAZUS will become the platform for loss estimation related 
to flood and hurricane wind.
    NEHRP plans for the future involve a Lifelines Initiative that is 
required through public law, whereby FEMA, in consultation with NIST, 
will develop a plan for design and construction standards for 
lifelines. Lifelines include transportation systems, water supplies, 
gas and liquid fuel networks, electric power, telecommunications, and 
waste disposal facilities. They are the distinguishing characteristic 
of modern communities, and deliver the resources and services necessary 
for safety, security, and economic well-being.
    NEHRP has been a hotbed for innovation and IT applications in 
lifeline systems. Research sponsored by NSF, USGS, and NIST have 
resulted in sophisticated models of lifeline network performance under 
various damages scenarios associated with earthquakes. Much of this 
work has involved innovative use of GIS, probabilistic hazard analyses, 
network reliability procedures, advanced remote sensing and 
characterization of geotechnical hazards, strong motion simulation, and 
applications of regional economic analyses and community recovery 
models. The overall outcome of this activity is a rich and technically 
advanced framework for the simulation and evaluation of complex 
infrastructure systems under extreme events.
    I can attest personally to the importance of this branch of NEHRP 
activity by reference to NSF-sponsored research on the earthquake 
performance of the water supply system in San 
Francisco.\16\<SUP>,</SUP>\17\ Before the 1989 Loma Prieta earthquake, 
hydraulic network and system reliability analyses of the Auxiliary 
Water Supply System (used for fire protection) in San Francisco were 
preformed. They demonstrated that the water distribution pipeline 
network in that city would be compromised in a severe earthquake 
because of liquefaction-induced ground deformation and shaking effects. 
The City of San Francisco and the San Francisco Fire Department 
responded to this research by successfully petitioning for a 
substantial bond issue to upgrade and retrofit the Auxiliary Water 
Supply System. As part of the fire department response, special 
vehicles, known as hose tenders, were commissioned to convey nearly a 
mile of special hose to the waterfront and hook into the fireboat, 
which would pump water through the hose and portable hydrants deployed 
inland to locations of earthquake-generated fire. During the Loma 
Prieta earthquake liquefaction-induced ground deformation, as 
predicted, ruptured critical water distribution pipelines, leaving the 
Marina without pipeline water. The hose tenders were successfully 
deployed to the Marina and extinguished the major fire that erupted 
there. Without these benefits of research and implementation under 
NEHRP, it is likely that the fire loss from this earthquake would have 
been substantial, costing orders of magnitude more than the research 
that prevented it.
---------------------------------------------------------------------------
    \16\ O'Rourke, T.D., Ed. (1992), ``The Loma Prieta, California, 
Earthquake of October 17, 1989--Marina District,'' U.S. Geological 
Survey Professional Paper 1551-F, U.S. Government Printing Office, 
Washington, DC.
    \17\ O'Rourke, T.D. and Pease, J.W. (1992), ``Large Ground 
Deformations and Their Effects on Lifeline Facilities: 1989 Loma Prieta 
Earthquake,'' Case Studies of Liquefaction and Lifeline Performance 
During Past Earthquakes, NCEER-92-0002, T.D. O'Rourke and M. Hamada, 
Eds., National Center for Earthquake Engineering Research, Buffalo, NY, 
April, pp. 5-1-5-85.
---------------------------------------------------------------------------
    Water supply and other critical infrastructure, such as electric 
power, telecommunications, and transportation systems, are vulnerable 
to a variety of hazards related to natural, accidental, and pre-
meditated causes. The research and implementation for lifelines under 
NEHRP have established an excellent baseline and ready resource for 
simulating and protecting our vital infrastructure networks. It is 
important that Congress consider the immense leverage from NEHRP for 
improvements and security of buildings, transportation systems, water 
supplies, gas and liquid fuel networks, electric power, 
telecommunications, and waste disposal facilities. NEHRP provides an 
enormous return on investment that substantially reduces our nation's 
vulnerability to earthquakes and improves the performance of its civil 
infrastructure.

Summary

    The earthquake risk to the United States is unacceptably high. We 
are facing inevitable earthquakes that will cost the Nation $100 to 
$200 billion each, with the potential loss of thousands of lives. We 
believe that the growth of this risk can be arrested and reduced to an 
acceptable level. This requires continuous research, expanded seismic 
monitoring, and nationwide mitigation.
    For the past 25 years, The National Earthquake Hazard Reduction 
Program (NEHRP) has provided resources and leadership that have lead to 
significant advances in understanding the sources of earthquake risk 
and have provided useful tools for arresting its growth. In spite of 
all the good work that has been done in the regions of highest 
seismicity, our earthquake risk is still unacceptably high because of 
the lack of implementation of appropriate building standards and 
because the cost of strengthening the existing built environment is too 
high. This trend will not be reversed until earthquake risks are 
understood by communities in all 39 vulnerable states, existing 
mitigation procedures are used more extensively, and new techniques are 
developed to better define and reduce earthquake risks.
    First and foremost, we need Congress to maintain a strong and 
viable NEHRP. It needs to continue under the current organizational 
structure and proceed along the lines of the recently developed NEHRP 
Strategic Plan.<SUP>6</SUP> This plan outlines a course of action for 
the best use of existing funding and prioritizes opportunities for 
accelerating the program as additional funding becomes available.
    At current funding levels, we believe that it will take 100 plus 
years to secure the Nation against unacceptable earthquake risks. Based 
on our recently published research and outreach plan, Securing Society 
Against Catastrophic Earthquake Losses,<SUP>8</SUP> we believe that 
implementing an expanded program, which includes ANSS and NEES with 
triple the funding, will allow the needed results to be achieved 
throughout U.S. communities within the next 20 to 30 years. We believe 
that 100 plus years is much too long to wait. A strong NEHRP that 
includes proactive implementation through leadership, incentives, 
requirements, and new public policy needs to be maintained.
    A new leadership model is needed to enhance consistency and 
collaboration in NEHRP. The program should have a visible place and 
designated staff within each NEHRP agency, including a strong and 
dedicated group in DHS. Congress should create an independent oversight 
committee of external experts to provide guidance on enhancing 
productivity and strategic orientation for NEHRP.
    The Advanced National Seismic System (ANSS), authorized by Congress 
in 2000, is intended to expand the current monitoring system and 
provide essential information. Strong motion data are critical to 
making the next advance in understanding how economically to arrest the 
growth of earthquake risk and reduce it to an acceptable level. ANSS is 
the most critical new program proposed for NEHRP. Putting the 
instrumentation in after the next earthquake will be too late.
    The George E. Brown, Jr. Network for Earthquake Engineering 
Simulation (NEES), established by NSF, will expand the state of 
knowledge in earthquake engineering through new methods for 
experimental and computational simulation. Currently many new 
experimental research sites are established around the country, and a 
system to link them into a sophisticated testing and simulation complex 
is being developed. Unfortunately, funds to carry out the research that 
will make use of this new equipment and simulation technology are not 
available at the needed levels. Knowledge developed through experiments 
and simulation methodologies provide the essential scientific knowledge 
base for improving codes and guidelines. Social science and education 
research will complement this by helping to understand and communicate 
better the implications and choices that must be made. An immediate 
investment in NEES is needed to reduce the cost of seismic design and 
strengthening to affordable levels and stimulate significant mitigation 
activities. NEES will also advance the use of IT nationwide, set new 
standards for the synchronous use of geographically distributed 
experimental facilities, and be a significant boost for our education 
system.
    We recommend, above all else, that NEHRP be reauthorized with 
increases in the spending levels for each agency consistent with the 
NEHRP Strategic Plan<SUP>6</SUP> and the EERI Research and Outreach 
Plan. Funding for the EERI Plan,<SUP>8</SUP> Securing Society Against 
Catastrophic Earthquake Losses, will require $358 million per year for 
the first five years, with a yearly average of $330 million over the 
20-year program.
    Finally, it is important to recognize the immense leverage from 
NEHRP for improvements in the reliability and security of buildings, 
transportation systems, water supplies, gas and liquid fuel networks, 
electric power, telecommunications, and waste disposal facilities. 
NEHRP provides an enormous return on investment that substantially 
reduces our nation's vulnerability to earthquakes and, at the same 
time, improves the performance of its civil infrastructure for both 
normal operation and extreme events.

                    Biography for Thomas D. O'Rourke

Thomas R. Briggs Professor of Engineering, Civil and Environmental 
        Engineering, Cornell University, 273 Hollister Hall, Ithaca, NY 
        14853-3501

Education

Ph.D., University of Illinois at Urbana-Champaign, 1975

M.S.C.E., University of Illinois at Urbana-Champaign, 1973

B.S.C.E., Cornell University, 1970

Experience

    Professor O'Rourke has been a member of the teaching and research 
staffs at Cornell University and the University of Illinois at Urbana-
Champaign. His teaching and professional practice have: covered many 
aspects of geotechnical engineering including foundations, earth 
retaining structures, slope stability, soil/structure interaction, 
underground construction, laboratory testing, and elements of 
earthquake engineering. He has authored or co-authored over 280 
publications on geotechnical, underground, and earthquake engineering.
    He was elected a member of the National Academy of Engineering in 
1993. He was awarded the C.A. Hogentogler Award from ASTM in 1976 for 
his work on the field monitoring of large construction projects. In 
1983 and 1988, Prof. O'Rourke received the Collingwood and Huber 
Research Prize, respectively, from ASCE for his studies of soil and 
rock mechanics applied to underground works and excavation 
technologies. In 1995 he received the C. Martin Duke Award from ASCE 
for his contributions to lifeline earthquake engineering and in 1997 he 
received the Stephen D. Bechtel Pipeline Engineering Award from ASCE 
for his contributions to the profession of pipeline engineering. In 
2002 he received the Trevithick Prize from the British Institution of 
Civil Engineers and was designated as an NSF Distinguished Lecturer. He 
received the 2003 Japan Gas Association Best Paper Award and the 1996 
EERI Outstanding Paper Award. In 1998, he was elected to the EERI Board 
of Directors and serves as President from 2003-2005. In 1998, Prof. 
O'Rourke received Cornell University's College of Engineering Daniel 
Lazar '29 Excellence in Teaching Award. In 2000 he was elected a Fellow 
of the American Association for the Advancement of Science and received 
the Distinguished Alumnus Award in Civil and Environmental Engineering 
from the University of Illinois. He testified before the U.S. House of 
Representatives Science Committee in 1999 on engineering implications 
of the 1999 Turkey and Taiwan earthquakes and in 2003 on the 
reauthorization of the National Earthquake Hazards Reduction Program. 
He has served on numerous earthquake reconnaissance missions, and holds 
a U.S. patent for innovative pipeline design.
    Professor O'Rourke has developed engineering solutions for problems 
concerning foundation performance, ground movement effects on 
structures, earth retaining structures, pipelines, earthquake 
engineering, tunneling, and infrastructure rehabilitation, both on a 
research and consulting basis. He has served as chair or member of the 
consulting boards of several large underground construction projects, 
as well as the peer reviews for projects associated with highway, rapid 
transit, water supply, and energy distribution systems. He has assisted 
in the development and application of advanced polymer and composite 
materials for the in-situ rehabilitation of water supply and gas 
distribution pipelines. He has developed techniques for evaluating 
ground movement patterns and stability for a variety of excavation, 
tunneling, micro-tunneling, and mining conditions. He has developed 
analytical methods and siting strategies to mitigate pipeline damage 
during earthquakes, analyze and design high pressure pipelines, and has 
established full-scale testing facilities for transmission and 
distribution pipelines. He has developed geographical information 
systems and network analysis procedures for water supply systems in 
areas vulnerable to earthquakes and other natural disasters.
    He is a member of the ASCE, ASME, ASTM, AAAS, ISSMEE, EERI, and 
IAEG. He is a member of the NSF Engineering Directorate Advisory 
Committee, and serves on the Executive Committees of the 
Multidisciplinary Center for Earthquake Engineering Research and the 
Institute for Civil Infrastructure Systems. He was chair of the U.S. 
National Committee on Tunneling Technology and a member of the NRC 
Geotechnical Board and Board on Energy and Environmental Systems. He is 
a past chair of the UTRC Executive Committee and both the ASCE TCLEE 
Executive Committee and Technical Committee on Gas and Liquid Fuel 
Lifelines. He is a past Chair of the ASCE Earth Retaining Structures 
Committee, as well as past President of the ASCE Ithaca Section, and 
was a member of the inter-municipal water commission in his home town.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Smith. Thank you, Dr. O'Rourke. Dr. Reaveley.

  STATEMENT OF DR. LAWRENCE D. REAVELEY, PROFESSOR AND CHAIR, 
 DEPARTMENT OF CIVIL AND ENVIRONMENTAL ENGINEERING, UNIVERSITY 
                            OF UTAH

    Dr. Reaveley. Chairman Smith and Members of the 
Subcommittee, it is with great respect that I speak to you 
today.
    The National Earthquake Hazards Reduction Program is a 
program that I know well and which I have a significant 
experience. It is my deeply held belief that the NEHRP program 
is primarily responsible for most of the major advances in 
structural engineering that have been achieved during the last 
25 years.
    Research interest in blast loaded structures began to wane 
in the early 1970's while the 1971 San Fernando Valley 
earthquake sparked interest in seismic design to the poor 
performance of many structures. Without the knowledge gained 
from the NEHRP program, it would have not been possible to 
understand nearly as well the behavior of buildings that were 
recently damaged by terrorist activities. The best example of 
this technology transfer is that the modeling parameters that 
are contained in FEMA 356, ``Prestandard and Commentary for the 
Seismic Rehabilitation of Buildings.'' This document contains 
guidance for assessing the behavior of structural components of 
all building types when required to resist the effects of 
various loading. These loading may range from service 
conditions to extreme loading. The methodology embodied in FEMA 
356 will undoubtedly be the technical basis of future 
performance-based design codes, which, I believe, will address 
the major technical and social economic issues that are 
important in the earthquake study.
    There also have been great advances in understanding the 
nature of ground motion associated with earthquakes. In the--in 
Salt Lake City, it was virtually impossible to gain the 
professional and public support for the seismic design of 
buildings until Lloyd Cluff and others established, through 
trenching studies, that the Wasatch Fault was still an active 
fault-producing system. These studies were completed in the 
mid-1970's and provided the necessary proof that a major 
earthquake would happen in the future. These were important 
benchmark studies. Out of this type of study has grown a body 
of knowledge that allowed for the development of new maps for 
the determination of how much ground shaking one might expect 
from an earthquake anywhere in the United States of America. 
These maps are now used in current building codes. The value of 
these maps is that they are based upon current scientific 
knowledge and will easily--be easily updated as new knowledge 
is acquired. The old seismic code maps were somewhat subjective 
in nature and were sometimes influenced by political pressure. 
This more--this most important advancement was made possible 
through NEHRP funding.
    NEHRP funding for the FEMA ``yellow book'' series of 
publications that deal with structural engineering guidelines 
and standards has been critical for the process of technology 
transfer to the design professional community. The typical 
structural engineer would be completely lost without them. In 
fact, the process of creating these documents has clearly 
identified the research needs in the overall field of 
structural engineering.
    We have much more to learn about where and how the ground 
will shake. How buildings and other structures respond to 
ground motion is still at a rudimentary stage of prediction. 
Soil structure interaction is not very well understood, and it 
is critical, because we can not close the gap between the 
ground shaking and the structure model without this 
information. This information will allow the country to be more 
efficient in the allocation of resources. We will have a 
greater knowledge as to where and with what frequency the 
ground will shake. We have the ability to better allocate 
construction dollars within a particular structure to achieve a 
desired outcome following an earthquake. We will be in a better 
position to understand which buildings might be economically 
rehabilitated to resist the effects of ground motion.
    The fact that there is such a limited few dollars in the 
NEHRP budget is simply not justified from a basic economic 
point of view, in my opinion. The expenditure of previous funds 
has helped minimize the losses in the most recent domestic 
earthquakes. Every dollar spent on creating an earthquake-
resistant structure also creates a more blast-resistant 
structure, or one that might be resistant to high winds. I 
personally had a building that I designed for earthquake that 
was hit by a--the only tornado we know about in Salt Lake. It 
was hit broadside, a 14-story building. It didn't twitch a bit. 
A full tornado hit it. Progressive collapse is also minimized. 
If dollars are limited, which I hope they are not, my opinion 
is that the following tasks, in order of priority, should be 
emphasized, but all of the programs should be kept alive, 
because they are important.
    One, strong motion networks in regions of high-probable 
ground shake, ground--strong ground motion are essential to our 
progress. Free field data and data from instrumented buildings 
are absolutely necessary for the advancement of our abilities 
to understand the behavior of structures. Lack of this type of 
data and the almost negligible amount of funding to study such 
data is a major roadblock in advancing our understanding of the 
physics of the earthquake problem.
    I brought with me copies of the report titled, ``The Plan 
to Coordinate NEHRP Post-earthquake Investigations.'' The major 
NEHRP agencies cooperated in the production of this report. 
This report summarizes most of the issues with respect to the 
topic.
    Two, Performance Based Engineering is an all-encompassing 
concept, and it should be a structure upon which all of the 
various elements of the program are fit together to achieve the 
goals and objectives of NEHRP. It must be funded.
    Three, this crosses the line between governmental agencies, 
as Mr. Hanson spoke. I personally believe that the most 
overlooked factor in improving the overall performance of 
buildings is the lack of qualified personnel at the local 
government level. Plan review and inspections are critical and 
are not being done, even in areas of high seismic risk. Perhaps 
some sort of incentives could be fashioned. Since the direct 
losses from a major earthquake in an urban environment can be 
in the tens of billions or to the hundreds of billions, it 
seems that we are being foolish in not realizing the overall 
benefit of a better funded program. The United States has 
never, in modern times, experienced the impacts of what will 
occur if a real big one does strike in a major urban center. I 
believe that economic consequences of a major earthquake and 
their effects on the surviving population should drive NEHRP 
and be the defining parameters in setting priorities. Unless 
there is a significant increase in funding, it will not be 
possible to create a program that can meet the objectives 
associated with the visions set forth by Congress.
    Now this turns out to be a common theme, which was not 
orchestrated and independently written by all of the panelists. 
There is a need to empower a central authority to coordinate 
the activities of the various agencies that expend NEHRP funds. 
This authority should be charged with achieving the goals and 
objectives set forth by Congress. There should be established a 
review mechanism drawing on experts with leadership and 
technical experience to assist in identifying and prioritizing 
program initiatives.
    Thank you.
    [The prepared statement of Dr. Reaveley follows:]

               Prepared Statement of Lawrence D. Reaveley

    Chairman Boehlert, and Members of the Subcommittee, it is with 
great respect that I speak before you today. The National Earthquake 
Hazards Reduction Program (NEHRP) is a program that I know well and 
with which I have significant experience.

Introduction

    The art and science of structural engineering is constantly 
evolving as we gain knowledge about the performance of buildings and 
other structures when subjected to extreme loads. Extreme loads may 
come from natural phenomenon, such as wind or earthquake ground motion. 
Other conditions that lead to extreme loading can come from accidental 
or purposely induced explosive forces. Although there are some 
differences in the specifics of extreme loadings caused by these 
individual sources, the basic effect is to cause the structural 
elements to deform excessively and subsequently be permanently damaged 
or to collapse. The primary goal of a structural engineer is to make 
the capacity of a structure greater than the demand placed upon it by 
the various loads that it is anticipated to experience. The capacity is 
determined by the size, shape, materials, and details utilized in the 
construction of restructure. Different details might be utilized for 
different loading conditions, but in general, a structure that is 
designed for one extreme loading condition has most of the desired 
attributes that are required for others.
    It has been primarily through examining or observing components of 
structures that have experienced extreme loads that we have advanced 
the technology of structural engineering. In the laboratory we are able 
to make precise measurements while the loading is applied. This 
provides the needed information for developing analytical models that 
allow for predicting the performance of other structures that may 
experience similar loads. We need more specific information of this 
nature. An efficient way of gaining good information is to instrument 
buildings that are likely to experience an extreme load. Over time, we 
will be able to gather needed information to develop improved computer 
models that will produce relatively accurate predictions for structural 
response and performance. This last step requires much more empirical 
data than currently exists.

Comments

    Now, it should be asked what has this preamble to do with this 
hearing titled, ``The Past, Present, and Future'' (NEHRP).
    It is my deeply held belief that the NEHRP program is primarily 
responsible for most of the major advances in structural engineering 
that have been achieved during the last 25 years. Research interest in 
blast loaded structures began to wane in the early 1970's, while the 
1971 San Fernando Valley earthquake sparked interest in seismic design 
due to the poor performance of many structures. Without the knowledge 
gained from the NEHRP program, it would not have been possible to 
understand nearly as well the behavior of the buildings that were 
recently damaged by terrorist activities. The best example of this is 
the modeling parameters that are contained in FEMA 356, ``Pre-standard 
and Commentary for the Seismic Rehabilitation of Buildings.'' This 
document contains guidance for assessing the behavior of structural 
components of all building types when required to resist the effects of 
various loadings. These loadings may range from service conditions to 
extreme loadings. While developed for existing buildings, it provides 
guidance that may be used for the design and construction of new 
facilities. FEMA 356 summarizes the state of the art knowledge as of 
the late 1990's. It was written to be able to adapt to the increasing 
knowledge gained from testing and post disaster studies. It is 
recognized that there are many specific areas about which we have 
insufficient knowledge. The methodology embodied in FEMA 356 will 
undoubtedly be the basis of future performance-based design codes.
    There also have been great advances in understanding the nature of 
ground motions associated with earthquakes. In Salt Lake City, it was 
virtually impossible to gain the professional and public support for 
the seismic design of buildings until Lloyd Cluff and others 
established, through trenching studies, that the Wasatch Fault was 
still an active earthquake producing fault system. These studies (USGS) 
were completed in the mid 1970's and provided the necessary proof that 
a major earthquake would happen in the future at some point in time. 
These were important benchmark studies. Out of this type of study, has 
grown a body of knowledge that allowed for the development of new maps 
for the determination of how much ground shaking one might expect from 
an earthquake anywhere in the United States of America. These maps are 
now used in the current building codes. The value of these maps is that 
they are based upon current scientific knowledge and will be easily 
updated as new knowledge is acquired. The old seismic code maps were 
somewhat subjective in nature and were sometimes influenced by 
political pressure. This most important advancement was made possible 
through NEHRP funding.
    NEHRP funding for the FEMA ``yellow book'' series of publications 
that deal with structural engineering guidelines and standards has been 
critical for the process of technology transfer to the design 
professional community. The typical structural engineer would be 
completely lost without them. In fact, the process of creating these 
documents has clearly identified the research needs in the overall 
field of structural engineering.
    There have been tremendous advancements during the past 25 years 
that have allowed for the development of a rational base upon which to 
build. Current code requirements are more firmly founded on scientific 
principles and are certainly more rational than previous generations of 
building code requirements. But, they are deficient with respect to 
what they might be if further development work is funded. We have much 
more to learn about where and how the ground will shake. How buildings 
and other structures respond to ground motion is still at a rudimentary 
stage of prediction. Soil-structure interaction is not very well 
understood.
    Better information will allow the country to be more efficient in 
the allocation of resources. We will have greater knowledge as to 
where, and with what frequency, the ground will shake. We will have the 
ability to better allocate construction dollars within a particular 
structure to achieve a desired outcome following an earthquake. We will 
be in a position to better understand which buildings might be 
economically rehabilitated to resist the effects of ground motion. The 
economics of structural rehabilitation is an emerging area of study 
that needs much work. Rehabilitation is a serious concern in that it 
can be very costly, but with improved knowledge of design and 
construction methods it can produce buildings that are safe and that 
can meet various performance expectations. There are some buildings 
that can be rehabilitated with simple and relatively inexpensive 
techniques. There are others that are simply too costly to improve. We 
are beginning to understand this process better, but there is much to 
learn in this area. New materials and energy dissipation devices are 
making a difference in being able to economically rehabilitate 
structures.
    It is too costly to replace all of the inadequate structures that 
are vulnerable to ground shaking or to other extreme loads, so it is 
imperative that we learn how to economically improve those structures 
that are a threat to life, those that are critical to the economic 
vitality of the country, and those that are critical to the functioning 
of our cities.

A Relevant New Report

    A very important new report has just been produced in partnership 
with NIST by the Applied Technology Council (ATC). The ATC document 
number is 57, and it is titled ``The Missing Piece: Improving Seismic 
Design and Construction Practices.'' This document deals with the 
subjects of this hearing and was produced by some of the leading 
professionals associated with the NEHRP activities. A portion of the 
preface to this document is as follows:

                                PREFACE

    In 2001, the Applied Technology Council (ATC) commenced a broadly 
based effort to define a problem-focused knowledge development, 
synthesis and transfer program to improve seismic design and 
construction practices. Input was sought from seismic design and 
construction industry leaders, and a Workshop was convened in the 
summer of 2002 to develop the program. The Missing Piece: Improving 
Seismic Design and Construction Practices is the result of an 
industrial collaboration. It provides a framework for creating a 
knowledge bridge and allows the Nation to more fully realize its NEHRP 
investment in practical terms--safer buildings.
    The Missing Piece: Improving Seismic Design and Construction 
Practices had its genesis in the strategic planning process for the 
National Earthquake Hazards Reduction Program (NEHRP), which was 
undertaken by the Federal Emergency Management Agency (FEMA) from 1998 
to 2001. In the course of that strategic planning process, 
representatives from the design and construction industry determined 
and documented, as one of their major findings, that a technology 
transfer gap has emerged within NEHRP, and that it limits the 
adaptation of basic research knowledge into practice. To resolve this 
problem, industry participants recommended that NEHRP agencies develop 
a much-expanded, problem-focused knowledge development, synthesis and 
transfer program that will:

        1. Develop standards and guidelines that incorporate the best 
        knowledge available in a practical way.

        2. Facilitate the development of new mitigation technologies.

        3. Improve the productivity of the engineering and 
        construction industries.

    Included in this report are:

        <bullet> A definition of what needs to be done;

        <bullet> Background information on the impetus for The Missing 
        Piece: Improving Seismic Design and Construction Practices 
        program, on how technology transfer works, and a history of the 
        decline in engineering and construction productivity in the 
        United States; and

        <bullet> The Missing Piece program plan.

    The Missing Piece: Improving Seismic Design and Construction 
Practices program emphasizes two subject areas, with a total of five 
Program Elements proposed:

<bullet> Systematic support of the seismic code development process.

        Program Element 1 LProvide technical support for the seismic 
        practice and code development process.

        Program Element 2 LDevelop the technical basis for performance-
        based seismic engineering by supporting problem-focused, user-
        directed research and development.

<bullet> Improve seismic design and construction productivity.

        Program Element 3 LSupport the development of technical 
        resources (e.g., guidelines and manuals) to improve seismic 
        engineering practice.

        Program Element 4 LMake evaluated technology available to 
        practicing professionals in the design and construction 
        communities.

        Program Element 5 LDevelop tools to enhance the productivity, 
        economy and effectiveness of the earthquake resistant design 
        and construction process.

    The full body of the report (ATC 57) is provided in Appendix A. The 
goals and objectives set forth in program elements one through five 
captures the vision of NEHRP.

Specific responses to the questions contained in the invitation to 
testify at the hearing are provided as follows:

        <bullet> Discuss how research in structural engineering has 
        improved our ability to protect lives and property from 
        earthquake hazards? How has the focus of NEHRP structural 
        engineering research evolved since the inception of NEHRP?

    There have been great strides made in our ability to design and 
construct facilities that are earthquake resistant to earthquake ground 
motion. The developments over the last twenty-five years are 
remarkable, and can be traced to the NEHRP program. The advent of 
computer technology has greatly facilitated this advancement.
    Structural engineering research has evolved from dealing with 
assumed static linear behavior to realistically confronting the problem 
of non-linear time dependent behavior. This requires component testing 
that considers structural dynamics and the full range of large 
displacement behavior. Computers are critical but they will not 
eliminate the need for the physical testing of structural components. 
There is a notion of that computer models can replace the need for 
actual physical testing, but this is not true at this time. Physical 
testing is necessary for the calibration and development of new 
simulation models.
    The advent of the concept of performance-based design is a product 
of trying to develop standards for the seismic rehabilitation of 
existing buildings.

        <bullet> How would you prioritize limited federal funds among 
        specific NEHRP research and mitigation activities (earthquake 
        monitoring, hazard assessment, performance-based engineering, 
        lifeline reinforcement, seismic rehabilitation, code 
        development and adoption, education and outreach, post-
        earthquake response and investigation, etc.)?

    The fact that there is such a limited few dollars in the NEHRP 
budget its simply not justified from a basic economic point of view. 
The expenditure of previous funds has helped minimize the losses in the 
most recent domestic earthquakes. Every dollar spent on creating an 
earthquake resistant structure also creates a more blast resistant 
structure. Progressive collapse is minimized. If dollars are limited my 
opinion is that the following tasks in order of priority should be 
emphasized, but all of the programs should be kept active because they 
are important:

        1. Strong-motion networks in regions of highly probable strong 
        ground motion are essential to our progress. Free field data, 
        and data from instrumented buildings are absolutely necessary 
        for the advancement of our abilities to understand the behavior 
        of structures. Lack of this type of data, and the almost 
        negligible amount of funding to study such data as has been 
        recorded, is the major roadblock in advancing our understanding 
        of the physics of the earthquake problem. Significant 
        expenditures are required to install and maintain the networks, 
        and for providing a Major Contingency Fund for post-earthquake 
        detailed analysis of individual buildings. Also, complete 
        damage surveys in and around areas of intense ground shaking 
        are greatly needed. Only then will we be able to calibrate our 
        models of structural vulnerability. Current damage prediction 
        models are based on opinion, not statistically viable data. Our 
        understanding of soil/structure interaction is very primitive. 
        We need data from instrumented buildings to be able to predict 
        what the actual loading from earthquake ground motions will be. 
        We have crude models that are currently being used (see 
        Appendix B).

        2. Performance Based Engineering (PBE) is an all-encompassing 
        concept. To be able to implement the vision of mitigating the 
        effects of a major earthquake in this country, it will take a 
        major coordinated effort. PBE should be a structure upon which 
        all the various elements of the program are fit together to 
        achieve the goals and objectives of NEHRP. It must be funded.

        3. I personally believe that the most overlooked factor in 
        improving the overall performance of buildings is the lack of 
        qualified personnel at the local government level. In most 
        locations outside of California, there are few qualified 
        building officials to address the seismic plan checking issue. 
        In most jurisdictions, plan-checking fees are considered 
        general revenue, and are not utilized to insure compliance with 
        the building codes. Code development and adoption mean very 
        little if the codes are not enforced. It is a sensitive issue 
        for the Federal Government to deal with, but it is imperative 
        that this issue be addressed. Perhaps some sort of incentive 
        program can be devised.

        <bullet> What are the major impediments to improving the 
        overall seismic performance of buildings, both new and 
        existing? Is the pace and extensiveness of code development and 
        adoption improving? Is there anything the Federal Government 
        can do to facilitate increased adoption of seismic codes in 
        areas of high seismic risk? Is seismic rehabilitation an 
        economical use of earthquake mitigation funds?

    The major impediment to improving the performance of buildings lies 
in the lack of code enforcement at the local level. This was stated 
previously. The other major impediment is the lack of financial 
incentive to create a seismically resistant structure. Developers 
expect to sell a new building prior to the next earthquake, and the 
existing stock of vulnerable buildings cost considerably more to 
improve than what it takes to correctly build a new building.
    The pace and format of code development has improved. FEMA has 
greatly influenced positive major changes in this area. The pace is 
adequate, but funding for code development and maintenance is critical. 
The process is just too demanding to be effectively done by volunteer 
efforts.
    Seismic rehabilitation is very effective in certain situations. 
There are certain situations where the consequence of failure is 
unacceptable. Generally, it can be cost effective if accomplished 
within a window of opportunity that is provided as part of a remodel 
program that deals with an updating of architectural finishes. Federal 
funds might be used to provide incentives, but they cannot possibly 
fund the total cost of improving privately owned buildings.

        <bullet> What factors have limited the success of NEHRP, and 
        what policy changes would you recommend to remove these 
        limitations? How can the NEHRP participating agencies improve 
        planning, coordination, and general administration of NEHRP to 
        better meet the vision for the program set forth by Congress?

    The most obvious factor that has limited the success of NEHRP has 
been insufficient funding. There is a huge amount of beneficial 
research that could be accomplished over time if a continuous flow of 
sufficient funds were made available. These research projects exist 
across the range of NEHRP activities.
    The most difficult task for the NEHRP program officers is setting 
the program priorities when there are limited funds available for 
competing worthy program elements. Since the direct losses from a major 
earthquake in an urban environment can in the tens of billions of 
dollars, it seems that we are being foolish in not realizing the 
overall benefit of a better-funded program. The United States has never 
experienced the impacts of what will occur if a ``real big one'' does 
strike a major urban center. It seems that the element of decision-
making that is missing has to do with the economic realities of such an 
event. I have come to believe that major loss of life is not the 
defining issue. I believe that the economic consequences of a major 
earthquake, and their effects on the surviving population should drive 
NEHRP and be the defining parameters in setting priorities. Unless 
there is a significant increase in funding, it will not be possible to 
create a program that can meet the objectives associated with the 
vision set forth by Congress.
    There is a need to empower a central authority to coordinate the 
activities of the various agencies that expend NEHRP funds. All 
agencies are producing valuable contributions, but an effective program 
requires an oversight authority to integrate the various activities. 
This authority should be charged with achieving the goals and 
objectives set forth by Congress. There should be established a review 
mechanism, drawing on experts with leadership and technical experience, 
to assist in identifying and prioritizing program initiatives.

Closing

    It is my view that the USGS, NIST, NSF, and FEMA all have strong 
roles to play in achieving the NEHRP objectives, but there needs to be 
a strong central coordinating authority to manage the program. Each 
agency cannot operate independently. Performance-based engineering 
should be the structure upon which the various elements of the program 
are fit together to achieve the goals and objectives of NEHRP. The 
NEHRP program is critical to our nations future. It has been under-
funded and needs to be renewed. The Nation's economic health may depend 
upon the successes of this program. Every structural advancement made 
in this program will be applicable to other hazards, be they manmade or 
otherwise.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Biography for Lawrence D. Reaveley

Chair and Professor, University of Utah, Department of Civil and 
        Environmental Engineering, 122 Sough Central Campus Drive, 
        Suite 104, Salt Lake City, Utah 84112-0561; Telephone: (801) 
        581-6931; Fax: (801) 585-5477; E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f082959186959c9589b0939986999cde85849198de959485">[email&#160;protected]</a>

Education

Ph.D. Civil Engineering, University of New Mexico, 1971

M.S. Civil Engineering, University of Utah, 1964

B.S. Civil Engineering, University of Utah, 1963

Academic Experience

January 1993-present--Professor and Chair, Department of Civil & 
        Environmental Engineering, University of Utah, Salt Lake City, 
        Utah.
1975-1993--Adjunct Professor (various rank and intervals), Department 
        of Civil & Environmental Engineering, University of Utah, Salt 
        Lake City, Utah.
1970-1972--Visiting Assistant Professor, Department of Civil & 
        Environmental Engineering, University of Utah, Salt Lake City, 
        Utah.

Professional Experience

1974-January 1993--Vice President, Reaveley Engineering, Inc., Salt 
        Lake City, Utah.
1971-1973--Chief Engineer and Manager, Construction Division, Davidson 
        Lumber Sales, Salt Lake City, Utah.
1967-1970--Research Assistant, University of New Mexico, Eric C. Wang 
        Civil Engineering Research Facility, Albuquerque, New Mexico.
1964-1967--Structural Design Engineer, J.F. Patrick Structural 
        Consulting Engineers, Salt Lake City, Utah.
1963-1964--Materials Engineer, Utah Department of Transportation
1959-1962--Intern, Precast/materials Division, Utah Sand & Gravel 
        (Monroe)

Professional Registration

Registered Professional Engineer, New Mexico.

Professional Affiliations

American Concrete Institute

American Society of Civil Engineers

American Society of Engineering Education

Chi Epsilon Civil Engineering Honor Society

Earthquake Engineering Research Institute

Structural Engineers Association of Utah

Patents

Patent Application ``T-Structure Externally Reinforced with composite 
        Materials'' (Inventors: Chris Pantelides and Lawrence Reaveley) 
        U-2434. Docket No. 11240, USSN: 859, 935. May 1998.
Composite Connections for Precast Walls, Patent U-2434. Pending, 1999.

Funded Research (Co-P.I., unless otherwise noted)

``FRP Composite Confined Rectangular Columns,'' Federal Highway 
        Administration/Utah Department of Transportation. Amount 
        $161,924. Sept. 2002-Dec. 2004.
``Long-term Structural Monitoring of Post-tensioned Spliced Girders and 
        Deck Joints,'' Federal Highway Administration/Utah Department 
        of Transportation. Amount $194,5000. Mar. 2001-Jun. 2004.
``Fatigue Tests of Cracked and Repaired Aluminum Connections of 
        Overhead Sign Structures,'' New York State Department of 
        Transportation and Utah Department of Transportation. Amount 
        $70,572. Dec. 2001-Dec. 2003.
``Long-term Durability of Carbon CFRP Composites Applied to R/C 
        Concrete Bridges,'' National Science Foundation Contract CMS 
        0099792. Amount $211,787. Sept. 2001-Aug. 2003.
``Long-term Durability of Carbon FRP Composites Applied to R/C Concrete 
        Bridges,'' Federal Highway Administration/Utah Department of 
        Transportation. Amount $173,000. Mar. 2001-Jun. 2004.
``Long-term Structural Monitoring of Prestressed Girders on New I-15 
        Concrete Bridges,'' Utah Department of Transportation. Amount 
        $60,161. Jun. 1999-Dec. 2000.
``Cyclic Pushover Research Study on South Temple Structure,'' Federal 
        Highway Administration/Utah Department of Transportation. 
        Amount $270,031. May 1999-Jun. 2003.
``Strengthening of R/C Beam-to-column connections with carbon fiber 
        composites,'' Pacific Earthquake Engineering Research Center. 
        Arnount $38,000. Apr. 1999-Dec. 2000.
``Center of Excellence: Center for Composites in Construction,'' State 
        of Utah Department of Economic and Community Development. 
        Amount $90,000. Jul. 1998-Jun. 1999.
``Modeling of Reinforced Concrete Joints with Carbon Fiber 
        Composites,'' Idaho National Engineering and Environmental 
        Laboratory. Amount $130,028. Feb. 1998-Sep. 1998.
``Structural and Geotechnical Testing of the South Temple I-15 Overpass 
        Bridge,'' Utah Department of Transportation. Amount $64,314. 
        Feb. 1998-Dec. 2000.
``Structural and Geotechnical Testing of the South Temple 1-15 Overpass 
        Bridge,'' Federal Highway Administration. Amount $187,253. Feb. 
        1998-Dec. 2000.
P.I. ``Bridge Deck Slab Study,'' Utah Department of Transportation. 
        Amount $42,000. July 1998-July 1999.
Dr. Lawrence Reaveley, Dr. William Van Moorhem, Dr. Rand Decker, 
        Principle Investigators. ``Open Burn/Open Detonation Risk 
        Assessment Ground Motion and Related Effects.'' Tooele Army 
        Depot. Amount $50,000. Dec. 1996.
P.I. ``Bridge Deck Reinforcement.'' SIKA Corporation. Amount $5,000. 
        June 1998-June 1999.
``Structural Testing on I-15 South Temple Bridge,'' Federal Highway 
        Administration/Utah Department of Transportation. Amount 
        $245,000. June 1999-Dec. 2000.
``Modeling of Reinforced Concrete Joints with Carbon Fiber 
        Composites,'' Idaho National Engineering and Environmental 
        Laboratory. Amount $117,000. Oct. 1998-Sep. 1999.
``Strengthening of R/C Beam-to-column connections with carbon fiber 
        composites,'' Pacific Earthquake Engineering Research Center. 
        Amount $35,000. Apr. 1998-Dec. 1999.
``Center of Excellence: Center for Composites in Construction,'' State 
        of Utah Department of Economic and Community Development. 
        Amount $90,000. Jul. 1998-June. 1999.
``Modeling of Reinforced Concrete Joints with Carbon Fiber 
        Composites,'' Idaho National Engineering and Environmental 
        Laboratory. Amount $130,028. Feb. 1998-Sep. 1998.
``Structural and Geotechnical Testing of the South Temple I-15 Overpass 
        Bridge,'' Utah Department of Transportation. Amount $32,600. 
        Feb. 1998-Jul. 1999.
``Structural and Geotechnical Testing of the South Temple I-15 Overpass 
        Bridge,'' Federal Highway Administration. Amount $66,400. Feb. 
        1998-Jul. 1999.
``Strengthening of Bridge Joints using Carbon Fiber Composites,'' 
        National Science Foundation. REU Supplement. Amount $10,000. 
        Sep. 1997-Aug. 1999.
``Strengthening of Bridge Joints using Carbon Fiber Composites,'' 
        National Science Foundation. Amount $132,648. Sep. 1997-Aug. 
        1999.
``Strengthening of Bridge Joints using Carbon Fiber Composites,'' 
        University of Utah Matching. Amount $24,000. Sep. 1997-Aug. 
        1999.
``Testing of Precast Concrete Connections for Seismic Regions using 
        Carbon Fiber Composites,'' XXsys Technologies. Amount $142,875. 
        Mar. 1997-Jun. 1999.
``Full-scale Testing of Bridge of Interstate I-15,'' Utah Department of 
        Transportation. Amount $10,000. Jun. 20, 1996-Jun. 31, 1997.
``Repair/Retrofit of Bridge using Fiber Composites,'' Utah Department 
        of Transportation. Amount $32,000. Sep. 30, 1995-Jun. 30, 1997.

Published Articles, Books, or Manuals

Gergely, J. and Pantelides, C.P. ``Design of CFRP composite for seismic 
        retrofit of R/C bridge,'' J. of Bridge Engineering, ASCE, Under 
        Review, Aug. 1999.
Hofheins, C.L., Reaveley, L.D., Pantelides, C.P., and Volnyy, V.A. 
        ``Behavior of welded plate connectors for precast wall 
        panels,'' ACI Structural J., Under Review, Jul. 1999.
Ganzcrli, S., rantelides, C.P., and Reaveley, L.D., ``Performance-based 
        design using structural optimization.'' Earthquake Engineering 
        Structural Dynamics, Under Review, July 1999.
Volnyy, V.A., Pantelides, C.P., Gergely, J., Hofheins, C.L., and 
        Reaveley, L.D. ``Carbon fiber composite connections for precast 
        wall panels,'' ACI Structural J., Under Review, Jul, 1999.
Gergely, I., Pantelides, C.P., and Reaveley, L.D. ``Shear strengthening 
        of R/C T-joints using CFRP composites,'' J. Composites for 
        Construction, ASCE, 3(4), Nov. (1999).
Pantelides, C.P., Gergely, I., Reaveley, L.D., and Volnyy, V.A. 
        ``Retrofit of R/C Bridge Pier with CFRP Advance Composites,'' 
        J. Struct. Eng., ASCE, 125(10), Paper Ref. No. ST18969, Oct. 
        (1999).
Gergely, I., Pantelides, C.P., Nuismer, R.J., and Reaveley, L.D. 
        ``Bridge Pier Retrofit Using Fiber-Reinforced Plastic 
        Composites,'' J. Composites for Construction, ASCE, 2(4), 165-
        174, (1998).
Co-Project Director and Co-Team Leader, concrete. ``Development of 
        Guidelines for the Seismic Strengthening of Existing 
        Buildings.'' ATC 33 FEMA 273, in Balloting.
Co-Project Director, and Co-Team Leader for reinforced concrete 
        structures. 1998, ``Guidelines for the Seismic Rehabilitation 
        of Building Structures.'' ATC 33/FEMA 273.
Lead guideline writer, post-earthquake inspection and evaluation 
        volume. ``Sac Joint Venture Program to Reduce Earthquake 
        Hazards in Steel Moment Frame Structures, Phase 2.'' 2000 (in 
        progress)
Original author, ``Seismic Rehabilitation of Single Family Dwellings--A 
        Handbook.'' Based on original document prepared for the 
        Comprehensive Emergency Management Agency, State of Utah. ATC-
        39. 1999.
Miller, J. and Reaveley L. ``Hotel Utah Remodel and Seismic Upgrade,'' 
        Seismic Rehabilitation of Concrete Structures, edited by 
        Gajanan Sabnis, Avanti Shroff, and Lawrence F. Kahn. ACI 1996.
Mills, L., Reaveley, L. ``Similitude Studies in the Dynamic Response of 
        Reinforced Concrete Beams,'' Vol. lI, Technical Note DE-TN-72-
        015, New Mexico, July, 1972.
Reaveley, L., Mills, L. ``Similitude Studies in the Dynamic Response of 
        Reinforced Concrete Beams,'' Vol. I, CERF, January, 1972.
Taylor, Porush, Tillman, Reaveley, and Blackham. ``Seismic Code 
        Decisions Under Risk,'' NSF Grant No. BCS-8820148.
Dr. Phillip C. Emmi, Principal Investigator, USGS Funding Agency; L.D. 
        Reaveley, Project Consultant. ``A Demonstration Project with 
        Salt Lake City and Salt Lake County on Seismic Risk Assessment 
        and Hazard Mitigation through Land Use Planning: Part Two,'' 
        1989.

Applied Technology Council Projects

ATC-21, ``Rapid Visual Screening of Buildings for Potential Seismic 
        Hazards: A Handbook,'' funded by the Federal Emergency 
        Management Agency, 1989. Project Engineering Panel Member.
ATC-22, ``A Handbook for Seismic Evaluation of Existing Buildings,'' 
        funded by Federal Emergency Management Agency, 1989. Project 
        Engineering Panel Member.
ATC-26, ``U.S. Postal Service Manual for seismic Evaluation of Existing 
        Buildings,'' funded by the United States Postal Service. Member 
        Project Engineering Panel.
ATC-28, ``Development of Recommended Guidelines for Seismic 
        Strengthening of Existing Buildings, Phase I: Issues 
        Identification and Resolution,'' funded by FEMA, 1990. Member 
        Project Engineering Panel and ATC Board Contact.
ATC-36, Earthquake Loss Estimation Methodologies and Data Base, for 
        Utah.'' Consultant.
ATC-39, Seismic Rehabilitation of Single Family Masonry Dwellings--A 
        Handbook. Original Author.
ATC-41, SAC Joint Venture, Program to Reduce Earthquake Hazards in 
        Steel Moment Frame Structures, Phase 2. Lead Guideline Writer, 
        Post-Earthquake Inspection and Evaluation.

Professional Service Activities

Jan. 2000-Apr. 2003--Member, Board of Directors. Applied Technology 
        Council.
Jul. 1998-Jul. 2000--Utah State Capitol Preservation Board. Board 
        member appointment form.
1996-1999--Member, Executive Committee, Technical Activities Division, 
        Structural Engineering Institute, The American Society of Civil 
        Engineers.
1996-1998--Member, Code Resources Development Committee (BSSC). For the 
        Building Code (2000).
1996-1998--Member, Steering Committee, Incentives Impediments to 
        Mitigation Project, EERI.
1996--Chair, Nominating Committee, EERI 1997.
1994-1997--Member, Special Design Values Panel. Building Seismic Safety 
        Council (BSSC). Procedures for design based on new generation 
        seismic maps.
1994-present--Member, Partners in Education Committee, American 
        Institute Steel Construction. Chair 1999.
1992-present--Member, ACI Committee #369 Seismic Rehabilitation and 
        Repair.
1993-1995--Member Codes and Standards Committee, American Concrete 
        Institute (ACI 318-95).
1991-1997--Member, Provisions Update Committee (seismic BSSC), NEHRP 
        1994 and 1997 Editions.
1991-present--Member TS12 Isolation and Energy Dissipation Subcommittee 
        (BSSC), NEHRP, Chair 1994 cycle.
1970-present--Member, ASCE 7, Loads Standard, Seismic Loads 
        Subcommittee, Chair 1998.
1984-1991--Member, Advisory Board of Utah Geological Survey, Chairman, 
        1989-91.
1980-present--Founding member, Structural Engineers Association of 
        Utah.
1985-1991--Member, Board of Directors of the Applied Technology 
        Council.
2000-2003--ASCE Representative to the Board of the Applied Technology 
        Council.

Honors and Awards

1997--Engineering Educator of the Year, Utah Engineers Council.
1996--Governor's Medal for Science and Technology.
1989 Engineer of the Year, Utah Engineers Council.
1988--Special Award for Implementation Action, National Earthquake 
        Hazards Reduction Program. USGS & FEMA.
American Concrete Institute's National Structural Engineering Award for 
        1998. ``Historic Hotel Utah Remodel and Seismic Upgrade,'' 
        Special Publication 1610, Seismic Rehabilitation of Concrete 
        Structures, 1996. This award recognizes advanced concepts and 
        techniques related to structural engineering. Awards are made 
        to the author or co-authors of a peer-reviewed paper published 
        by the Institute.
Applied Technology Council's Premier Award--the ATC Award for 
        Excellence for extraordinary achievements in seismic 
        rehabilitation of buildings.
College of Engineering, Outstanding Service Award, ``In recognition of 
        your leadership efforts and commitment to enhancing the 
        educational experience of our students during conversion to 
        semesters.''
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                               Discussion

    Chairman Smith. Are you suggesting, Mr. Reaveley, that 
there wasn't collusion in----
    Dr. Reaveley. I am suggesting----
    Chairman Smith [continuing]. Your more resolved clause of 
all of the witnesses?
    Dr. Reaveley. I am suggesting that I never saw their 
testimony when I wrote this. I have seen it since, and I am 
amazed at some of the common experiences we have come to and 
recommendations.
    Chairman Smith. Each panelist will have five minutes, and I 
will begin with the question that I suggested earlier and that 
is, just very briefly, the relationship between what government 
effort should be in additional research to develop new and 
better technology and the efforts in implementing what we 
already have. And start with you, Mr. Olson.
    Mr. Olson. Thank you very much. I have a perspective on 
this that is a governmental perspective. Research is terribly 
important. The Federal Government is excellent at supporting 
research. When you move out of the research, and I am working 
on some projects like this right now, you move into whole 
different spheres. And for example, we would like to see more 
done by local governments. It is the distribution of power in 
the United States. It is the federal system that we have to 
work through to make things happen in the public sphere, and so 
the Federal Government can do a number of things, including 
regulate things like nuclear power plant safety.
    In other cases, the initiative and responsibility really 
belongs to the state. And so you have to find ways to encourage 
states to take action in areas they are responsible for. And as 
Dr. Reaveley mentioned, at the local level, and then you have 
to depend on local developments to understand the risk and to 
take actions that they are responsible for.
    Chairman Smith. Okay. But again, the balance--how much--if 
you were going to come up with a percentage, how much of our 
effort should go into implementing what we already have versus 
additional research, whether it is federal, state, or local.
    Mr. Olson. I guess I can make some enemies here, what the 
heck. I would say we need 40 percent addressed to 
implementation and the complexities associated with it.
    Chairman Smith. And well, let us just go down the line, Mr. 
Cluff, and then we will end up with you, Mr. Lowe.
    Dr. Cluff. Yes. Thank you. I come--the perspective of using 
NEHRP products within a large operating utility and working 
with a lot of other utilities and transportation providers. I 
would like to enhance the comments I made on the public/private 
partnership where you can leverage the funds. Get the NEHRP 
groups. We have NEHRP funding from NSF, from USGS, and the 
universities that work with the users, and you allow the users 
to drive the agenda. That has been the missing problem. On the 
model we set in the San Francisco Bay Area to allow the users 
to drive the agenda and then the researchers willing to produce 
the products that we can immediately implement. The problem has 
been that it takes 15 to 20 years for a research result to get 
into effective implementation. With the projects that we have 
in the pier center, we are able to implement within a few days 
after we get a research result, because we have structured how 
the research is done to get a result we can use.
    Chairman Smith. Now this is in private sector----
    Dr. Cluff. Yes.
    Chairman Smith [continuing]. You are talking about mostly?
    Dr. Cluff. Yes.
    Chairman Smith. So when it comes out of their own 
pocketbook and somebody proves to them that they can add to the 
assurance that their structure isn't going to be damaged, it is 
relatively short time for implementation.
    Dr. Cluff. That is right. But it is--but it--we need to 
provide that model so that more users will get involved to take 
advantage of this and put money where their mouths are.
    Chairman Smith. And so somehow part of the question is 
should we be looking at some ways to better encourage the 
private sector to implement this? I mean, whether it is a 
homeowner that is going to build a house that is more 
structurally sound for tornadoes or hurricanes or earthquakes, 
it seems like the insurance company would say, ``Look, we are 
going to really cut your rates,'' but that hasn't happened, to 
my knowledge.
    Dr. Cluff. We really need a mechanism, as Dr. Reaveley 
mentioned, to motivate those people who have control over 
building practice and so forth to do it right.
    Chairman Smith. And Dr. O'Rourke, your comment and then Dr. 
Reaveley.
    Dr. O'Rourke. Excuse me. I would like to make a distinction 
between implementation of research and research which is 
implementable. I think when you do research that you want to 
find come into practice, you have to be thinking about the 
implementation when you design the research program. And there 
are some very good models out there. Dr. Cluff referred to one 
with respect to the Bay Area. The other earthquake engineering 
research centers also are working with what we call test beds. 
For example, the Multidisciplinary Center for Earthquake 
Engineering Research works in--with the Los Angeles Department 
of Water and Power to look at water supply and electrical 
systems. This is very important, because what it does is it 
enjoins the researchers with an actual system, gets them 
talking to the engineering personnel and the management 
personnel, and also gets them to learn that the technical 
problems aren't always the only problem that one has to face.
    There are important economic repercussions from earthquake 
damage. There are important community issues at hand. And when 
we look at the research being implementable in an integrated 
way, which not only involves geoscientists and earthquake 
engineering, but also social scientists, economists and people 
that understand the community, then we are able to walk across 
these divides and put together a program that not only 
addresses the industry issues, but addresses some of the 
knottier, more difficult community implementation issues----
    Chairman Smith. My time has expired, Dr. O'Rourke----
    Dr. O'Rourke. Sure.
    Chairman Smith [continuing]. But I am going to ask you and 
Dr. Reaveley to briefly comment, and then we will pass it on 
to----
    Dr. Reaveley. I think one thought that has been introduced 
is the difference between applied research and basic research. 
This earthquake program needs an awful lot of applied research. 
Relative to the appropriation of money to the local and private 
sector, we should try to build some incentives to bring on 
people in a patterning way. And then I don't know how you ever 
reach down to the building official department level, but they 
need help and badly, because if in the private sector, outside 
of institutions, if it is never--if the plans aren't done right 
and not checked, and then if they are not checked in the field, 
we will never get earthquake or any high load-resistant 
structure actually completed.
    Chairman Smith. Congresswoman Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. This has been, I 
think, a very helpful hearing and one that I am very interested 
in. As you know, I represent San Jose, California. And anybody 
who went through Loma Prieta, as I did, remembers it well. And 
actually San Jose fared fairly well, largely because of we had 
some good luck, but we also had good engineering. And that just 
proves that we--you know, you can make people and communities 
safer if you work at it. And so I think it is enormously 
important that this be reauthorized.
    But I am also concerned about funding levels. And as a 
matter of fact, Mr. Chairman, I think--I am going to be 
circulating a letter to the appropriators about funding for 
this earthquake effort, and I am hopeful that maybe we could 
make that a bipartisan effort, because we can authorize away, 
but if we don't put the resources in, we are going to pay a 
terrible price. I mean, it is only a matter of time. It is not 
an if, it is a when issue. And I do know that the work that we 
did, for example, in San Jose, saved us hundreds of thousands, 
millions of dollars. So I am hopeful that we might be able to 
work together on that.
    Chairman Smith. And if the gentlelady would yield, that was 
one of my questions also is why wasn't ANSS even in the budget.
    Ms. Lofgren. Right.
    Chairman Smith. And so is it left to Congress to do things 
that apparently our experts are suggesting should be done? 
Thank you.
    Ms. Lofgren. I would very much--obviously, we need to pay 
some attention to ANSS, and I think we should fund it more 
aggressively so we can get it done. And I guess the question 
for Mr. Lowe is what efforts have been made to get an adequate 
budget request for ANSS in the President's budget? Did you all 
ask and get turned down or----
    Mr. Lowe. Well, I am--of course, I am not from USGS, so it 
is a little difficult to----
    Ms. Lofgren. Right.
    Mr. Lowe [continuing]. Do that. I do think, quite frankly, 
the way that Section 206 has been constructed, yes, we would 
be--FEMA would, in fact, as the lead agency, be the ones to 
move that forward. Heretofore, I am not aware of that occurring 
in that fashion. I do know that there was consultation, you 
know, with the Committee and so on and so forth to be able to 
do what has been done. But that is exactly why I am calling for 
a management plan so we can carry out the spirit of Section 
206. When the PCC, the principals of the other NEHRP agencies 
and we sat down and decided upon a management plan, 
specifically as a basis was Section 206, so that we all could, 
in fact, coordinate our budgets and move forward and go to OMB 
and ask for what Congress told us to do, either request or the 
recommendation anyway. So----
    Ms. Lofgren. So if I could, the----
    Mr. Lowe. Each agency, up to this point, has been left----
    Ms. Lofgren. Right.
    Mr. Lowe [continuing]. In essence----
    Ms. Lofgren. Right.
    Mr. Lowe [continuing]. Up to their own processes to make 
requests for their initiatives.
    Ms. Lofgren. And I understand. I mean, with the new 
Homeland Security Department, and I also sit on the Homeland 
Security Committee here, there is so much to do in terms of 
reorganization and the like. It--I just think that to wait 
while that reorganization goes forward, as, indeed, it must, 
and not to address the funding issue in this funding cycle 
would be a mistake. And I think, hopefully, we can remedy that.
    Mr. Lowe. We are prepared to move forward with our 
management plan working with PCC and, of course, the ICC, which 
is the program level, to leverage that. Obviously in the 
Department of Homeland Security, we have also dispatched one of 
our NEHRP staff over to science and technology, who will begin 
to try to leverage some of the resources there to help us 
achieve the NEHRP vision as well as to put together a fairly 
strong----
    Chairman Smith. If the gentlelady would yield again----
    Ms. Lofgren. Yes, certainly.
    Chairman Smith [continuing]. I would be more than generous 
on the five minutes. But still, in our NEHRP authorization bill 
three years ago, a little over three years ago, we specifically 
said that FEMA would guide the budget, a coordinated budget 
process for NEHRP. And I guess I hear you say that the 
individual agencies have sort of been on their own, but it 
seems to me that if the law says FEMA would coordinate and 
guide that budget process to have a coordinated budget, that 
should happen.
    Mr. Lowe. I agree with you. And again, that is exactly why 
we called for the first meeting of the PCC to re-establish what 
we needed to do specifically, not just the letter but the 
spirit of what Section 206 offered. And so I appreciated 
Section 206 as a call to, in fact, direct the principals to 
manage--if you will, lead this--the NEHRP.
    Chairman Smith. I mean, the law said you had to do it.
    Mr. Lowe. That is right.
    Chairman Smith. What more do we need to make sure it is 
done? We ask for reports, but the reports were not timely, and 
it has been only recently we have received those reports. So 
maybe somehow more----
    Ms. Lofgren. Well, if I could, too, it--the report itself, 
which we just received, doesn't really have any numbers in it. 
And I am just sort of wondering how we could end up with a five 
percent reduction in the earthquake program in the proposed 
budget consistent with the strategies that are outlined in the 
plan without budgetary numbers.
    Mr. Lowe. Again, what you have there doesn't really 
represent what I am talking about.
    Ms. Lofgren. I see.
    Mr. Lowe. I think we can do more, and I think we can do it, 
certainly, in the '04 budget cycle. And frankly, I think it was 
quite clear when we had our PCC with the principals that we 
were all committed to doing that. Because the strategic plan is 
passed, we all know where we are going. That is a consensus 
document. We all agreed. We all agreed that it is important to 
do that. We also--part of the management plan was to pick out 
exactly what is the staffing expertise we need from all of the 
agencies who participate in this process. So I am, frankly, 
fairly confident that the agencies are going to work 
collectively as a coordinated body to fulfill fully Section 
206.
    Ms. Lofgren. How much money do we need, do you think? Have 
you reached that conclusion?
    Mr. Lowe. No, I can't say we have. What I would like to be 
able to do is in our annual performance plan be able to chart 
out where we are with what we have now----
    Ms. Lofgren. Um-hum.
    Mr. Lowe [continuing]. And then be able to come back and 
tell you, okay, our performance metrics will show here is where 
we are, provide it X amount investment more, this is where we 
are. So you can see what we can achieve given whatever 
resources that we have.
    Ms. Lofgren. Just a final, maybe, question or observation, 
and I don't want this to be taken as an offensive comment, 
because it is not meant in that way. I am--I wonder whether, 
especially now that FEMA has been assigned to the Homeland 
Security Department, whether FEMA is the best home for this 
activity. And I say that not to be critical of FEMA, but I--to 
the extent that FEMA has--is diverted to other activities, that 
is going to be enhanced, I think, now because of the new 
Homeland Security responsibilities. And I am not--I don't have 
a vision for another home for this activity, but I am wondering 
if--you don't even have to answer now, but if people have 
thoughts about what might work better than FEMA, especially now 
that you are Homeland. And we are going to keep you very busy 
at--in the Homeland Security Department.
    Mr. Lowe. Well, I don't--frankly, I think that FEMA is a 
good home for it now more than even--ever before, because DHS, 
Department of Homeland Security, is an all-hazard agency. But 
the all-hazard paradigm is a natural hazard paradigm. An 
earthquake, just as we saw in New York, is vitally important. 
When we began to do mitigation work in New York, where did we 
go? We came to FEMA. Where did we go in FEMA? We came to the 
NEHRP partners. We did the--had the retrofit designs for the 
bridges, for the tunnels, for the harboring that is occurring, 
$417 million worth, and other work.
    Ms. Lofgren. Oh, and by the way, I mean, your agency did a 
spectacular job in that activity. I mean----
    Mr. Lowe. But these are NEHRP earthquake----
    Ms. Lofgren. Right.
    Mr. Lowe [continuing]. Is what I am saying. These are 
earthquake designs to harden for manmade intrusions. Very 
significant. One of the things that we talked about among our 
NEHRP agencies, even about this testimony today, is how 
everybody felt, if you will, about, really, bringing forward 
the possibilities that are created for moving the earthquake 
agenda down the road with our ability to use our lessons 
learned in a manmade environment. And everybody is very 
positive about that, and so I think that is what you see in the 
testimony. The ability that we have now working with S&T and 
all of our NEHRP partners is probably greater than it has been 
before, because it is all hazard. When we start talking about 
earthquake, we are talking about an all-hazard design for----
    Ms. Lofgren. I am still--I certainly appreciate that 
comment, and I think it something that we may want to even 
think about further as we go forward, because clearly FEMA has 
many strengths as an agency, but the fact that it took so long 
to get answers, and we really don't have the answers now, may 
indicate that there is--the focus isn't quite on the science 
that we want. And maybe there is a better home.
    Chairman Smith. Well, it has been--in fact, one of our 
Members of the Science Committee suggested that the lead agency 
be USGS. And also, there was a suggestion that we have sort of 
a rotating directorate that would rotate every 18 months or two 
years that could temporarily be assigned within FEMA or within 
another agency. But I mean, you have to----
    Mr. Lowe. I would like to comment on that.
    Chairman Smith [continuing]. Understand that that is a 
concern.
    Mr. Lowe. Yeah, I have--we have thought about it on a 
couple of different fronts. First, in terms of the research 
agenda, yes, we are not a research agency. We use that. We 
apply that in a real-life situation, so we are interested in 
research practice. And that is the way--that is a bias that we 
are going to have, because it needs to be real for FEMA to be 
able to use to save lives and property. Very true. My thought, 
which I--is outlined in the testimony, is to create a research 
subcommittee, which we have done, under ICC with a moving chair 
to talk about what that research agenda ought to be and then to 
be able to float that upwards so we can establish priorities, 
whether it is increasing knowledge or research or practice, 
opportunities and, again, float that up.
    But the next piece, really, that has always been planned 
and is in the strategic plan that we have never operationalized 
during the life, as I understand it, of the NEHRP program is 
that PCC structure. You have got a lot of folks when you look. 
And I won't go back into my slides, but when you look at all of 
the advisory groups, we have a lot of advisory groups. But what 
has got the strategic plan into your hands was a drive--if you 
will, some really strong driving motion at the highest levels 
to make it happen, because we have got folks who are technical, 
who are very committed, who can do a lot, and who have done a 
lot. But right now, we need some commitment at the highest 
policy levels of all of these agencies at this point.
    And I think that is where you are going to see, frankly, 
the movement. It doesn't--and it really--and with that model, 
it really doesn't matter where your head is, because the 
management plan is we are a leadership of equals. The 
management plan is going to be the product of all of the NEHRP 
partners. It is not going to be just a FEMA show at all. And so 
I welcome your comments. I welcome what you see fit to do, 
however.
    Chairman Smith. We will start a second round. I don't know 
what your schedule is, and I know and apologize for the length 
of time that we have held you here. I need some help 
understanding a little better our seismic technology and what 
the potential might be and is it worth pursuing if we can 
increase our lead time on warning by another eight or ten 
seconds? So in terms of the seismic technology that is there, 
is the United States the leading country? Is Japan the lead 
country? Who would be the lead country for the mechanics of 
early warning from our technology? You, Mr. Cluff.
    Dr. Cluff. Mr. Chairman, I would say that we are close to 
being the lead. We are working very closely with the Japanese. 
They are--they have a big program on earthquake prediction, but 
their experience shows that they really missed it with the Kobe 
earthquake. They were--focused all of their money and attention 
on the area around Tokyo. The people running that program were 
not paying attention to the Kobe area where we, working with 
them--I had been over there personally and worked on the active 
faults in the Osaka area, and we knew that fault that released 
the Kobe earthquake was an active fault. So they kind of have 
to redirect their activities. I think trying to short-term 
predict an earthquake is not socially responsible. I think the 
forecast that the USGS is doing, the shake--real-time shake 
maps and so forth is where the future is, and that technology 
needs a lot more funding to get it dispersed through ANSS 
throughout the country so we don't miss an opportunity. We have 
a big earthquake in the mid part of the continent where we 
don't have enough instruments right now. It will be another 
several hundred years if we miss recording that earthquake. We 
have got to get those in. Congress authorized a lot of money to 
do that. The appropriations are not there. And the budget at 
the USGS has been cut back. And they lack support from the 
Department of Interior. I serve on that advisory committee 
through the Department of Interior, and our committee is very 
distressed that the USGS does not have strong support from the 
Department of Interior for their budget on critical items.
    Chairman Smith. And I guess it makes me wonder about 
somehow doing a better job in communication. Apparently a 
tremendous lack of understanding about earthquakes, awareness 
of the technology that is available. I am not advocating, 
necessarily, more building codes, but certainly a--at least not 
an aggressive building code program in more high-risk areas. I 
mentioned insurance that seemed like would be--if you are going 
to build a building. So we have ended up without some of the 
understanding and initiative. And I would also suggest, 
respectfully to our appropriators, there is somewhat of a lack 
of appreciation and understanding on the part of our 
appropriators. So I think a letter would be very advisable.
    Mr. Lowe. I agree with those comments, if you were asking.
    Chairman Smith. And Mr. Reaveley, you had a comment.
    Dr. Reaveley. Just to the insurance issue. Heretofore, the 
insurance industry has been very slow at recognizing the 
difference between a bad structure and one that might have some 
resistance. I was in a meeting a week ago where it looks like 
they are going to start taking that into account in premiums. 
But if there could be some incentives somehow to get the 
insurance companies involved with recognizing the difference 
between buildings, then we would probably put some incentive 
back into the private sector to do a better job if they could 
get a break on insurance by doing it right.
    Chairman Smith. Is there enough damage from earthquakes or 
potential damage for privately owned homes and the information 
and technology of the potential building type structures that 
can----
    Dr. Reaveley. Yes.
    Chairman Smith [continuing]. Dramatically improve their 
resistance to earthquakes?
    Dr. Reaveley. Absolutely. There has just been a project 
finished in Los Angeles to improve that housing stock. It goes 
all the way from individual homes to the biggest buildings we 
have where if we merged at least the basic technologies to 
address seismically deficient buildings and how to improve 
them. We don't have all of the answers, and we need an awful 
lot more work on finding the best and economical ways to do 
that.
    Chairman Smith. If it is a home loan with HUD or VA or 
Agriculture, now we require, for example, that if it is an 
identified potential flood area, we require flood insurance. Do 
we do any of that with any of our federal loans for home 
ownership----
    Dr. Reaveley. Not that I know of.
    Chairman Smith [continuing]. To help encourage----
    Dr. Reaveley. And some agencies have stopped writing 
earthquake insurance in areas, because of the damage and the 
loss. It may be too big a hit for them to take. I know that 
Lloyds of London bailed out of the Salt Lake Area years ago 
when they looked at what it was really going to--what was 
really going to happen.
    Chairman Smith. How much increase in cost would it take for 
a private home versus a--I don't know how you categorize 
different sizes of buildings, if we are retrofitting versus 
what it takes in initial structure?
    Dr. Reaveley. Two to three percent in a brand new building, 
at the very maximum. One to two percent, maybe, on the new 
structure to go from a bad structure to a good structure of 
building cost. That is all we are talking about. Small, small 
amounts. When we try to deal with the existing structure to fix 
it, we are going in--then we run into historical things and 
that. We can run the cost up between 20 percent of the cost to 
renew the structure even to 100 percent in the rehab. And there 
is where the balance is how--to finding out what we can fix 
economically and that which you should walk away from.
    Chairman Smith. And what are you suggesting that we change 
it to--what would it be to include tornadoes?
    Dr. Reaveley. Multi-hazard is the term that I think FEMA 
would use.
    Mr. Lowe. Well, it has been, but you know what, I think we 
should be using the word ``all-hazard'', and the reason we 
should be using the world ``all-hazard'' is we are not dealing 
in silos of hazards any more. I think we are all saying that 
you know what, if you do certain things, it is going to protect 
you from a bunch of different hazards, natural, manmade, 
whatever. That is all-hazard, not multi-hazard.
    Chairman Smith. Yes.
    Mr. Lowe. So I would suggest----
    Chairman Smith. Representative Lofgren.
    Ms. Lofgren. Thank you. I think this is a very useful 
discussion. And it is, you know--comparing this discussion 
with, kind of, what is accepted in California is interesting 
and forcing me to kind of think through what happens if New 
Madrid lets loose. You know, we are not ready here in the East 
or Midwest. And in California, we are readier, although we are 
never fully prepared. I think that if we were to advocate, I 
guess this may not be in our Committee's jurisdiction, but loan 
sources along with the information packets. That would go a 
long way. I mean, I know, actually, in the San Francisco Bay 
Area everybody knows there is going to be more earthquakes. And 
if the faults let loose, you know what is going to fall down. 
And people go and repair buildings. I mean, the cities have 
gone on reinforced masonry projects. Individual homeowners are 
trying to, you know--the structural unsoundness of the 
California garage under the apartment. I mean, people are 
attending to that. And I think the people in the Midwest and 
East aren't familiar with it.
    And I think that there are certainly things that can be 
done that would save lives in addition to ANSS. I mean, you 
know, to have a little warning does matter. I mean, even a 
little short warning can mean the difference between whether 
you die or whether you don't die. And so that is important, but 
I think it is the ability actually to get this information, 
these maps and these sensors out across the country and maybe 
even especially not in California is essential because I--just 
think what the economic damage to this country would be if we 
had a large event again, and I think we will. The only question 
is when. So I don't know if you agree with that, Dr. Reaveley, 
but----
    Dr. Reaveley. Let me just say I agree totally with that, 
but don't think that what you felt in San Jose from Loma Prieta 
is a big earthquake. It is a moderate earthquake.
    Ms. Lofgren. It got my attention.
    Dr. Reaveley. It absolutely got your attention, but it is 
not what we are going to see.
    Ms. Lofgren. Right.
    Dr. Reaveley. And in modern time, we haven't had anything--
--
    Ms. Lofgren. Right.
    Dr. Reaveley [continuing]. That is going to challenge that 
built infrastructure the way the big one will.
    Ms. Lofgren. Right. I wonder, Dr. O'Rourke, you had 
commented on the priorities and what we needed to do. I had a 
question, really, about another agency that we haven't 
discussed at all and the role that they might play and that is 
NIST. I mean, we have talked about needing to get this 
information out into the public arena. NIST sets standards. 
Their budget has been devastated in the proposed budget. I 
don't--maybe--Dr. O'Rourke, maybe that is--you are not the 
right person to ask this, but----
    Dr. O'Rourke. Well, I think everybody at this table shares 
that perspective. And there are varying degrees of articulation 
that we could provide for it. But certainly at the EERI Board 
of Direction, this has been a concern. As you mentioned, NIST 
is the national standards developer for this country, and their 
allocation of resources from the National Earthquake Hazards 
Reduction Program has been very, very small, almost minuscule 
in the last several years. If they are to do the things that 
they are capable of to provide the kind of technical device--
advice and development that they are able to do, they need to 
have an enhanced budget. They need to have enhanced resources 
and to play a much more significant role through those 
resources in this program. So you are right, absolutely. And it 
is part of our common perspective, I am sure, that NIST needs 
to play a stronger role.
    Ms. Lofgren. Is there a role to play? I mean, building 
codes are a product of state and local and will remain so and 
should remain so. But California has dramatically upgraded its 
building code relative to seismic, and it has shown in terms of 
our losses. And my sense is that that has not actually happened 
in other parts of the country who are very much at risk and 
that there needs to be--I don't know that we need to mandate so 
much as there needs to be some information flow to the Midwest 
and to the East about the hazards and risks, because I don't 
know that the legislators and city council members are even 
aware of this.
    Dr. Reaveley. The code is out there, and it is a common 
code that we are all working to, essentially with variations. 
The difference between the good practice in California, and 
there is poor practice as well----
    Ms. Lofgren. Yes.
    Dr. Reaveley [continuing]. Is in the enforcement level. It 
is the will at the local level to do something about it. There 
are building officials who lose their jobs in other 
jurisdictions for enforcing what the codes would require. And 
that is what I am talking about some incentives at the local 
level to actually use the knowledge we have instead of building 
more bad buildings.
    Ms. Lofgren. Um-hum. Well, and I guess the insurance issue 
is--that comes into it. And certainly California has had to 
take over the insurance, because the loss estimates are so huge 
that the private market couldn't even cope with it. But I think 
if insurers took a look at the exposure in the Midwest, it is 
actually larger than what we have in California under----
    Chairman Smith. Would the gentlelady yield?
    Ms. Lofgren. Certainly.
    Chairman Smith. Do I understand you to say there is, in 
effect, a federal national building code that can be--that is 
in place that can be adopted locally by municipalities
    or----
    Dr. Reaveley. One of the panel referred to it this morning 
or this afternoon. The IBC 2000 is a--essentially a national 
code. And multiple states are adopting it, and it is based upon 
a very thorough overall look at the country's problem from the 
mapping program of the USGS. Now----
    Chairman Smith. I was thinking of a building code.
    Dr. Reaveley. It is a building code. The maps are built 
into the building code, and there is a document available and 
it is being adopted state by state, which is a uniform look at 
what is good practice. We have that document. It came, really, 
out of multiple agencies, but I would, I guess, really have to 
point to FEMA as the one that pushed, along with ASCE and the 
building officials. It is a joint effort to make this happen. 
It was something that we couldn't even think that might happen, 
but it had converged in this last--for the IBC 2000 from 
multiple scattered documents where we were conflicting 
requirements. We pretty well got rid of those.
    Chairman Smith. We have kept these folks for about----
    Ms. Lofgren. Yes.
    Chairman Smith.--41/2--let us see, 21/2 hours.
    Ms. Lofgren. Thank you very much, though. This has been 
very helpful.
    Chairman Smith. Do you want to ask----
    Ms. Lofgren. No, I think that, actually, this has been a 
very useful hearing, because it is really stimulated some ideas 
and issues that I wasn't thinking about when I walked in here, 
so----
    Chairman Smith. Well, I am not through yet. I have one more 
question for----
    Ms. Lofgren. Okay.
    Chairman Smith [continuing]. Mr. Lowe.
    Ms. Lofgren. Well, I will listen to your question and 
answer.
    Chairman Smith. And that is the--I was told last week that 
our Emergency Management Program Grants are being transferred--
the 4.4 million are being transferred to border security. Are 
you going to have any input how that is used? I mean, that is 
part of the NEHRP budget.
    Mr. Lowe. Well, as you know, that money was put into the 
EMPG grants before, and that is--and that whole fund is being 
transferred over to border security, so there is certainly 
NEHRP money, as you are referring to, as well as other 
resources that are being transferred over to border security. 
We certainly are going to try to make sure that that is done in 
an orderly way and a sufficient--but once they are transferred 
into the EMPG pot, it means that states have a flexibility to 
spend them as they choose, and so----
    Chairman smith. Well, so you are not going to work with ODP 
on the----
    Mr. Lowe. No, what I am trying to say is there is a certain 
amount of flexibility that already came from having the money 
in EMPG. Now with all of that now going over to ODP, that 
flexibility will remain. We absolutely are going to work with 
ODP to make sure it works and to try to make sure that we even 
can have a better job of making sure we know exactly how states 
are using the money, so----
    Chairman smith. I hope you were against that transfer, but 
other than that, give me the general rationale of why that 
decision was made.
    Mr. Lowe. Well, that is a first responder pot that is 
there. I think it was Secretary Ridge's belief that it--having, 
kind of, all grants administered and monitored in one place 
would be a much more efficient way of providing an all-hazard 
grant. And so that seems to--is the rationale for doing that, 
as I understand it.
    Chairman Smith. We are going to call this----
    Ms. Lofgren. Could I just do a----
    Chairman Smith. Certainly.
    Ms. Lofgren [continuing]. Quick follow-up on that, because 
I was actually not aware of that transfer? Will the grants that 
were--the money that was transferred, are they being treated in 
the same way using the same formula as the first responder? The 
reason why I ask is that California is currently receiving, I 
think it is $3.57 per capita under the First Responder Grants. 
Wyoming is getting $37 per capita. And----
    Chairman Smith. They live farther apart.
    Ms. Lofgren. Farther from the--and so there is some sense 
that this is not a good idea in California. And I would be very 
concerned if these--if this additional money now is morphed 
into this strange formula. Do you know the answer to that?
    Mr. Lowe. As I understand it, the first responder grants 
are really modeled after the Patriot Act. And so--which is--you 
know, there is a base level, and then there is some more. So it 
is a little different in terms of what you are talking about. 
There is no designation for earthquake funds now or----
    Ms. Lofgren. Okay.
    Mr. Lowe [continuing]. Would they be in the future. So I 
think that kind of answers your question.
    Ms. Lofgren. Thank you.
    Mr. Lowe. Can I take a little bit of a liberty to say 
something about insurance incentives?
    Chairman Smith. Yes, what do you think?
    Mr. Lowe. Yes. I just want to say a little bit about it. As 
you know, I am also the Federal Insurance Administrator and do 
have the NFIP, which is the National Flood Insurance Program. 
And one of the things that we thought would be useful is to try 
to work with the private sector to create an all-hazard 
insurance policy, which would help spread the risk of, if you 
will, all of the major hazards across a larger policy base. And 
so in doing that, it might very well be an earthquake pool, let 
us say, in California, who would pick up a piece, the NFIP with 
its 92 insurance companies would pick up the flood piece. We 
would have a hurricane piece. There would be other pieces. It 
would also, obviously, create a certain amount of soundness in 
trying to deal with the terrorism piece.
    Now the significance of that is the NFIP, just very 
quickly, is built on insurance, the promise of insurance if 
certain mitigation actions occur after the hazard areas are 
defined. And so ANNS, NEES, all of those are--ANSS, excuse me, 
are all very critical to such a system. But we think that that 
is a model that is worth looking at. So we would encourage that 
and just wanted you to know that those are the sorts of things 
we were thinking about.
    I just want to mention that Executive Order 12699 does say 
that for federally owned, leased, assisted, or regulated new 
building construction, it needs to be in accordance with that 
design standard. And so in other words--and that is the NEHRP 
standard. That is the 2000 standard. So that is there. And so 
it might be a matter of compliance to reach some of what you 
are talking about.
    Chairman Smith. Let us conclude by, if you wish, maybe 
taking up to one minute, and I will just raise my hand when 
your 60 seconds are up, of any last thoughts that you would 
like to pass on to the Committee as we write the NEHRP 
reauthorization. And we will start at this end, Mr. Reaveley, 
with you, and go down the line.
    Dr. Reaveley. Just fund us. And fund the broader program, 
and make it a focused program. I worry that we have--that we 
are not focused and coordinated on what our goals and 
objectives are.
    Chairman Smith. Dr. O'Rourke.
    Dr. O'Rourke. I echo that. I think that this program has 
done great service and value for the United States, that it is 
a model for the rest of the world, that it contributes not only 
to our seismic safety, but, as you have heard in this testimony 
from all different sources, has had a profound influence on our 
homeland security and other natural hazards. And so it is--
needs support. It needs the funding. And you also asked for 
priorities. I think ANSS, and also NEES, are two model programs 
that have terrific opportunity to do the kinds of things you 
want it to do. They are on the table. They are there. They are 
well thought out. They are visionary. And with support for 
those two projects, you will get a lot of leverage.
    Chairman Smith. Dr. Cluff.
    Dr. Cluff. Yes, I support the need to expand the funds, 
increase the funding in line with what the EERI comprehensive 
program has called for, at least a three times expansion. When 
we look at the losses that we certainly can get from 
earthquakes, on a cost benefit ratio, it is very clear. The 
Trans-Alaska Pipeline is a good example on the money that was 
saved from a potential environmental disaster. It was a non-
event in the press. When asked--when I had been asked can we 
afford to increase the budget for the NEHRP program, when I 
look at the consequences, we can't afford not to.
    Chairman Smith. Thank you. Mr. Olson.
    Mr. Olson. I believe my colleagues have said it all very 
well. Being educated in political science, I look back and I 
would like to just suggest that maybe it is time to look back 
at the chartering legislation that was passed in 1977 and to 
take a look forward to the next 20 years and see what it ought 
to say, because that chartering legislation then is what the 
agencies implement and report to you on. And I think that may 
be a policy--it might be just time to look at that policy 
issue. Thank you.
    Chairman Smith. Thank you. Mr. Lowe.
    Mr. Lowe. Yeah. I just would want to re-emphasize that the 
important thing here seems to me to really drive this program 
toward results, and the results, of course, are saving lives 
and property. We have all of the makings of that. We have a 
strategic plan. We are developing an annual plan working with 
all of our stakeholders and then, of course, the work that will 
come out of the research coordinating committee. And so we are 
developing a performance management program. That is vitally 
important, and so we would like, certainly, the Committee's 
strong consideration of what we are trying to do here and to 
give the strategic plan and the structure we have set up along 
with the management plan, among all the PCC leaders, the NEHRP 
agency leaders, if you will, to work, because we believe that 
you will be pleased with the success if you do.
    Thank you.
    Chairman Smith. Let me close in saying thank you all very 
much for the sacrifice of your time being here. Thank you for 
your expertise and interest and advice. Without objection, the 
record of this committee hearing will remain open for, how 
long, 48 hours?
    The Clerk. Five days.
    Chairman Smith. Five days in order to have comments from 
other Members of the Committee and, with the permission of the 
panelists, to possibly ask you additional questions that 
haven't been answered. And with that, the Committee is 
adjourned.
    [Whereupon, at 4:33 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                         Additional Statements



                 Prepared Statement of Charles G. Groat
                    Director, U.S. Geological Survey
                    U.S. Department of the Interior

INTRODUCTION

    The U.S. Geological Survey (USGS) has been an active participant in 
the National Earthquake Hazards Reduction Program (NEHRP) for twenty-
five years. Within NEHRP, USGS provides the fundamental earth sciences 
information, analyses, and research that form the foundation for cost-
effective earthquake risk reduction measures.
    Earthquakes are the most costly, single event natural hazard faced 
by the United States. Twenty-five years of work by USGS, in close 
cooperation with the three other NEHRP agencies (Federal Emergency 
Management Agency (FEMA), National Institute of Standards and 
Technology (NIST), and National Science Foundation (NSF)), has yielded 
major advances in earthquake preparedness and monitoring, as well as a 
vastly improved understanding of earthquake hazards, effects, and 
processes. Through NEHRP, USGS is poised to build on these 
accomplishments, helping to protect lives and property in the future 
earthquakes that will strike the United States. In FY 2003, USGS 
received $46.6 million in appropriated funds to support NEHRP work. The 
three major activities of USGS within NEHRP and the percentage of funds 
supporting these activities are given below:

        -- Assessment and quantification of seismic hazards. The USGS 
        produces and demonstrates the application of products that 
        enable the public and private sectors to assess earthquake 
        risks and implement effective mitigation strategies. (40 
        percent)

        -- Operation, modernization, and expansion of real-time 
        earthquake notification and monitoring systems. The USGS 
        operates the national program in collecting, interpreting, and 
        disseminating information on earthquake occurrences throughout 
        the U.S., and significant earthquakes worldwide, in support of 
        disaster response, scientific research, national security, 
        earthquake preparedness, and public education. (40 percent)

        -- Increasing scientific understanding of earthquake processes 
        and effects. The USGS pursues research on earthquake processes 
        and effects for the purpose of developing and improving hazard 
        assessment methods and loss reduction strategies. (20 percent)

    The work of USGS Earthquake Hazards Program is focused on the 
Nation as a whole and on five broad geographical regions, addressing 
particular regional needs and problems in areas where the earthquake 
risk is the greatest. These regions are Southern California, Northern 
California, the Pacific Northwest (including Alaska), the Intermountain 
West, and the central and eastern United States (including Puerto 
Rico).
    Approximately one-fourth of the USGS NEHRP funding is used to fund 
activities, investigations, and research outside USGS. Each year we 
support approximately 100 research grants at universities, state 
governments, and in the private sector. The USGS is engaged in some 16 
cooperative agreements to support the operations of 14 regional seismic 
networks maintained by universities. In a cooperative effort with NSF, 
USGS provides support to the Southern California Earthquake Center, a 
leading effort in earthquake research at the University of Southern 
California. By involving the external community, through research 
grants and cooperative agreements, the USGS program increases its 
geographical and institutional impact, promotes earthquake awareness 
across the Nation, encourages the application of new hazards assessment 
techniques by State and local governments and the private sector, and 
increases the level of technical knowledge within State and local 
government agencies.

USGS NEHRP ACTIVITIES

    Earthquake Hazard Assessments. The USGS carries out quantitative 
earthquake hazard assessments on national and regional scales. The 
national seismic hazard assessments are used to form the seismic safety 
elements of model building codes for the United States. These maps 
integrate results of geologic mapping, field studies of fault locations 
and slip rates, analyses of seismicity patterns and rates, and crustal 
deformation measurements. The maps are prepared in digital format and 
give, at some 150,000 grid points nationwide, the severity of expected 
ground shaking (in terms of horizontal acceleration and velocity) over 
exposure times of 50, 100, and 250 years. The maps and their associated 
databases are used also to predict earthquake losses and to define 
insurance risks. Periodic review and revision of these maps, as new 
data become available, is a high priority in the USGS NEHRP program. 
The latest revision of these maps was completed in 2002.
    The national scale earthquake hazard maps do not take into account 
variations in the amplitude and duration of seismic shaking caused by 
local geologic structures and soil conditions. For example, 
artificially filled land and shallow geologic basins filled with 
loosely consolidated sediments tend to amplify and extend earthquake 
shaking to dangerous levels. The USGS works in areas of high to 
moderate seismic risk, such as San Francisco, Los Angeles, Seattle, and 
Memphis, to produce large-scale maps and databases that show the 
variations in ground shaking patterns that can be expected from local 
conditions.
    In addition to not taking into account variations in local geology, 
the national scale assessments do not take into account the time 
dependence of earthquake occurrence. For example, if a large, magnitude 
8 earthquake occurs on the northern San Andreas fault in California 
tomorrow, is unlikely that an earthquake of similar magnitude will 
occur on the same fault a year from now, simply because a large portion 
of the tectonic strain in the region will have be relieved. Studies of 
the regional ``strain budget'' result in forecasts of the probabilities 
of future earthquakes on individual active faults and across the region 
as a whole. The USGS is in the process of publishing an exhaustive 
study of the earthquake probabilities in the San Francisco Bay region. 
This study estimates a 62 percent chance of an earthquake of magnitude 
6.7 or greater in the region before 2031.
    Earthquake Monitoring and Notification. The USGS is the only agency 
in the United States responsible for the routine monitoring and 
notification of earthquake occurrences. The USGS fulfills this role by 
operating the U.S. National Seismograph Network (USNSN), the National 
Earthquake Information Center (NEIC), the National Strong Motion 
Program (NSMP), and by supporting 14 regional networks in areas of 
moderate to high seismic activity. All of these efforts are being 
integrated into the Advanced National Seismic System (ANSS). Rapid and 
reliable information on the location, magnitude, and effects of an 
earthquake is needed to guide emergency response, save lives, reduce 
economic losses, and speed recovery. Additionally, the seismic data 
from routine network operations are essential to define and improve the 
models of earthquake occurrence, fault activity, and earth structure 
that underlie earthquake hazards assessments and research on earthquake 
effect and processes.
    The same analysis systems and facilities that process data for 
domestic earthquakes use data from the Global Seismograph Network (GSN) 
to monitor foreign earthquakes. Notifications of large foreign 
earthquakes are provided to the Department of State, the Office of 
Foreign Disaster Assistance, the Red Cross, and the news media.
    The ANSS is an effort to integrate, modernize, and expand 
earthquake monitoring and notification nationwide. This effort was 
authorized in the last reauthorization of NEHRP in 2000 (P.L. 106-503). 
Although appropriations have not reached the authorized level, 
significant progress has been made in the development of the ANSS. A 
management structure is in place that includes regional implementation 
and advisory groups with national level oversight and coordination. By 
the end of 2003, USGS and its regional partners will have installed 
some 400 new seismic sensors in urban areas of the United States. These 
areas include Los Angeles, San Francisco, Seattle, Salt Lake City, 
Reno, Anchorage, and Memphis. Data from earthquake sensors in urban 
areas can be used to produce, within a few minutes of an earthquake 
occurrence, a map showing the actual severity and distribution of 
strong ground shaking caused by an earthquake. Emergency management 
officials and managers of transportation, communication, and energy 
grids use these ``ShakeMaps'' to direct the response to the earthquake, 
minimize it effects, and speed recovery. Data from these ``Shake Maps'' 
can be imported into FEMA's HAZUS GIS based loss estimation tool to 
provide extremely reliable results. Some form of ShakeMap capability 
now exists in Los Angeles, San Francisco, Seattle, and Salt Lake City.
    ANSS sensors in urban areas also provide the data necessary to 
improve earthquake resistant building design and construction 
practices. These instruments will provide quantitative data on how the 
ground actually shook during an earthquake. These data will serve as 
the input to engineering studies to improve site characterization and 
infrastructure (bridges, buildings, lifelines, etc.) performance, such 
as the George E. Brown, Jr. Network for Earthquake Engineering 
Simulation (NEES) sponsored by NSF.
    Better Understanding of Earthquake Processes and Effects. With the 
goal of improving hazard assessments, earthquake forecasts and 
earthquake monitoring products, USGS conducts and supports research on 
earthquake processes and effects. This is a effort to increase our 
understanding of the tectonic processes that lead to earthquakes, the 
physics of earthquake initiation and growth, the propagation of strong 
shaking through the Earth's crustal and surficial layers, and the 
triggering of landslides, rock falls, and other ground failures by 
seismic shaking. This research is based on theoretical, laboratory, and 
field studies and addresses many of the fundamental problems of 
earthquake occurrence and consequences.
    Working with User Communities. The USGS believes that all of its 
work under NEHRP must relate to reducing public risk from earthquake 
hazards. We make strong efforts to engage the communities of users of 
our information, assessment products, and research.
    The development of the national seismic hazard maps involves an 
exhaustive process in which we engage seismologists, geologists, and 
engineers on the regional and national levels. Regional workshops are 
held at which new data and studies on earthquake hazards are presented 
and discussed. The changes that will result in incorporating the new 
results into revised maps are also presented and discussed. Every 
effort is made to reach a consensus on the validity of the new results 
and on the resulting changes in the hazard maps. At the national level, 
we work with FEMA, the National Institute of Building Safety, the 
Building Seismic Safety Council, the Building Officials Conference of 
America, and the American Society of Civil Engineers to ensure that the 
maps are of maximum practical use to the engineering and construction 
communities.
    Our work on regional hazard assessments in northern and southern 
California, Seattle, and Memphis is carried out in participation and 
collaboration with regional and local governments and local interest 
groups. These groups provide essential input on what information is 
needed and the form in which it is needed to be of greatest practical 
use.
    Within the ANSS management structure, there are six regional 
advisory committees and a national steering committee. These committees 
are made up of engineers, seismologists, and emergency management 
officials. The regional advisory committees ensure that the 
implementation of ANSS meets regional requirements; the national 
committee ensures that the program is developed as an integrated system 
with national operating standards and equipment specifications.
    In 2002, under the authority of P.L. 106-505, USGS established a 
Scientific Earthquake Studies Advisory Committee to advise USGS on its 
roles, goals, and objectives within NEHRP, to review its capabilities 
and research needs, and to provide guidance on achieving major 
objectives and performance goals. Members of this committee have 
backgrounds in geology, seismology, and engineering and represent 
academia, State governments, and the private sector. The Committee has 
met three times during the past year and has provided two reports to 
this committee on its findings.
    The USGS maintains close ties with professional groups such as the 
Seismological Society of America, the Earthquake Engineering Research 
Institute, and the American Geological Institute. We also work closely 
with and support regional groups such as the Central United States 
Earthquake Consortium, the Western States Seismic Policy Council, the 
Cascadia Region Earthquake Working Group, and various state geological 
surveys and seismic safety commissions.
    At the federal level, in additional to working with our NEHRP 
colleagues, we have strong ties to the Tsunami Warning Service of the 
National Oceanic and Atmospheric Administration, the Nuclear Regulatory 
Commission, the Bureau of Reclamation, and various elements of the 
Departments of Defense, Energy, and Transportation.
    The USGS has worked with the Red Cross and other agencies to 
prepare Sunday paper inserts on earthquake awareness for San Francisco 
and Anchorage. A USGS employee wrote the pamphlet ``Putting Down Roots 
in Earthquake Country'' which was published and distributed throughout 
southern California by FEMA, the State of California, the Red Cross, 
and the Southern California Earthquake Center.
    Promoting the International Exchange of Earthquake Information and 
Research. Since the beginning of NEHRP, USGS has had formal, active 
scientific exchange programs with Russia, Japan, and the Peoples 
Republic of China. In prior years, before development of the Internet 
and the demise of the Cold War, these exchanges were rather stiff and 
prescribed with formal annual meetings at which details of joint 
research projects were negotiated. The annual meetings continue, but in 
addition to them there is a continual flow of information, ideas, and 
results between participants on all sides through electronic mail and 
personal visits. The USGS also has exchange programs with institutes in 
France, Italy, Turkey, Mexico, and Canada.
    In the case of a large, foreign earthquake, when there are lessons 
to be learned that have applications in the United States or when 
assistance is requested, the USGS will send teams of scientists to 
carry out post-earthquake investigations. During the 25 years of NEHRP 
the USGS has sent teams to investigate earthquakes in dozens of 
countries including Algeria, Armenia, Australia, Chile, China, 
Columbia, El Salvador, Guatemala, Italy, India, Japan, Mexico, Turkey, 
Yemen, and Yugoslavia. Most of these investigations have led to 
scientific reports that are provided to the host country and many have 
led to extensive collaborative work between USGS and foreign 
scientists.

SIGNIFICANT ACHIEVEMENTS OF NEHRP

    The USGS has made substantial progress in earthquake awareness, 
preparedness, and safety during the past 25 years. Immense efforts have 
gone into planning earthquake emergency response, retrofitting existing 
structures, and ensuring that new structures are built to withstand 
expected shaking levels. The USGS has contributed to these efforts 
through its hazard assessment, monitoring, and research efforts.
    Earthquake Hazard Assessment. The flagship product of the USGS 
under NEHRP is the series of national seismic hazard maps. These 
seismic hazard maps are the scientific basis of seismic provisions in 
building codes enacted throughout the U.S. to prevent loss of life and 
limit damage during large earthquakes. Ten years ago these code maps 
were based on four broad, qualitative zones that were used to describe 
the earthquake hazard nationwide. This depiction and classification of 
the Nation's earthquake hazard was completely inadequate. Today these 
maps consist of 150,000 grid points each with a quantitative estimate 
of the expected shaking at each point. The 1996 national seismic hazard 
maps are directly included in design maps in the NEHRP Recommended 
Provisions, published by the Building Seismic Safety Council and FEMA. 
In turn, these Provisions are used in the 2000 International Building 
Code (IBC), which is the merging of the three major national model 
codes. The IBC and the International Residential Code have now been 
adopted by jurisdictions in 37 states. Thus, this NEHRP product, the 
set of national seismic hazard maps, is being used to make billions of 
dollars of new construction each year safer from earthquakes.
    The national seismic hazard maps are also used in the FEMA retrofit 
guidelines, ensuring that older buildings are strengthened so that they 
withstand future earthquakes. These maps and associated products are 
also used in the design of highway bridges, landfills under EPA 
regulation, and dams, as well as the setting of earthquake insurance 
premiums and the cost of re-insurance. The California Earthquake 
Authority uses the seismic hazard maps for California, produced by USGS 
and the California Division of Mines and Geology, to set earthquake 
premiums for the state earthquake insurance program. Pension funds 
apply these maps, made under NEHRP, to evaluate the risks to their 
portfolios of properties. Presidential executive orders specify that 
new and leased federal buildings must adhere to the NEHRP Recommended 
Provisions. The State of Oregon recently upgraded to seismic zone 4 
along the southern part of its coast, largely based on hazard 
information presented in USGS seismic hazard maps.
    Another major advance in hazard assessment work occurred in the 
1990's when USGS created formal field offices in Pasadena, Memphis, and 
Seattle. The purpose of these field offices was to bring our scientists 
in direct contact with the regional users of the results of our 
studies. Personnel at these field offices, and at our regional center 
in Menlo Park, California, have been very successful in working with 
local interests and creating products that will allow these interests 
to effectively and efficiently address their earthquake risks.
    Earthquake Monitoring and Notification. The USGS has also realized 
major improvements in its ability to provide timely and informative 
earthquake reports and information. Twenty-five years ago basic 
earthquake data processing (location and magnitude determination) was 
done by hand. Scientists made measurements on paper seismograms with 
rulers and used slide rules to compute epicenters and magnitudes. 
Earthquake notification was performed by individually dialed telephone 
calls. It took at least an hour to develop the photographic paper that 
recorded the seismic data, make the measurements, analyze the data, and 
make the phone calls. This was the time required to process one 
earthquake! Today digital data flows from hundreds of seismometers over 
dedicated communication links to regional and national data centers. At 
these centers computers that ``read'' the seismograms using complex 
analysis programs process the data. Epicenters and magnitudes are 
generated automatically and instantaneously and the results are 
broadcast within seconds.
    The concepts underpinning the Advanced National Seismic System are 
allowing USGS to capitalize on the revolution in information technology 
of recent decades to achieve dramatic advances in real-time seismic 
data analysis and rapid earthquake notification. The most noteworthy 
result of this is the ``ShakeMap'' product. Complementing ShakeMap is a 
suite of other real-time earthquake products such as earthquake paging 
and e-mail services, real-time earthquake location maps, automatic Web 
pages for significant events, and aftershock probability estimators. 
Recently we established a Web-based interface to provide Internet users 
with a means of recording individual earthquakes experiences and 
compiling these into summary maps of shaking intensity (``Did-You-Feel-
It?''). These additional products provide rapid, reliable, and 
comprehensive information about U.S. and worldwide earthquakes.
    Understanding Earthquake Processes and Effects. Progress made in 
earthquake hazard assessments during the past 25 years have their roots 
in pioneering USGS field, laboratory, and theoretical research focused 
on understanding the basic physical processes of earthquakes. Key 
results include:

        -- Improved models of seismic energy attenuation as a function 
        of distance from an earthquake;

        -- Use of the Global Positioning System (GPS) to determine the 
        rate at which faults are being ``loaded'' (stressed) by the 
        movement of tectonic plates that make up the Earth's outer 
        shell;

        -- Discovery and documentation of large, prehistoric 
        earthquakes through a new field of study known as 
        paleoseismology through identifying evidence of past 
        earthquakes in trenches dug across faults, in riverbanks, and 
        from drowned coastlines;

        -- Quantifying the effect of soils and near-surface conditions 
        in amplifying strong ground motion; and,

        -- Advances in earthquake forecasting through improved 
        understanding of the physics of fracture and friction of rocks 
        in fault zones.

IMPROVING NEHRP

    The USGS believes that, although the coordination between NEHRP 
agencies is good, it could be substantially improved. Coordination 
between USGS and NSF on NEHRP matters takes place more on a collegial 
basis, rather than being driven by NEHRP; however, FEMA has recently 
taken steps to establish a Research Coordination Committee, which may 
improve the overall coordination. The USGS believes that stronger 
direction to the overall NEHRP program would be constructive. Because 
of provisions in the last legislation authorizing NEHRP, USGS now 
benefits from the advice and guidance of its Scientific Earthquake 
Studies Advisory Committee. This committee has proven invaluable in 
providing sound direction to our NEHRP activities. The USGS suggests 
that a similar advisory body to the entire NEHRP effort would provide 
the stimulus and guidance to ensure greater coordination, cooperation, 
and planning.

NEHRP CHALLENGES AND USGS PLANS

    Although much has been accomplished under NEHRP, much work remains 
to be done to ensure safety and reduce economic losses in future 
earthquakes. The country's population and economy continue to grow in 
earthquake prone areas. Exposure to earthquake risk continues to 
increase. Emergency officials, lifeline managers, the news media, and 
the public expect immediate, reliable, and complete information on the 
location, magnitude, impact, and effects of any and all earthquakes.
    Earthquake hazard information used in model building codes is 
applied for public safety only; that is to keep the structure from 
collapsing. The building may be a total loss, but the inhabitants are 
expected to be safe. Financial and engineering interests are now 
pursuing the more sophisticated, and more complicated, concept of 
performance-based design. Under this concept, the structure is designed 
and constructed so that it will meet a desired performance level during 
and after an earthquake. For example, the owners and occupants of a 
structure housing a national corporate headquarters may want it 
designed so that it will be completely functional immediately after a 
strong earthquake. Performance based design concepts require more 
extensive and complete data on the nature and variation of ground 
shaking and building from earthquakes.
    Going forward, USGS will continue to build on existing USGS 
earthquake monitoring, assessment, and research activities with the 
ultimate goal of providing the Nation with earthquake products that 
promote earthquake mitigation and facilitate earthquake response. At 
the heart of this effort will be a continued emphasis on delivering 
information that is useful, accessible, and easily understood. By 
working closely with policy-makers and emergency planners, USGS will 
ensure that they have the most reliable and accurate information 
possible about earthquake hazards and that our products are tailored to 
their needs. The USGS will participate in local and national earthquake 
mitigation planning exercises and help train emergency responders, 
contingency planners, risk managers, the media, and others in how to 
use earthquake hazard assessments and real-time information products. 
The USGS will also continue to work directly with communities to help 
them understand their vulnerabilities to earthquakes and to plan 
mitigation actions. Critical decisions for earthquake preparedness and 
response, including continued corporate and government operations, are 
often made far from areas of high seismic hazard. So that informed and 
appropriate actions can be taken, USGS will continue to work to ensure 
that earthquake hazard information and products are useful and familiar 
to decision-makers even in regions of low seismic hazard.
    Advanced National Seismic System. The ANSS initiative is intended 
to contribute to reducing loss of life and property in earthquakes 
through monitoring actual ground shaking levels in urban areas and the 
dynamic performance of structures and lifelines in earthquakes. ANSS is 
intended to collect this information through a nationwide network of 
sophisticated shaking monitors, placed both on the ground and in 
buildings in urban areas in seismically active regions. Under the ANSS 
initiative, USGS had added 400 new seismometers in urban areas and 18 
new seismometers to the regional networks it supports.
    One component of ANSS is the instrumentation of buildings. To date, 
two buildings have been instrumented under the ANSS initiative. 
Currently, the spacing of seismometers is not sufficient to correlate 
the ground shaking to the performance of specific buildings. If 
hundreds of buildings in high-risk areas are instrumented with 
seismometers, engineers can determine how specific types of buildings 
respond to earthquake shaking. Although model building codes set 
earthquake resistant standards for broad, general classes of structures 
(i.e., wood frame, residential) on a generic soil type, these 
instruments will provide data about how more complicated buildings 
(i.e., steel-moment frame and non-ductile concrete frame) buildings 
perform during earthquakes and how to design buildings that will 
perform well during violent shaking.
    The instrumentation of structures in seismically active areas 
provides engineers with critical information they need to determine how 
buildings respond to earthquakes. This information includes:

        -- the coupling between the building foundation and the 
        underlying soils;

        -- the role of torsion of columns in building shaking;

        -- the performance of commonly used systems such as shear 
        walls combined with a moment-frame structure; and,

        -- the ability of mathematical models to predict the 
        performance of buildings during strong shaking.

    The closely spaced seismometers could also be used to identify 
areas of special engineering problems, such as high amplification and 
focusing, that will require special building design before the 
destructive earthquake occurs. This in turn will allow identification 
of locations where seismic strengthening of buildings is needed the 
most, ensuring the cost effectiveness of the mitigation.
    A goal of ANSS is improved reliability, timeliness, and breadth of 
USGS real-time earthquake products for emergency response purposes. 
ShakeMap, in particular, requires access to a modern seismic network 
with digital strong motion recording capabilities and real-time 
telecommunications feeds. Few U.S. urban areas possess this type of 
modern technology. For this reason, ShakeMap is currently only 
available in a handful of cities (Los Angeles, San Francisco, Seattle, 
and Salt Lake City). We note that the instruments and automatic 
analysis systems being deployed and developed within the ANSS effort 
can detect, locate, and determine the severity of large, non-natural 
events that generate seismic energy, such as explosions and impacts.
    Earthquake Warnings. As the ANSS system develops, it will be 
technically possible, under some conditions, to issue warnings within a 
few tens of seconds of the initiation of strong ground shaking. The 
seismic waves that carry strong shaking travel at about two miles-per-
second. If an earthquake occurs 100 miles outside of an urban area, 
data from ANSS sensors near the epicenter can immediately be 
transmitted over robust communication links to a data analysis center. 
Here the data can be analyzed automatically to determine that a strong 
earthquake has occurred. This could be done within a few seconds. A 
warning could then be issued via radio to the urban area that strong 
earthquake shaking is imminent. The warning would give school children 
time to get under their desks, allow surgeons time safely pause their 
procedures (if possible), and provide time to suspend the pumping of 
toxic materials and other hazardous activities. The USGS is taking the 
lead in demonstrating this capability; however its implementation must 
be done in cooperation with local and regional governments.
    Integrating essential data for expanded urban hazard assessments. 
Most current USGS earthquake hazard assessments are compiled on 
regional or national scales. These estimates typically are limited to 
calculating hazards on hard rock conditions as opposed to the actual 
soil conditions beneath cities and lifelines. At scales needed for 
urban planning and development, assessments need to account for the 
amplifying effects of soils and the potential for ground failures, such 
as liquefaction and landslides.
    USGS pilot urban assessments in Oakland, Seattle, and Memphis have 
shown the usefulness of detailed urban assessments. Central to this 
effort will be the integration of data on local geology, site 
conditions, and ground motions needed to produce detailed urban hazard 
maps. These data integration efforts will require partnerships with 
state geological surveys and local agencies. As these hazard 
assessments evolve, they will allow estimates of potential earthquake 
losses to building stocks and critical lifelines. This is one of the 
keys to developing cost effective mitigation strategies to reduce 
future earthquake losses.
    Earthquake Hazards in the Eastern United States. The USGS 
earthquake program devotes approximately 75 percent of its resources to 
work in the Western United States, primarily because the hazard there 
is greater. However, history demonstrates that a catastrophic quake 
could also strike a major city in the Eastern United States. Four 
damaging earthquakes with magnitudes greater than 7 centered in the New 
Madrid, Missouri, area struck the Mississippi Valley in 1811-1812. 
Charleston, South Carolina, was devastated by a magnitude 6.7 shock 
in1886, and a magnitude 6.0 quake struck the Boston area in 1755.
    USGS studies show that urban areas in the Eastern United States 
will incur far greater damage and far more deaths in a quake of a given 
magnitude than those in the West for several reasons: (1) for the same 
magnitude earthquake, shaking affects a much larger area, (2) most 
structures are not designed to resist earthquakes, and (3) population 
density is high and residents are not routinely educated about seismic 
safety.
    USGS is developing the methods and understanding that could improve 
our understanding of the earthquake hazard in the East, where the 
causative earthquake faults are rarely exposed at the surface and the 
subsurface conditions beneath major cities are poorly documented. More 
thorough and accurate assessment of the seismic risk faced by major 
urban centers in the East will reveal the greatest vulnerabilities and 
serve as key input to evaluate possible mitigation strategies.
    Earthquake Hazards in Alaska. Alaska has the greatest exposure to 
earthquake hazard of any state. Because of the relatively small urban 
population, many assume the risk is low compared to the rest of the 
country. However, the impact of a devastating earthquake in Alaska can 
extend far beyond its borders, both by generating deadly tsunamis and 
through economic consequences. Alaska is a major source of natural 
resources for the rest of the Nation, a major transportation and 
commercial node of the Pacific Rim being the 5th busiest air cargo 
airport in the world, and of significant importance to national 
defense.
    Capitalizing on new national facilities. As described in the 2003 
National Research Council report, Living on an Active Earth: 
Perspectives on Earthquake Science, continued progress toward 
evaluating earthquake hazards will increasingly require integrative, 
physics-based research involving theoretical studies of processes 
controlling earthquake phenomena, sophisticated numerical modeling, in 
situ, ground-based, and space-based field observations, and laboratory 
simulations. Research, data collection, and monitoring facilities 
developed during the first 25 years of NEHRP are aging and becoming 
obsolete. Recent and proposed U.S. government investments in a number 
of major earth science and engineering facilities (e.g., ANSS, the NSF-
coordinated EarthScope initiative--including the Plate Boundary 
Observatory, USArray, and the San Andreas Fault Observatory at Depth, 
the George E. Brown, Jr. Network for Earthquake Engineering Simulation 
(NEES), and a future interferometric synthetic aperture radar (InSAR) 
satellite mission) offer, for the first time, the breadth and depth of 
data required to truly address the physical nature of earthquakes.
    The USGS will take advantage of these new data streams to perform 
earthquake hazard focused experiments on scales never before possible. 
To improve long-term hazard assessments, USGS will also create region 
specific earthquake occurrence models that simulate the multiple 
factors operating in active fault systems. A major goal will be to 
understand the criteria for the occurrence of earthquakes within a 
fault system and the impact of one quake on the system through the many 
processes that transfer stresses. To determine if earthquakes are 
predictable, USGS will build models of earthquake likelihood, akin to 
weather forecast models.
    Earthquake Prediction. Reliable prediction of the time, place, and 
magnitude of future earthquake is the ``holy grail'' of earthquake 
science. The USGS spent considerable effort on earthquake prediction 
during the early days of NEHRP (1978-1990). After strong efforts and at 
least one dramatic failure, based mostly on a phenomenological 
approach, USGS concluded that earthquake prediction would not be 
possible without a foundation based on a complete understanding of 
earthquake physics and processes. During the past decade, we have seen 
considerable progress in the understanding of earthquake processes. 
This progress in understanding could contribute to advancing reliable 
earthquake prediction. But, in order to do so, it would be necessary to 
review the current state of knowledge, identify the scientific problems 
that should be addressed, and develop a strategy to address these 
issues.

CONCLUSION

    After 25 years of NEHRP, USGS has become a world scientific leader 
in seismic hazard studies. In implementing the results of these studies 
to mitigate the effects of earthquakes, USGS has actively collaborated 
with state geologic surveys, emergency response officials, earthquake 
engineers, local government, and the public. This has resulted in 
dramatic improvement in building safety and earthquake response in the 
United States. But there is still much to be done. By integrating USGS 
earthquake information with data from new national initiatives, such as 
ANSS, USGS will be able to develop a new generation of effective and 
efficient earthquake hazard assessment and mitigation tools. These 
tools will be used to further reduce losses of life and property in the 
future earthquakes that are certain to strike our nation's seismically 
hazardous regions.
    Thank you, Mr. Chairman, for the opportunity to submit this 
statement.

                     Biography for Charles G. Groat

    On November 13, 1998, Dr. Charles G. Groat became the 13th Director 
of the U.S. Geological Survey, U.S. Department of the Interior.
    Groat is a distinguished professional in the earth science 
community with over 25 years of direct involvement in geological 
studies, energy and minerals resource assessment, ground-water 
occurrence and protection, geomorphic processes and landform evolution 
in desert areas, and coastal studies. From May to November 1998, hie 
served as Associate Vice President for Research and Sponsored Projects 
at the University of Texas at El Paso, following three years as 
Director of the Center for Environmental Resource Management. He was 
also Director of the University's Environmental Science and Engineering 
Ph.D. Program and a Professor of Geological Sciences.
    Prior to joining the University of Texas, Dr. Groat served asp 
Executive Director (1992-95) at the Center for Coastal, Energy, and 
Environmental Resources, at Louisiana State University. He was 
Executive Director (1990-92) for the American Geological Institute. 
From 1983-88, he served as assistant to the Secretary of the Louisiana 
Department of Natural Resources, where he administered the Coastal Zone 
Management Program, and the Coastal Protection Program.
    From 1978-1990, Dr. Groat held positions at Louisiana State 
University and the Louisiana Department of Natural Resources which 
included serving as professor for the Department of Geology and 
Geophysics, and as Director and State Geologist for the Louisiana 
Geological Survey. He also served as associate professor (1976-78) at 
the University of Texas at Austin, in the Department of Geological 
Sciences, and as Associate Director and Acting Director of the Bureau 
of Economic Geology.
    Dr. Groat received a Bachelor of Arts degree in Geology (1962) from 
the University of Rochester, a Master of Science in Geology (1967) from 
the University of Massachusetts, and a Ph.D. in Geology (1970) from the 
University of Texas at Austin.
    Among his many professional affiliations, Groat is a member of the 
Geological Society of America, American Association for the Advancement 
of Science, American Geophysical Union, and the American Association of 
Petroleum Geologist. He has also served on over a dozen earth science 
boards and committees and has, authored and contributed to numerous 
publications and articles on major issues involving earth resources and 
the environment.
    Dr. Charles G. Groat was born in Westfield, New York, March 25, 
1940. He currently resides in Reston, Virginia, with his wife, Barbara. 
He has two grown children.

               Prepared Statement of Priscilla P. Nelson
              Senior Advisor, Directorate for Engineering,
                      National Science Foundation

Introduction

Mr. Chairman and distinguished Members of the Subcommittee:

    I appreciate the opportunity to submit this testimony from the 
National Science Foundation (NSF) concerning the Subcommittee's 
reauthorization of the National Earthquake Hazards Reduction Program 
(NEHRP). NEHRP was established in 1977 and operates as an effective 
multi-agency partnership; NSF is privileged to serve as a NEHRP agency. 
We are confident that NEHRP--in collaboration with other federal 
agencies, local and state governments, colleges and universities, and 
private sector organizations throughout the country--will continue to 
take crucial steps toward meeting the challenge of reducing deaths, 
injuries and property damage caused by earthquakes in the years to 
come.
    In order to provide context for the NSF involvement in NEHRP, let 
me first discuss the broader NSF mission in order to place in context 
my extended discussion of the role of NSF in the NEHRP partnership.

The NSF Mission

    Recent years have seen acceleration in rates of change in society 
and in the world at large. In this era of dynamic change, in which 
science and technology play an increasingly central role, NSF has 
remained steadfast in pursuit of its mission: to support science and 
engineering research and education for the advancement of the Nation's 
well being. Knowledge is our strongest insurance for preparedness. The 
Foundation is that main source of funding for the growth in fundamental 
scientific knowledge and, at the colleges and universities funded by 
NSF, scientists and engineers are working to provide more effective 
predictions and to discover ever more effective approaches to 
prevention and amelioration.
    The perspective of each NEHRP agency is critical to creating a 
complete picture of the Nation's vulnerability to earthquakes--an 
understanding that leads to effective mitigation and hazard reduction. 
Collectively, we cover the spectrum from natural and social sciences to 
engineering, from discovery to implementation, from response to 
mitigation. With the vulnerability of the Nation to natural hazards 
growing increasingly complex, we need an integrated, multi-agency 
perspective to make significant progress.

Role of NSF in NEHRP

    NSF supports research and educational activities in many 
disciplines, and this is reflected in our role within NEHRP. Our role 
complements the responsibilities assigned to our principal partners in 
the program: the Federal Emergency Management Agency (FEMA), the U.S. 
Geological Survey (USGS), and the National Institute of Standards and 
Technology (NIST). NSF is involved in continuing strategic planning 
with the other NEHRP agencies in order to further interagency 
coordination and integration.
    Legislation authorizing NEHRP called for NSF to support studies in 
the earth sciences, earthquake engineering, and the social sciences. 
Since 1977, NSF investments have supported growth of vibrant hazards-
related research communities in engineering, geosciences, and in the 
social sciences. Leadership from the engineering research community has 
been important to technology transfer of research outcomes into 
practice and into improvements in codes and standards. NSF's 
investments in center-based research (the Earthquake Engineering 
Research Centers--EERCs, and the Southern California Earthquake 
Center--SCEC) have been very important for the integration of social 
sciences into engineering and geoscience research questions, and NSF's 
investments in IRIS (Incorporated Research Institutions for Seismology) 
have resulted in an effective global network for seismic monitoring. 
The EERCs are recognized for global leadership in the development of 
new concepts of performance based earthquake engineering (PBEE), and 
consequence-based approaches to understanding the performance and 
vulnerability of complex infrastructure systems. NSF's centers programs 
provide very useful institutional arrangements for conducting complex 
holistic research, and this tradition will be carried into the George 
E. Brown, Jr. Network for Earthquake Engineering Simulation (NEES) 
project as it becomes fully operational at the end of FY 2004.
    During 2002, NSF supported the Earthquake Engineering Research 
Institute (EERI) to develop a long-term research and education plan to 
advance the state-of-the-art and the state-of-the-practice in 
earthquake engineering and earthquake loss reduction. The result is a 
comprehensive, community-held vision that includes buy-in from all 
sectors and disciplines including academics, practicing engineers and 
geoscientists, social scientists, and government employees and 
regulators. The plan takes advantage of opportunities presented by high 
performance computing, information systems, simulation and 
visualization. Integral to the outcome is the commitment by EERI to 
maintain and update this vision, and to coordinate with other kindred 
organizations and programs including the Advanced National Seismic 
System (ANSS, a project of the USGS) and the NEHRP agencies.
    Earthquake and hazards-related research and educational activities 
are supported in many of the programs at NSF, including particular 
contributions from the Social, Behavioral, and Economic Sciences (SBE), 
the Geosciences (GEO) and the Engineering (ENG) Directorates. 
Fundamental seismic research is funded in GEO, while ENG supports 
fundamental earthquake engineering. Social science research related to 
earthquake hazard mitigation and preparedness is supported through the 
SBE and ENG Directorates. Significant progress continues to be made in 
these programs in understanding plate tectonics and earthquake 
processes, geotechnical and structural engineering, and the social and 
economic aspects of earthquake hazard reduction.
    In addition to the four NEHRP-funded earthquake centers, numerous 
individual investigator and small group projects related to earthquakes 
are also supported by NSF. Other NEHRP-related NSF activities include 
programs involving earthquake research facilities, post-earthquake 
investigations, international cooperation, and information 
dissemination. In the remainder of this testimony, recent highlights of 
such activities will be discussed briefly.

Research Facilities

    NEHRP legislation has reinforced NSF's own expectations regarding 
the important role for NSF to ensure that U.S. researchers have the 
required facilities to conduct cutting-edge research well into the next 
century.

The George E. Brown, Jr. Network for Earthquake Engineering Simulation 
        (NEES)
    Previous NEHRP legislation called for NSF, in collaboration with 
the other NEHRP partners, to develop a comprehensive plan for 
modernizing and integrating experimental earthquake engineering 
research facilities in the U.S. That plan was completed and implemented 
as an NSF Major Research Equipment and Facilities Construction 
project--the George E. Brown, Jr. Network for Earthquake Engineering 
Simulation (NEES). In 1999, the NEES project was authorized for NEES 
construction between FY 2000 and FY 2004. The FY 2004 budget request 
includes the final increment of $8.0 million for completion of this 
$81.8 million project.
    NEES will be a networked simulation resource of fifteen 
geographically-distributed, shared use next-generation experimental 
research equipment sites. The NEES sites were identified through peer-
reviewed proposal competitions and include facilities under 
construction in California, Colorado, Illinois, Minnesota, Nevada, New 
York, Oregon, Pennsylvania, Texas and Utah.
    The NEES experimental capabilities will lead to new tools for 
modeling, simulation, and visualization of site, structural, and 
nonstructural response to earthquakes and tsunami effects. NEES will 
provide an unprecedented engineering capability for attacking major 
earthquake problems with coordinated multi-organizational teams, 
producing convincing results that can be adopted into building codes 
and engineering practice.

        <bullet> NEES experimental research equipment, located at U.S. 
        universities or off-campus field sites, includes shake tables, 
        geotechnical centrifuges, a tsunami wave basin, large-scale 
        laboratory experimentation systems, and field experimentation 
        and monitoring installations.

        <bullet> The NEES network links nation-wide users and 
        equipment sites through a high performance Internet system that 
        will include web-based collaborative tools, data and simulation 
        software repositories. The NEES network also provides access to 
        leading edge compute resources.

        <bullet> Through the network, researchers can remotely 
        interact with each other and with their experimental and 
        simulation tools via ``telepresence'' tools.

    NEES will also serve as a major educational tool. Undergraduate and 
graduate students throughout the U.S. will be able to access the 
network for data, information, and course material as well as to 
participate in various experiments. Involvement with NEES will also 
enable students to sharpen skills in utilizing modern information 
technology tools and resources. These learning opportunities could be 
made available for pre-college students as well as college students, 
ushering in an unprecedented appreciation for earthquake problems and a 
new age for earthquake engineering education.
    Proposal competitions for all equipment sites and the NEES 
Internet-based network were completed by FY 2002. All awards are by 
cooperative agreement and all projects are on schedule and at budget. 
The sites and the network will be operational by September 30, 2004. 
Internet sites for NEES are established as http://www.nees.org for the 
sites and the overall project, and http://www.neesgrid.org for the 
network.
    From FY 2005, the NEES network and facilities will be maintained 
and operated by the NEES Consortium. The NEES Consortium will provide 
the leadership, management, and coordination for all the NEES shared-
use resources. The NEES Consortium was incorporated on January 31, 2003 
and already has more than 250 members in the short 8 weeks since its 
formation.
    The NEES experimental capabilities will lead to new tools for 
modeling, simulation, and visualization of site, structural, and 
nonstructural response to earthquakes and tsunami effects. NEES will 
provide an unprecedented engineering capability for attacking major 
earthquake problems with coordinated multi-organizational teams, 
producing convincing results that can be adopted into building codes 
and engineering practice. NEES experimental resources and data are 
expected to be used annually by approximately 1,000 U.S. researchers 
and students, and the Consortium is expected to develop as a broad and 
integrated partnership in earthquake engineering community, both within 
the U.S. and abroad, as equipment sites around the world join the NEES 
network.
    We expect NEES to lead to a new age in earthquake engineering 
research and education. It should be well worth the large investment. 
We look forward to keeping the Subcommittee informed about its 
development.

EarthScope
    Progress in earthquake prediction and hazard mitigation is 
critically dependent on results of studies that probe fundamental 
earthquake processes. Knowledge of regional tectonic conditions enables 
geophysicists to establish the long-term level of earthquake hazards. 
Understanding stress accumulation provides the basis for identifying 
and interpreting earthquake processes. Knowledge of the rupture 
process, particularly the effects of the local geology on ruptures, 
provides the basis for estimates of ground shaking. The compelling need 
for such knowledge has led to the development of the EarthScope 
project, first authorized and funded in FY 2003.
    EarthScope is also an MREFC project, developed with partnership 
from USGS and NASA. EarthScope will apply modern observational, 
analytical, and telecommunications technologies to investigate the 
long-term structure and evolution of the North American continent and 
the physical processes controlling earthquakes and volcanic eruptions. 
When fully deployed, EarthScope's components will include modern 
digital seismic arrays, global positioning satellite receivers, 
strainmeters and new satellite radar imagery, and an observatory deep 
within the San Andreas Fault.
    The need for knowledge about earthquake processes also explains the 
intellectual support at NSF for the USGS project--the Advanced National 
Seismic System (ANSS). ANSS is a permanent national network of shaking 
measurement systems that will make it possible to provide emergency 
response personnel with real-time earthquake information, provide 
engineers with information about building and site response, and 
provide scientists with high-quality data to understand earthquake 
processes and solid earth structure and dynamics. ANSS includes a 
strong emphasis on urban areas and the response of buildings to 
shaking. Discussions are underway to link the ANSS resource with 
EarthScope, NEES and the NSF research programs.
    NSF expects strong synergy among EarthScope, ANSS and the NEES 
network, and we will be sure to keep the Subcommittee informed about 
their progress.

Incorporated Research Institutions for Seismology (IRIS)
    In 1984, the seismological community created the IRIS initiative: 
the Incorporated Research Institutions for Seismology. The IRIS 
constituency, now at 100 members, includes virtually all U.S. 
universities with research programs in seismology, plus 44 foreign 
affiliates. Through IRIS, NSF supports two instrumentation programs 
that are needed for seismology to take advantage of the many advances 
in instrumentation and computer technology that have taken place: a 
permanent network--the Global Seismographic Network (GSN)--in 
cooperation with USGS; and a portable seismic array--the Program for 
Array Seismic Studies of the Continental Lithosphere (PASSCAL).
    The GSN plan for 120 stations evenly placed throughout the world 
has been essentially completed. The past two years have seen a number 
of accomplishments. Use of the GSN seismometers in a rapid analysis of 
damaging earthquakes has been invaluable. Attention is now being 
directed toward the much more difficult job of instrumenting the large 
gaps in the network consisting of the major ocean basins of the world. 
The IRIS GSN is a founding member of the Federation of Digital 
Seismographic Networks (FDSN). Other participating networks include 
Canada, Germany, the French Geoscope, Italy's Mednet, and Japan's 
Poseidon. FDSN stations worldwide now total about 180.
    The PASSCAL plan is for a portable array of 1000 seismic 
instruments for detailed study of the lithosphere and rapid response to 
monitor earthquake occurrence or possible earthquake precursors. The 
PASSCAL Instrument Center is at the University of New Mexico. 600 
PASSCAL instruments are now available for fieldwork and they are being 
used in a number of projects in the U.S. and throughout the world.
    The IRIS Data Management Center (DMC) was developed to handle the 
extremely large volume of digital data that is generated, stored, and 
accessed by the seismological community. Data is provided through Data 
Collection Centers in Albuquerque and San Diego to the data archive/
mass store in Seattle. Users have network access to the archive and to 
IRIS headquarters for more general information services. All FDSN data, 
from 180 stations worldwide, and all PASSCAL project data are available 
at the DMC, which serves as the first FDSN archive for continuous data. 
Over 14 terabytes were stored in the DMC at the end of 2002 and it 
continues to grow at about 3 terabytes per year. A measure of the 
success of IRIS's effort is the remarkable number of investigators 
making use of DMC data. In 2002, there were more than 45,000 data 
requests serviced by the DMC for seismic data.

Global Positioning Systems

    NSF has supported development of several GPS networks. The NSF- and 
USGS-funded Southern California Earthquake Center (SCEC) has provided 
the impetus for the development of a large-scale permanent GPS geodetic 
array in southern California focused on earthquake hazard assessment--a 
new and ambitious concept for the use of GPS technology. SCEC organized 
the southern California geodetic community through establishment of the 
Southern California Integrated GPS Network (SCIGN). SCIGN brings 
together networks and GPS expertise at UC-San Diego, UCLA, MIT, USGS 
and JPL/NASA. Funding is garnered from many sources, with an 
implementation plan developed by the SCIGN Steering Committee used to 
guide resource allocation. The permanent array is now complete at 250 
stations.
    PANGA is an 18-station permanent GPS network installed in the 
Pacific Northwest with support of NSF and the Canadian Geological 
Survey in collaboration with the Central Washington University, 
University of Washington, and Oregon State University.
    The University NAVSTAR Consortium (UNAVCO) has become UNAVCO, Inc., 
a non-profit membership-governed organization that supports and 
promotes Earth science by advancing high-precision geodetic and strain 
techniques such as the Global Positioning System (GPS). UNAVCO, Inc. 
was formed in response to community support of its role as lead 
organization for community-based planning and management of new 
initiatives such as the EarthScope Plate Boundary Observatory (PBO), by 
establishing corporate oversight, and through the already-established 
community workshops and working groups.
    NSF supports separately a number of investigations utilizing the 
UNAVCO GPS equipment in crustal distortion areas that are prime 
candidates for future earthquakes. Seismically active areas occupied to 
date within or near the U.S. include California, New England, the 
Caribbean, Colorado, Hawaii, Wyoming, and Montana. Outside the U.S., 
important distortion areas in Turkey, Iceland, Greenland, Asia, and 
South America are being monitored.

NSF Research Centers

Southern California Earthquake Center (SCEC)
    The Southern California Earthquake Center (SCEC) was founded in 
1991 as an NSF Science and Technology Center, and continues under 
support from NSF and the USGS. The SCEC headquarters are at the 
University of Southern California, and the Center includes eight core 
university partners. Other universities, state and local governments, 
and private companies are participating in the research and outreach 
activities. The primary science goal of SCEC is to develop a 
comprehensive, physics-based understanding of earthquake phenomena in 
southern California through integrative, multidisciplinary studies of 
plate-boundary tectonics, active fault systems, fault-zone processes, 
dynamics of fault ruptures, ground motions, and seismic hazard 
analysis.

Earthquake Engineering Research Centers (EERCs)
    NSF funded three new earthquake engineering research centers 
(EERCs) in October 1997. Each EERC is a consortium of several academic 
institutions--with an administrative headquarters at a designated 
campus--involved in multidisciplinary team research, educational and 
outreaches activities. The EERCs are combining research across the 
disciplines of the earth sciences, earthquake engineering, and the 
social sciences, and some of the research conducted at the EERC's is 
funded by FEMA.
    The Mid-America Earthquake Center (MAE) is headquartered at the 
University of Illinois at Urbana-Champaign. MAE's mission is to reduce 
losses across societal systems through the development of consequence-
based engineering approaches that are founded on advanced technologies 
for characterizing seismic hazards and the response of the built 
environment.
    The Multi-disciplinary Center for Earthquake Engineering Research 
(MCEER) has its headquarters at the State University of New York at 
Buffalo. MCEER's vision is to help establish earthquake resilient 
communities and its mission to discover, nurture, develop, promote, 
help implement, and, in some instances pilot test, innovative measures 
and advanced and emerging technologies to reduce losses in future 
earthquakes in a cost-effective manner. MCEER places significant 
emphasis on the seismic response of networks and critical facilities.
    With its administrative headquarters at the University of 
California at Berkeley, the Pacific Earthquake Engineering Research 
Center (PEER) focuses on earthquake problems in areas west of the Rocky 
Mountains. The main focus for the PEER Center is performance-based 
earthquake engineering (PBEE) that includes socio-economic evaluation 
of whether the seismic performance is cost-effective and suitable to 
the owner and society.
    The three EERCs are not involved only in research and technology 
advancement for the mitigation of earthquake damages. In order to meet 
the needs of future professionals in the field, they are educating 
hundreds of undergraduate and graduate students in the latest 
analytical, computational and experimental techniques. They also reach 
out to K-12 students to inspire even younger generations in earthquake 
engineering: An example is PEER's ``Learning with LEGO'' Program, which 
brings annually over 500 K-12 students from socio-economically 
disadvantaged areas to the campus for an open house and shake-table 
demonstration.
    The EERCs also engage in a variety of outreach activities to the 
public. Keeping the public abreast of scientific and technological 
advancements is a continual activity, essential to better understanding 
of natural hazards, policy issues, and disaster mitigation as it 
applies to the individual.

        <bullet> MCEER has worked with the Discovery Channel to 
        develop three programs related to earthquakes.

        <bullet> The PEER Center worked with the California Academy of 
        Sciences to develop the Academy's Earthquakes! Exhibit, which 
        is visited by over one million people annually, and focuses on 
        earthquake preparedness and safety.

Post-Earthquake Investigations

    In the wake of the terrorist attacks of September 11, NSF funded 
quick response research awards that mobilized more than 50 faculty and 
students to begin the process of observing, recording, and evaluating 
the impact on the public, the structures, and the organizations 
involved in response. The National Hazard Research Application and 
Information Center (NHRAIC) at the University of Colorado at Boulder--a 
Center funded through NSF with contributions from many federal agencies 
including FEMA and USGS--coordinated much of the social science 
research, and the NSF-funded Institute for Civil Infrastructure Systems 
(ICIS, http://www.nyu.edu/icis) provided on-site facilitation and 
coordination for researchers arriving at the WTC site. It is the 
mission of ICIS, in addition to its location, that rendered it ideal 
for coordinating the NSF sponsored research: to focus on developing 
resources and networks to sustain, renew, and improve the Nation's 
infrastructure system by integrating different perspectives and 
disciplines into infrastructure planning, engaging users and 
communities that host infrastructure services and facilities.
    In large part, the reason that NSF could move so fast following the 
events of 9/11 was that there had been so much practice in multi-agency 
coordinated post-disaster investigations following major earthquakes in 
the United States and abroad. Areas struck by major earthquakes 
represent natural laboratories, offering unusual opportunities to 
collect time-sensitive information and to learn vital lessons about 
earthquake impacts. This data importantly serves to test models and 
techniques derived from analytical, computational and experimental 
studies, and to observe and document effects on the natural and built 
environment and resulting social, economic, and policy impacts. For 
these reasons and for nearly 30 years, NSF has supported post-disaster 
investigations in conjunction with the Earthquake Engineering Research 
Institute (EERI) ``Learning from Earthquakes'' (LFE) project. The post-
earthquake investigations involve quick-response teams of researchers, 
deployed with close coordination to USGS and other NEHRP agency 
activities. Recent events investigated with NSF support include: the 
2001 earthquakes in Nisqually, Washington; Peru; India; the 2002 
earthquakes in Italy; El Salvador, and Alaska; and the 2003 earthquake 
in Colima, Mexico.
    The three EERCs are also active in post-earthquake reconnaissance. 
The Centers initiated their program following the success of the 
previous MAE Center initiative in sending students to areas around the 
world hit by earthquakes. Four MAE applicants traveled to Taiwan to 
engage in a hands-on field assessment exercise. For future events, 
plans call for a group of EERC faculty and 12 graduate students to 
spend 10 days visiting earthquake sites to complete hands-on field 
assessment exercises. Also, MCEER's expertise in earthquake 
reconnaissance was used to collect and disseminate perishable data in 
the aftermath of the 9/11 attack for later study to gain a better 
understanding of how resilience is achieved in physical, engineered and 
organizational systems.

International Collaborative Earthquake Research

    The National Science Foundation aims at nothing less than U.S. 
world leadership in science, engineering, and technology. Earthquakes 
are a global hazard. Many countries find collaborative research and the 
sharing of information essential in meeting this challenge and the U.S. 
is no exception. Like the other NEHRP agencies, NSF has a long history 
of cooperating with other countries--such as China, Mexico, Italy and 
Japan--facing similar seismic risks. There have been some recent 
developments that serve as excellent examples of how NSF's efforts 
enable U.S. earthquake researchers to collaborate effectively with 
international colleagues.
    Following the 1999 earthquakes in Izmit, Turkey, and Chi-Chi, 
Taiwan, NSF made awards to 23 U.S. research teams, each involving 
collaborators in Turkey and/or Taiwan. In 2002, researchers from the 
U.S. and other countries gathered in Turkey for a workshop on 
continuing research needs and opportunities. The research outcomes from 
this program are providing much needed data on strong ground motion 
near fault ruptures and attenuation of ground motion with distance from 
the causative fault. The vast number of recording stations, especially 
in Taiwan, and the similarity between fault systems in the Western U.S. 
and those in Turkey and Taiwan will greatly aid seismic code 
development in the United States. The data base to address the required 
set-back distances from faults, ground motion estimates close to 
faults, and similar questions will increase by more than ten times due 
to the results of research on the Turkey and Taiwan earthquakes.
    The response of modern high-rise structures designed under Turkish 
and Taiwanese codes that are very similar to codes in the United States 
has been documented through this research, as have the effects of 
construction quality, code enforcement and specific seismic design. 
This will directly lead to better design and construction techniques to 
minimize damage from earthquake loading. In addition, a very important 
determining factor in loss of life and property during earthquakes is 
the level of preparedness of individuals, companies, national and 
international institutions and government agencies prior to the 
earthquake. Several research projects addressed these issues, and 
information gathered has proven to be invaluable to emergency planners 
in the United States.
    Individual researchers also engage in international collaboration. 
For example, an NSF award to Rensselaer Polytechnic Institute and the 
University of California at San Diego includes a significant 
international component. The researchers will complete experimental 
studies on the effect of earthquake-induced lateral ground spreading 
due to liquefaction on pile foundations, both in full size and 
centrifuge model conditions. The research will take advantage of the 
NEES experimental facilities in the United States, and facilities 
operated by the National Research Institute for Earth Science and 
Disaster Prevention (NIED) in Japan, including the world's largest 
shake table (15m by 20m) at Miki City. This research constitutes the 
first opportunity for direct comparison of results in controlled 
experimental environments between centrifuge and full size tests to be 
conducted at NIED. The NEES network will be used both during experiment 
conduct and collaborative development of engineering interpretations 
and computer simulations.

NEHRP, Agency Coordination, and the Future

    The results of NSF research are carried forward into implementation 
through the involvement of the researchers themselves in professional 
organizations, and through activities managed by our three sister 
agencies. In this respect, NSF funding enables a knowledgeable research 
community to be prepared to answer questions posed by seismic events 
themselves, and by observations of the performance of the built 
environment and socio-political systems during and after earthquake 
events. NSF-funded research enables changes warranted in engineering 
practice, and enhances understanding and assessment of risks and 
uncertainties in natural, physical, and social environments.
    NSF-funded fundamental research in base isolation devices was taken 
up by NIST where methods of test for these systems and provisions for 
design were developed. NIST's contributions made it possible for the 
engineering profession to include base isolation in design of new 
structures and seismic upgrades, and FEMA funds were instrumental in 
making the early applications of base isolation systems possible. In a 
similar sequence of knowledge transfer and implementation, NSF-funded 
research on geographic distributions of hazards, liquefaction potential 
and ground instability have directly fed into microzonation assessments 
and the USGS-produced ShakeMaps. These maps are, in turn, used in HAZUS 
(HAZards United States), a GIS-based (Geographic Information Systems) 
technology that FEMA developed and that allows users to compute 
estimates of damage and losses that could result from an earthquake.
    The future is bright for the NEHRP agencies, and recent actions 
have been taken that will enhance coordination of plans and efforts:

        <bullet> FEMA has set up a Subcommittee on Research that is 
        chartered to identify synergies among research and development 
        programs and to identify ways existing programs can work 
        together more effectively; including enhances linkages between 
        ANSS, NEES, EarthScope and the research programs at USGS and 
        NSF.

        <bullet> Under USGS leadership, the NEHRP agencies have worked 
        during FY 2002 to create a ``Plan to Coordinate NEHRP Post-
        Earthquake Investigations'' that establishes how the agencies 
        will coordinate and share information in the event of a 
        significant national or international earthquake. In FY 2003, 
        the agencies are working to modify this plan to provide clarity 
        concerning how the agencies will interact if/when NIST declares 
        an NCSTA (National Construction Safety Team Act) investigation 
        following an earthquake.

        <bullet> The NEHRP agencies have the challenge to continue 
        evaluation and updating of the strategic plan, and to maintain 
        the strong ties with stakeholders that were so important to the 
        success in creating the original plan in FY 2001.

        <bullet> The NEHRP agencies also have the challenge to develop 
        an all-agency Internet portal for dissemination of information 
        about research opportunities and outcomes, news releases, plans 
        and activities in a form that can be easily accessed by the 
        research community, government organizations, and the public at 
        large.

    The new research plan of EERI that lays out a road map for research 
and technology transfer, and with the end of construction for NEES in 
FY 2004 and the start of grand challenge research projects using this 
network and equipment, the initiation of the EarthScope project, 
continued development of ANSS, and with the coordinated NEHRP post-
event response plan in-place--NEHRP is poised to accomplish great 
things.
    Mr. Chairman, thank you again for the opportunity to present this 
testimony. NSF is very excited about what NEHRP has been able to 
accomplish in the past, and what we expect will be possible to achieve 
in the future.

                   Biography for Priscilla P. Nelson
    Dr. Priscilla Nelson is Senior Advisor for the Directorate for 
Engineering (ENG) at the National Science Foundation (NSF). She has 
been at NSF since 1994, and has served as Director of the Civil and 
Mechanical Systems (CMS) Division, Senior Engineering Coordinator, 
Program Director for the Geotechnical Engineering program, and as 
Program Manager for the NEES (Network for Earthquake Engineering 
Simulation) project that represents an $82 million federal investment 
in cyber infrastructure and earthquake experimentation equipment to be 
completed between FY 2000 and FY 2004.
    Dr. Nelson was formerly Professor of Civil Engineering at The 
University of Texas at Austin. She has received three earned advanced 
degrees including Master's degrees in both Geology (Indiana University) 
and Structural Engineering (University of Oklahoma). In 1983, she 
received her Ph.D. from Cornell University in Geotechnical Engineering. 
Dr. Nelson has a national and international reputation in geological 
and rock engineering, and the particular application of underground 
construction. She has more than 15 years of teaching experience and 
more than 120 technical and scientific publications to her credit.
    Dr. Nelson is Past-President of the Geo-Institute of the American 
Society of Civil Engineers (ASCE), a lifetime member and first 
President of the American Rock Mechanics Association, and currently 
served on the Executive Committee of the American Geological Institute. 
In addition to these, she has many other professional affiliations 
including: the Moles (an organization of the heavy construction 
industry), the American Underground-Construction Association, the 
Association of Engineering Geologists, the International Tunnelling 
Association, and the American Society for Engineering Education. She 
has served as a member of and liaison to several National Research 
Council boards and committees. Dr. Nelson has been a part of several 
major construction projects, including field engineering 
responsibilities during construction of the Trams-Alaska Pipeline 
System, and serving as a consultant to the U.S. Department of Energy 
and the State of Texas for the Superconducting Super Collider project. 
She is a member of the Nuclear Waste Technical Review Board, appointed 
by President Clinton in 1997 and reappointed in 2000.

                 Prepared Statement of S. Shyam Sunder
          Chief, Materials and Construction Research Division,
                 Building and Fire Research Laboratory,
             National Institute of Standards and Technology

Introduction

    As a representative of one of the four primary federal agencies 
that comprise the National Earthquake Hazards Reduction Program 
(NEHRP), I congratulate the earthquake community and our three 
partners--the Federal Emergency Management Agency as lead, the United 
States Geological Survey, and the National Science Foundation--as we 
celebrate the 25th anniversary of the founding of NEHRP.
    NEHRP has been an extraordinary, and often exemplary, collaboration 
between federal agencies, State and local governments, and the private 
sector.
    During its first 25 years, NEHRP has contributed in very 
significant ways to reduce our nation's vulnerability to earthquakes 
and NIST is proud to have been a part of that record of accomplishment.
    While it is difficult to quantify loss prevention through the 
adoption of improved mitigation practices, and such measures are very 
much needed, there is no doubt that NEHRP products and results have 
contributed in significant ways to reduce the loss of life and economic 
losses from earthquakes. In addition, the loss of life from earthquakes 
in the United States has been small compared with similar earthquakes 
in other countries.
    My testimony traces how NIST has contributed to the success of 
NEHRP. It also reflects upon the broader public safety challenges the 
Nation now faces and how NEHRP can contribute to meeting those 
challenges.

Earthquakes and Creation of NEHRP

    Earthquakes are among the most frightening and devastating natural 
disasters. They strike virtually without warning, last only seconds, 
but can leave death and destruction in their wake.
    Seventy-five million Americans in 39 states face significant risk 
from earthquakes. On an annualized basis, earthquake losses amount to 
about $4 billion a year, while a single earthquake has a loss potential 
of $100 billion or more.
    For example, the 1971 San Fernando earthquake in California killed 
65 people and caused $500 million in damage. The 1994 Northridge 
earthquake caused losses in excess of $40 billion, with $15 billion in 
insured property losses alone.
    The San Fernando earthquake led Congress to pass the Earthquake 
Hazards Reduction Act of 1977 to ``reduce the risks of life and 
property from future earthquakes in the United States through the 
establishment and maintenance of an effective earthquake hazards 
reduction program.'' Pursuant to the Act, the Executive Office of the 
President developed the National Earthquake Hazards Reduction Program 
and issued a program plan in June 1978.

Pre-NEHRP Efforts

    Prior to the creation of NEHRP, NIST and many other government, 
private-sector organizations and universities were conducting research 
on ways to improve the seismic design of constructed facilities.
    NIST began work in earthquake hazards reduction with its 
organization in 1969 of the U.S.-Japan Panel on Wind and Seismic 
Effects under the U.S.-Japan Program in Natural Resources. This 
successful bilateral program continues to this day, with the 35th 
annual meeting slated to be held next May.
    NIST work also included its significant investigation of the 
performance of structures in the 1971 San Fernando, California, 
earthquake.
    Also, in 1972, the Applied Technology Council, an organization 
created by the Structural Engineers Association of California, called 
for a cooperative effort of practice, research, and government to 
produce up-to-date seismic design and construction provisions. A 
subsequent ATC study completed in 1978 produced design provisions that 
were a significant advance on existing provisions.

Role Assigned for NIST in NEHRP

    NIST was a natural part of NEHRP because of its long-time role in 
providing measurements, standards, and technology to help Federal, 
State, and local government agencies and the private sector protect the 
Nation and its citizens from natural as well as manmade threats.
    As part of NEHRP, NIST took on three assignments:

        <bullet> First, to develop seismic design and construction 
        standards for consideration and subsequent adoption in federal 
        construction, and encourage the adoption of improved seismic 
        provisions in State and local building codes;

        <bullet> Second, to assist and cooperate with federal, State, 
        and local agencies, research and professional organizations, 
        model code groups and others that are involved in developing, 
        testing, and improving seismic design and construction 
        provisions to be incorporated into local codes, standards, and 
        practices; and

        <bullet> Third, to conduct research on performance criteria 
        and supporting measurement technology for earthquake resistant 
        construction.

    In addition, as part of the USGS-led Post-Earthquake Investigation 
Program established by the NEHRP Reauthorization Act of 1990, NIST took 
on another assignment:

        <bullet> Fourth, to participate in NEHRP post-earthquake 
        investigations and analyze the behavior of structures and 
        lifelines, both those that were damaged and those that were 
        undamaged, and to analyze the effectiveness of the earthquake 
        hazards mitigation programs and actions and how those programs 
        and actions could be strengthened.

Products and Results from NIST's Problem-Focused R&D

    Through laboratory based problem-focused R&D NIST has made 
important contributions to earthquake safety over the years. Examples 
include our products and results related to:

        <bullet> bridge column reinforcing requirements,

        <bullet> rehabilitation of welded steel moment frame 
        connections,

        <bullet> test methods for passive and active seismic energy 
        absorption systems, and

        <bullet> precast concrete frames.

    One example is our work with industry and others on precast 
concrete frames (Attachment A provides summaries of the other 
examples).
    While construction with this type of frame has not been extensive 
in high seismic regions of the United States, it has enormous benefits 
in construction speed and quality control.
    In 1987, NIST initiated a project to develop a precast beam-to-
column connection that was economical, easy to construct, and capable 
of resisting earthquake loads. A few years later, Pankow Builders, a 
California general contracting firm specializing in quake-resistant 
construction, provided funding through the American Concrete Institute 
(ACI) to further develop the concept. Close collaboration among NIST, 
Pankow Builders, and the University of Washington resulted in a hybrid 
connection that combined the use of low-strength reinforcing steel for 
energy absorption with high-strength pre-stressing steel.
    Tests at NIST and on a five-story precast building at the 
University of California at San Diego demonstrated that the concept 
worked. NIST-developed guidelines and results were used to obtain 
approval from a code evaluation service. In addition, the American 
Concrete Institute issued standards and the International Building Code 
has adopted provisions that allow use of the system.
    Recently, Pankow Builders used the hybrid connection to build a 
$128 million, 39-story building in San Francisco. Topped out in June 
2001, the building is the tallest concrete frame building built in a 
high seismic region.
    Several other structures using the hybrid connection have been 
built, are underway, or on the drawing board.
    We are very proud of our collaboration with Pankow Builders, the 
University of Washington and others and are gratified that this design 
innovation and the contributions of its developers have been widely 
recognized. This work has won numerous awards, most recently the Harry 
H. Edwards Industry Advancement Award of the Precast/Prestressed 
Concrete Institute.

Lessons Learned from NIST's Post-Earthquake Investigations

    Throughout its history, NIST scientists and engineers have been 
called in to investigate building failures following fires, 
earthquakes, high winds, terrorist attacks, construction accidents, and 
other events.
    Tragically, we learn many lessons following an earthquake about 
what type of design and construction works and what does not. Our goal 
is to investigate and document building performance and the adequacy of 
current codes and practices, as well as to identify research needed to 
mitigate the impact of future earthquakes.
    Our investigators have traveled not only to earthquake sites in the 
United States, including the Loma Prieta earthquake in 1989 and the 
Northridge earthquake in 1994, but also to those places around the 
world including Japan, Romania, Nicaragua, Mexico, Armenia, and--most 
recently--Turkey. The investigation following the 1999 earthquake in 
Turkey was a cooperative effort led by the USGS, with participation of 
the U.S. Army Corps of Engineers.
    Since NIST is not a regulatory agency and does not issue building 
standards or codes, the institute is viewed as a neutral, ``third-
party'' investigator. Our investigations are fact-finding, not fault 
finding. The focus is on improving public safety and on deriving 
lessons for the future. And, by law, the data, analysis, and reports 
resulting from NIST investigations may not be used in litigation.

Formation of ICSSC and Federal Construction

    One of the early accomplishments of NEHRP was to involve federal 
agencies with construction responsibilities. Federally-constructed 
facilities comprise one of our nation's largest building sectors. It 
was realized early in the NEHRP that it was vital to assist the more 
than 30 federal agencies that are involved in one way or another in 
construction to implement earthquake hazards reduction elements into 
their ongoing programs.
    In 1978, the White House directed the Federal Emergency Management 
Agency to form an Interagency Committee on Seismic Safety in 
Construction (ICSSC). ICSSC was assigned to develop and implement 
seismic deign standards for federal construction. NIST, with funding 
from FEMA, has provided the secretariat for ICSSC since its inception, 
and the Director of NIST (or the Director's designee) has chaired the 
ICSSC since 1982.
    Not only did the ICSSC provide up-to-date seismic design and 
construction standards and practices that federal agencies used for 
their own new buildings, but it had a broader effect as well. An 
executive order issued by the President in 1990 required both federal 
and federally-assisted homes, such as new homes with FHA or VA 
mortgages, be designed and constructed using these standards.
    This federal mandate was welcomed by the national standards and 
model building code organizations since it provided incentive for state 
and local governments to adopt and enforce up-to-date standards and 
codes to be eligible for federally-assisted construction.
    The bottom line result was that NEHRP's broad goal of making 
adequate seismic resistance available for all new U.S. building 
construction was achieved. This successful outcome would not have been 
realized without a NIST study that was crucial to the issuance of the 
executive order. That study revealed the modest cost implications of 
the recommended seismic provisions as determined by trial designs.
    ICSSC was much involved in support to federal agencies in 
implementation of the executive order for new buildings. It continues 
today to provide support for the assessment of the equivalency of model 
building codes to the NEHRP recommended provisions--the most recent 
assessment was issued in late 2001--and the development of proposed 
changes to model codes.
    The ICSSC turned next to the challenge of evaluating and 
strengthening existing buildings by developing seismic safety standards 
and assisting federal agencies in implementing a second executive 
order. That executive order called for agencies to inventory buildings 
they own or lease and estimate the costs of mitigating unacceptable 
seismic risks.
    The ICSSC developed policies and practices for evaluation and 
strengthening of existing federal buildings. This included seismic 
safety standards for existing buildings, which were updated recently; 
guidance to the federal agencies on implementation of the executive 
order; assistance with estimating the costs of mitigating unacceptable 
seismic risks; and extensive review and comment in drafting the 
resulting report.
    Currently, ICSSC is developing a handbook for the seismic 
rehabilitation of existing buildings. This handbook will facilitate 
implementation of the seismic rehabilitation plan for federal buildings 
when a policy decision is made to proceed.

Major Challenges for the Future

    NEHRP has come a long way. But, it faces many challenges in meeting 
its legislative mandate to ``reduce the risks of life and property from 
future earthquakes in the United States.''
    Four of the key challenges faced by NEHRP are to:

        <bullet> fill the technology transfer gap between basic 
        research and practice,

        <bullet> develop and implement seismic safety standards for 
        lifelines,

        <bullet> develop and implement a multi-hazard approach to risk 
        mitigation, and

        <bullet> better coordinate post-earthquake investigations.

Challenge #1: Filling the Basic Research to Practice Gap in Earthquake 
                    Engineering

    Just as NEHRP strives for better ways to improve the performance of 
construction during an earthquake, NIST and its three NEHRP partners 
are continually looking for better ways to carry out our mission.
    Early in 2001, a NEHRP Strategic Plan was approved by each of the 
four participating agencies. This plan, developed in partnership with 
stakeholders, has identified the emergence of a technology transfer gap 
that limits the adaptation of basic research knowledge into practice. 
The plan recommends a much-expanded problem-focused research and 
guidelines development effort:

        <bullet> to develop future design, construction, evaluation, 
        and upgrade guidelines and standards of practice, and

        <bullet> to facilitate the development of new mitigation 
        technologies.

    It further recommends that NIST, in partnership with FEMA and other 
NEHRP agencies, should develop a coordinated plan to support this 
effort.
    NIST looks forward to working with its NEHRP agency partners and 
with industry, academia, and the broader stakeholder community to 
address this gap.
    As a first step, NIST requested the Applied Technology Council, a 
non-profit corporation to advance engineering applications for natural 
hazard mitigation, to convene a workshop of national leaders in 
earthquake design, practice, regulation, and construction in July of 
2002.
    The purpose of the meeting was to assess the state of knowledge and 
practice and to suggest an action plan to address the gap between basic 
research and practice.
    Recently completed, the action plan identifies industry priorities 
in two areas:

        <bullet> support for the seismic code development process 
        through technical assistance and development of the technical 
        basis for performance standards; and

        <bullet> improved seismic design productivity through the 
        development of tools and guidance and evaluation of advanced 
        technologies and practices.

    This action plan fits within the broader research and outreach plan 
developed by the Earthquake Engineering Research Institute titled 
``Securing Society Against Catastrophic Earthquake Losses.'' It also 
incorporates issues raised under Challenge #2 below.
    NIST now looks forward to working with the stakeholder community to 
explore ways to best meet those needs via a public-private partnership. 
We expect this effort will build on NSF-funded basic academic research, 
including that conducted as part of the George E. Brown, Jr. Network 
for Earthquake Engineering Simulation (NEES) Consortium.

Challenge #2: Developing and Implementing Seismic Safety Standards for 
                    Lifelines

    While up-to-date seismic provisions for building codes are 
available today, there are no nationally accepted standards or 
guidelines for lifelines, except for highway structures and nuclear 
facilities.
    Lifelines include all types of transportation (highways, airports, 
railways, waterways, ports and harbors), communication, and utility 
(electric power, gas and liquid fuels, water and wastewater) systems. 
They provide the physical infrastructure that support most human 
activities.
    The American Lifelines Alliance, with support from FEMA, is working 
on the development of guidelines and standards for lifelines. 
Concurrently, the ICSSC has completed an initial survey of lifelines 
that are the responsibility of federal agencies. It has begun a major 
effort to identify the needs for standards and guidance for these 
lifelines, with an initial focus on electric power generation, 
transmission, and distribution facilities. It is anticipated that 
implementation of the lifelines plan would be primarily through the 
existing voluntary standards system with a possible executive order 
requiring agencies to adopt and use the standards for federal 
lifelines.
    While these initial public and private sector efforts are laudable, 
I believe NEHRP has much work to do before the Nation will have seismic 
standards and guidelines for lifelines similar to those we already have 
for new and existing buildings.

Challenge #3: Developing and Implementing a Multi-Hazard Approach to 
                    Risk Mitigation

    Seismic hazards are one of many significant hazards that must be 
considered in design and construction. From the viewpoint of an owner 
or end-user, a multi-hazard approach to risk mitigation is desirable 
since it likely will yield more cost-effective solutions. This is 
especially true for existing construction, where seismic retrofit 
investments may be better justified when made in conjunction with 
needed functional and security upgrades.
    A careful consideration of regional hazards such as earthquakes and 
high winds shows that these hazards pose a major risk since they 
coincide with geographical areas that have seen significant population 
growth and development in recent years. The risks from fire hazards are 
spread across the Nation, while the risks from terrorist or 
technological threats are limited to certain critical facilities or 
locations.
    In comparison with the $4 billion annualized loss estimate for 
earthquakes, the annualized loss estimate for extreme winds is about $8 
B/year and for fire hazards is about $12 billion a year. Similarly, in 
comparison with the $100 billion loss potential for a major earthquake, 
a single hurricane event has a loss potential of as much as $50 
billion. Major earthquakes, high winds, and other extreme hazards have 
one thing in common--they are all low probability, high consequence 
events.
    There is significant merit to multi-hazard risk mitigation if 
practicable tools, practices, and guidance can be developed. Examples 
include:

        <bullet> improving overall structural integrity by mitigating 
        progressive collapse, where NIST is already working with the 
        private sector to develop needed tools and guidance;

        <bullet> conducting multi-hazard vulnerability assessments 
        using an integrated framework based on standard information 
        representation models and interoperable software tools; and

        <bullet> evaluating the cost-effectiveness of alternate risk 
        reduction technologies and strategies using integrated software 
        tools for making cost-risk trade-offs.

    I believe NEHRP has a unique opportunity to provide national 
leadership in charting the course for a multi-hazard approach to risk 
mitigation, while continuing with its important risk reduction mission 
for earthquakes. The development of the HAZUS regional loss estimation 
model--that now covers earthquakes, wind, and floods--is an excellent 
example of how NEHRP has already demonstrated this kind of leadership.

Challenge #4: Coordinating Post-Earthquake Investigations

    NEHRP has long supported post-earthquake investigations, and in 
1990 Congress specifically authorized the establishment of a 
coordinated program to conduct such investigations with leadership to 
be provided by the United States Geological Survey. Consistent with 
this legislation and the recent NEHRP Strategic Plan, an implementation 
plan has been completed to coordinate future post-earthquake 
investigations.
    In the aftermath of the World Trade Center disaster, Congress has 
given NIST additional authorities--beyond those NIST already had--
through the National Construction Safety Team Act. The legislation, 
which is modeled in many ways on the National Transportation Safety 
Board, was introduced by the House Science Committee and signed into 
law by President Bush on October 1, 2002.
    That law, Public Law 107-231, established NIST as the lead agency 
to investigate building performance, emergency response, and evacuation 
procedures in the wake of building failures that result in substantial 
loss of life or that posed significant potential of substantial loss of 
life. Currently, NIST is conducting two major investigations: a 
building and fire safety investigation of the September 11, 2001, World 
Trade Center building collapses; and the February 20, 2003, fire at The 
Station nightclub in West Warwick, R.I. The act calls for NIST to 
establish investigative teams including public and private-sector 
experts.
    NIST is developing agreements for future investigations with other 
federal agencies, and with the private sector so that we can quickly 
and effectively deploy investigation teams and so that we can share the 
results of those investigations and related research.
    The National Construction Safety Team Act gives NIST the authority 
to dispatch teams of experts within 48 hours when practicable. The law 
gives the teams a clear authority to:

        <bullet> Establish the likely technical cause of building 
        failures;

        <bullet> Evaluate the technical aspects of procedures used for 
        evacuation and emergency response;

        <bullet> Recommend specific changes to building codes, 
        standards and practices;

        <bullet> Recommend any research or other appropriate actions 
        needed to improve the structural safety of buildings, and/or 
        changes in emergency response and evacuation procedures; and

        <bullet> Make final recommendations within 90 days of 
        completing an investigation.

    The act gives NIST and its investigation teams comprehensive 
authorities to:

        <bullet> Access the site of a building disaster;

        <bullet> Subpoena evidence;

        <bullet> Access key pieces of evidence such as records and 
        documents, and

        <bullet> Move and preserve evidence.

    Congress anticipated the NCST Act to be applicable to building 
failures caused by earthquakes. The Act specifies that the NIST 
Director develop implementing procedures that ``provide for 
coordination with federal, State, and local entities that may sponsor 
research on investigations of building failures, including research 
conducted under the Earthquake Hazards Reduction Act of 1977.'' In 
addition, the Committee Report 107-530 published by the House Science 
Committee on June 25, 2002, states that ``The Director should clearly 
define how earthquake researchers and Teams will carry out their 
responsibilities in a coordinated fashion in cases where building 
failures have been caused by an earthquake.''
    NIST's responsibilities under the NSCT Act have been incorporated 
in the recently completed plan to coordinate post-earthquake 
investigations issued by the four agencies comprising the National 
Earthquake Hazards Reduction Program. The plan (USGS circular #1242) 
states that, within 48 hours, NIST will examine the relevant factors 
associated with building failures that occur as a result of the 
earthquake and will make reasonable efforts to consult with the other 
NEHRP agencies prior to determining whether to conduct an investigation 
under the Act. Any NIST investigation conducted under the authority of 
the Act will be limited to building failures on one or more buildings 
or on one or more class or type of buildings selected by NIST.

Conclusion

    As we look to the future, I believe NEHRP will continue to play a 
vital leadership role in making the performance of our buildings and 
lifelines highly measurable and predictable. This measurement and 
prediction ability will provide the critical underpinning upon which to 
achieve specified levels of performance and seismic risk reduction via 
workable and practicable solutions. Our nation will be safer and more 
secure for it.
    We at NIST look forward to contributing our part to address the 
challenges that lie ahead.

Attachment A

            Products and Results of NIST Problem-Focused R&D

    Bridge Column Reinforcing Requirements
    Immediately following the 1971 San Fernando earthquake, NIST 
dispatched a team to document and investigate structural damage caused 
by the earthquake. In particular, many bridge columns suffered either 
significant damage or failure. As a result, design requirements for 
bridge columns in seismic zones were modified. However, the adequacy of 
these design modifications was not verified.
    NIST initiated a project in the 1980s to provide the necessary 
verification, consisting of two full-scale bridge column tests. The 
challenges arose from the size of the test specimens and the need to 
apply horizontal seismic loads in addition to vertical gravity loads. 
The series of column tests was the first of its kind and as such, 
provided important benchmark data. The tests also verified the adequacy 
of the revised design specifications.
    In addition, NIST tested companion 1/6-scale bridge columns and the 
results indicated that the behavior of full-scale bridge columns could 
be extrapolated from small-scale bridge column tests. This finding 
suggests that high costs associated with full-scale tests are not 
always necessary and less expensive small-scale tests may be 
sufficient.

Welded Steel Moment Frame Connections

    Steel framed buildings traditionally have been considered to be 
among the most seismic resistant structural systems. The January 17, 
1994, Northridge Earthquake, however, caused unexpected damage to many 
welded steel moment frame buildings. In general, the damage was 
confined to beam-to-column connections that suffered brittle fracture 
in the flange welds.
    In response to these failures, NIST initiated a project to study 
methods to modify existing buildings to improve their seismic 
performance, in collaboration with the American Institute of Steel 
Construction, the University of Texas, the University of California at 
San Diego, and Lehigh University. Eighteen full-scale tests were 
conducted on three different methods to reduce the stresses at the 
beam-to-column connections.
    The result of this multi-year effort was the publication of 
comprehensive guidelines for seismic rehabilitation of existing welded 
steel frame buildings as an AISC Design Guide. The guidelines provided 
experimentally-validated response prediction models and design 
equations for the three connection modification concepts that shift 
loading from the welded joints into the beams, thus enabling the 
structure to absorb the earthquake's energy in a non-brittle manner.

Test Methods for Structural Control Devices

    Structural control devices, such as seismic isolation and passive 
energy dissipators, have been installed in numerous structures 
throughout the world and have proven to be effective in reducing both 
motions and forces during earthquakes and strong winds. Still these 
devices are generally produced in small quantities, specifically for 
each application.
    To guarantee that the devices will perform as the designer 
expected, many building codes and guidelines recommend that the devices 
be tested before installation. While some of these standards describe a 
limited number of specific tests, widely accepted test standards do not 
yet exist. Such standards are useful to designers, manufacturers, and 
contractors, since they will make the process of validating these 
devices consistent.
    To address the issue NIST has developed two sets of testing 
guidelines. The Guidelines for Pre-Qualification, Prototype, and 
Quality Control Testing of Seismic Isolation Systems was issued in 
1996. ASCE has developed and is currently balloting a national 
consensus standard based on the NIST-developed isolation device testing 
guidelines.
    While seismic isolation is generally accepted in earthquake 
engineering practice and recognized in the building codes in high-
seismic areas, passive structural dampers are still gaining acceptance 
and semi-active devices are still in the development phase. NIST has 
just issued Guidelines for Testing Passive Energy Dissipation Devices.

                     Biography for S. Shyam Sunder
    Dr. Shyam Sunder is Chief of the Materials and Construction 
Research Division in the Building and Fire Research Laboratory (BFRL) 
at the National Institute of Standards and Technology (NIST). He is 
responsible for planning and directing the overall scientific and 
technical programs, controlling the budget, and recruiting personnel 
for the Division. The Materials and Construction Research Division 
provides leadership for BFR's Homeland Security, Advanced Building 
Materials, and Advanced Construction Technology Goals.
    In his current position, Dr. Sunder:

        <bullet> is working with the BFRL Director Jack Snell to 
        develop and implement the Laboratory's homeland security 
        efforts via a public-private response plan involving a broad 
        coalition of organizations;

        <bullet> is the lead investigator for the NIST building and 
        fire safety investigation into the World Trade Center disaster;

        <bullet> is a member of the Executive Group of the Cement and 
        Concrete Reference Laboratory of the American Society of 
        Testing and Materials (ASTM) that is co-located at NIST;

        <bullet> leads BFRL's Construction Integration and Automation 
        Program in partnership with FIATECH, a consortium established 
        by the Construction Industry Institute (CII) in cooperation 
        with NIST, and is a member of CII's Breakthrough Strategy 
        Committee;

        <bullet> represents NIST on the four-member Interagency 
        Coordination Council for the National Earthquake Hazards 
        Reduction Program (NEHRP);

        <bullet> is designated by the NIST Director to chair the 
        Interagency Committee on Seismic Safety in Construction 
        (ICSSC)--a group that recommends policies and practices to its 
        32 member-agencies on improving the seismic safety of federal 
        buildings nationwide; and

        <bullet> is U.S.-side chair of the Wind and Seismic Effects 
        Panel established under the U.S.-Japan Cooperative Program on 
        Natural Resources (UNJR).

    Dr. Sunder was chief of the Structures Division from January 1998 
until June 2002 when the Building Materials Division was merged with 
the Structures Division and renamed the Materials and Construction 
Research Division. From June 1996 to December 1997, Dr. Sunder was on 
assignment to the Program Office, the principal staff office of the 
NIST Director, first as Program Analyst and later as Senior Program 
Analyst for NIST. In 1994, Dr. Sunder joined NIST's Building Materials 
Division as Manager of BFRL's newly created High-Performance 
Construction Materials and Systems Program and served in that position 
until June 1996. This program was in support of CONMAT, a public-
private R&D program created by the Civil Engineering Research 
Foundation in partnership with 11 key sectors of the construction 
materials industry. Dr. Sunder worked with the $100 B/year concrete 
construction industry to plan an advanced research program and document 
its economic and commercial benefits. This led to the creation of the 
Strategic Development Council, bringing together industry executives 
for the first: time ever to conduct leveraged R&D. He also studied key 
factors affecting quality, productivity, and innovation among the small 
firms that make up 85 percent of the more than one million firms in 
construction.
    Dr. Sunder's awards include the Gilbert W. Winslow Career 
Development Chair (1985-87) and the Doherty Professorship in Ocean 
Utilization (1987-89) from MIT, the Walter L. Huber Civil Engineering 
Research Prize (1991) from the American Society of Civil Engineers, and 
the Equal Employment Opportunity Award (1997) from NIST.
                    Statement of the NEHRP Coalition

1015 15th Street, NW, Washington, DC 20005; Phone: 202-326-5140; Fax: 
        202-289-6797

Chairman Smith and Members of the Subcommittee:

    The below signed ten members of the NEHRP Coalition, representing 
the scientific, architecture, design and engineering communities 
responsible for earthquake hazard mitigation are pleased to offer this 
testimony on the reauthorization of the National Earthquake Hazards 
Reduction Program (NEHRP).
    The earthquake risk to the Nation is unacceptably high and growing 
daily. We are facing inevitable earthquakes, any one of which alone can 
cost the Nation $100 to $200 billion. The reauthorization of NEHRP can 
address this, but it will require additional continuous research, 
expanded seismic monitoring, and nationwide mitigation. Earthquake 
occurrence in the United States is not restricted to any single 
geographical area. All or parts of 39 states are vulnerable to 
earthquakes.

NATIONAL EARTHQUAKE HAZARDS REDUCTION PROGRAM

    The NEHRP Coalition believes that Congress, in reauthorizing NEHRP, 
should take the necessary steps to strengthen this critical program. 
Earthquakes are among the most devastating of all natural hazards. To 
find ways to reduce the devastation, NEHRP, enacted in 1977, funds 
earthquake related activities of the U.S. Geological Survey (USGS), 
National Science Foundation (NSF), National Institute of Standards and 
Technology (NIST) and Federal Emergency Management Agency (FEMA). 
Despite continuing need, appropriations for NEHRP have decreased 
significantly in real dollars since the late 1970's.
    Earthquake occurrence in the United States is not restricted to any 
single geographical area. All or parts of 39 states are within zones 
where the probability of an earthquake occurring exists. Recent 
research indicates that areas in the eastern and central United States 
are at greater risk of earthquake occurrence than earlier evidence 
indicated.
    Recent events substantiate that many public buildings cannot 
survive a major earthquake. In many cases, federal buildings are less 
earthquake-resistant than nearby privately-owned buildings.
    Because of funding cuts, programs to develop safer buildings and 
other structures, including lifelines, have been reduced and existing 
research facilities have been underutilized. In addition, some 
excellent earthquake researchers have left the field. There is also 
evidence that much of the engineering research that has been 
accomplished under NEHRP has not been applied effectively. NEHRP has 
produced numerous recommendations for standards for new and existing 
buildings, lifelines and other structures. These provisions have yet to 
be fully implemented by local governments. As such, there is inadequate 
transfer of findings to those who help communities prepare for 
earthquakes. Funds have not been available to help localities improve 
building codes and zoning provisions in order to improve building 
safety.

SUCCESSES OF THE NEHRP PROGRAM

    Over the past 25 years, NEHRP has provided a wealth of information 
useful to both the scientific and engineering practice resulting in a 
significant benefit to the public. The USGS has developed and published 
uniform earthquake hazard maps that clearly identify the expected 
earthquake ground shaking at any location in the Nation. NSF, through 
their grants to university researchers, has funded the development of 
new engineering analysis and design techniques that allow engineers to 
make better and more cost effective decisions related to seismic 
design. FEMA has been able to leverage a small amount of funding into 
an impressive series of design guidelines, standards and codes that 
have spread the experience of a few to engineers nationwide. NIST has 
developed standards for federal buildings that have encouraged owners 
nationwide to recognize the earthquake vulnerabilities of their 
communities. It has been a successful program with significant results.
    Determining the proper seismic hazard level for a community is 
still the most consequential information needed for seismic resistant 
design. The new USGS hazard maps, developed in conjunction with 
structural engineers, have significantly influenced the engineering 
community. Some areas in the Nation, such as the Central Valley of 
California, have learned that the potential earthquake shaking is much 
lower than traditionally thought. To reduce their vulnerability, some 
of California's essential business operational facilities have been 
relocated to these low seismic areas and the need for and cost of 
seismic rehabilitation in these areas has been significantly reduced. 
At the other extreme, areas of the Nation, such as the Portland Oregon 
area, have learned that their seismic exposure is much greater and 
steps are being taken to increase their resilience to damage through 
new codes and rehabilitation programs.
    Because of the detailed, scientifically based maps, billions of 
dollars of construction is being spent more wisely, both in terms of 
reduced initial construction costs and reductions in expected future 
damage. Similar examples could be cited across the Nation.
    Buildings today all over the world are being built on isolation 
systems or have energy absorbing systems built within their structures. 
These advanced construction techniques grew out of fundamental NSF 
research begun in the late 1970's by Professor James Kelly and others 
at the University of California at Berkeley. Their work was ``curiosity 
based'' and not held in high regard at the time. Over the past 30 years 
it has matured into a commonly used system that protects essential 
facilities and historic structures in a superior manner. Basic NSF 
funded research such as this has yielded dozens of analysis and design 
techniques that are of significant benefit to the public and the 
Nation.
    The Nation's ability to arrest the growth of its seismic 
vulnerability and reduce it to acceptable levels depends on the efforts 
of all practicing engineers nationwide. FEMA, recognizing the need for 
published guidelines and standards, has leveraged the volunteer talents 
of an army of engineers by providing travel funds, meeting spaces, and 
publication support. Over the past 20 years, dozens of FEMA ``Yellow 
Books'' have been published on various aspects of seismic design and 
rehabilitation. For example, the American Society of Civil Engineers, 
has been able to use this material in their standards process to 
produce state of the art design standards such and as ASCE 7 and ASCE 
31. These new standards are used to train engineers nationwide and 
guide their seismic design and rehabilitation efforts. These efforts, 
in turn are providing the Nation with a much more reliable constructed 
environment.

COALITION RECOMMENDATIONS FOR REAUTHORIZATION

    The NEHRP Coalition asks that in reauthorizing NEHRP, Congress 
provide for stronger leadership, increased authorization and improved 
interagency coordination. In a broad sense, the Coalition supports 
``Securing Society Against Catastrophic Earthquake Losses,'' a study 
recently completed by the Earthquake Engineering Research Institute 
(EERI) with funding from NSF. The report lays out a vision for the 
future of earthquake research and outreach focused on securing the 
Nation from the catastrophic impacts of earthquakes. The report was 
prepared by a cross disciplinary panel of scientists, engineers and 
social scientists, and has been endorsed by numerous professional 
organizations involved in earthquake research.
    The report comprises the following five research and outreach 
programs:

        <bullet> Understanding Seismic Hazards--developing new models 
        of earthquakes based on fundamental physics.

        <bullet> Assessing Earthquake Impacts--evaluating the 
        performance of the built environment by simulating performance 
        of structures and entire urban systems.

        <bullet> Reducing Earthquake Impacts--developing new 
        materials, structural and nonstructural systems, lifeline 
        systems, tsunami protection, fire protection systems and land 
        use measures.

        <bullet> Enhancing Community Resilience--exploring new ways to 
        effectively reduce risk and improve the decision-making 
        capability of stakeholders.

        <bullet> Expanding Education and Public Outreach--improving 
        the education of engineers and scientists from elementary 
        school to advanced graduate education, and providing 
        opportunities for the public to learn about earthquake risk 
        reduction.

    Success in research will only matter if that research finds its way 
into practical use. The translation of research knowledge into practice 
is more than simply disseminating research findings. The report 
outlines programs to improve the exchange of knowledge and acceptance 
of new technology and processes during design and construction of new 
structures as well as in retrofitting older structures.
Technology--ANSS & NEES
    Information technologies will play an increasing role in earthquake 
research in the future. Two applications central to that vision are the 
Advanced National Seismic System (ANSS) and the George E. Brown, Jr. 
Network for Earthquake Engineering Simulation (NEES).
    ANSS, authorized by Congress in 2000, is intended to expand the 
current monitoring system and provide the needed information to 
maximize our understanding of how specific buildings performed during 
earthquakes. Strong motion information is critical to making the next 
quantum leap in understanding how to economically arrest the growth of 
earthquake risk. ANSS is a critical new program needed by NEHRP and 
must be funded at an adequate level.
    NEES, established by the NSF, will expand knowledge through new 
methods for experimental and computational simulation. Currently, many 
new experimental research sites are being put in place around the 
country, and a system to link into a sophisticated testing and 
simulation program is being developed. Unfortunately, funds to carry 
out the research that will make use of this new equipment and 
simulation technology have not been authorized. Knowledge developed 
through experiments and simulation methodologies provide the essential 
scientific knowledge base for improving codes and guidelines. Social 
science and education research will complement this by helping to 
better understand and communicate the implications and choices that 
must be made. An immediate investment in NEES is needed to reduce the 
cost of seismic design and to strengthen and stimulate significant 
mitigation activities.
Funding Levels
    In order to implement the plan envisioned by the NEHRP Strategic 
Plan and the EERI report and to increase the effectiveness of NEHRP, it 
is essential that Congress raise funding levels for NEHRP. The 
undersigned organizations support increasing funding levels to $358 
million a year for the first five years of a twenty-year program. 
Despite real needs, the funding level for NEHRP has remained flat for 
many years, which translates into a significant decrease in real 
funding. This trend must be reversed if we are to reduce our nation's 
vulnerability to earthquakes to acceptable levels.
    Finally, it is important to recognize the immense leverage from 
NEHRP for improvements in the reliability and security of buildings, 
transportation systems, water supplies, gas and liquid fuel networks, 
electric power, telecommunications, and waste disposal facilities. 
NEHRP provides an enormous return on investment that substantially 
reduces our nation's vulnerability to earthquakes and, at the same 
time, improves the performance of its civil infrastructure for both 
normal operation and extreme events.

CONCLUSION

    The first 25 years of NEHRP have proven that limited federal funds, 
applied to the Nation's earthquake vulnerability, can be leveraged 100 
times over in terms of savings in construction and limiting the losses 
after an earthquake. We believe that the program is just now hitting 
its stride and reaching full maturity, and is well equipped to handle 
additional funds that will provide new levels of understanding about 
the vulnerability and tools for the analysis and design. Significant 
progress will then be made toward reducing the Nation's vulnerability 
to an acceptable level.
    Thank you for this opportunity to express our views. The NEHRP 
Coalition is ready to assist in any way we can. If you have questions 
or need additional information, contact Martin Hight, Senior Manager, 
Government Relations, American Society of Civil Engineers at (202) 326-
5125 or by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a6762636d627e4a6b79696f2465786d24">[email&#160;protected]</a>
    This statement is endorsed by the following members of the NEHRP 
Coalition:

        American Geological Institute

        American Institute of Architects

        American Society of Civil Engineers

        Earthquake Engineering Research Institute

        Mid-America Earthquake Center

        National Fire Protection Association

        Oregon Department of Geology and Mineral Industries

        Portland Cement Association

        Seismological Society of America

        World Institute for Disaster Risk Management
      Statement of the American Society of Civil Engineers (ASCE)

Washington Office: 1015 15th Street, N.W., Suite 600, Washington, D.C. 
        20005-2605; (202) 789-2200; Fax: (202) 289-6797; Web: http://
        www.asce.org

Chairman Smith and Members of the Subcommittee:

    The American Society of Civil Engineers (ASCE) is pleased to offer 
this testimony on the reauthorization of the National Earthquake 
Hazards Reduction Program (NEHRP).
    ASCE was founded in 1852 and is the country's oldest national civil 
engineering organization. It represents more than 125,000 civil 
engineers in private practice, government, industry and academia who 
are dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a 501(c)(3) non-profit educational and 
professional society.

NATIONAL EARTHQUAKE HAZARDS REDUCTION PROGRAM

    ASCE believes that Congress, in reauthorizing NEHRP, should take 
the necessary steps to strengthen this critical program. Earthquakes 
are among the most devastating of all natural hazards. To find ways to 
reduce the devastation NEHRP, enacted in 1977, funds earthquake related 
activities of the U.S. Geological Survey (USGS), National Science 
Foundation (NSF), National Institute of Standards and Technology (NIST) 
and Federal Emergency Management Agency (FEMA). Despite continuing 
need, appropriations for NEHRP have decreased significantly in real 
dollars since the late 1970's.
    Earthquake occurrence in the United States is not restricted to any 
single geographical area. All or parts of 39 states are within zones 
where the probability of an earthquake occurring is great. Recent 
research indicates that areas in the eastern and central United States 
are at greater risk of earthquake occurrence than earlier evidence 
indicated.
    Recent events substantiate that many public buildings cannot 
survive a major earthquake. In many cases, federal buildings are less 
earthquake-resistant than nearby privately-owned buildings.
    Because of funding cuts, programs to develop safer buildings and 
other structures, including lifelines, have been reduced and existing 
research facilities have been underutilized. In addition, some 
excellent earthquake researchers have left the field. There is also 
evidence that much of the engineering research that has been 
accomplished under NEHRP has not been applied effectively. NEHRP has 
produced numerous recommendations for standards for new and existing 
buildings, lifelines and other structures. These provisions have yet to 
be fully implemented by local governments. As such, there is inadequate 
transfer of findings to those who help communities prepare for 
earthquakes. Funds have not been available to help localities improve 
building codes and zoning provisions in order to improve building 
safety.

SUCCESSES

    Over the past 25 years, NEHRP has provided a wealth of information 
useful to engineering practice and therefore of significant benefit to 
the public. The USGS has developed and published uniform earthquake 
hazard maps that clearly identify the expected seismicity of any 
location in the Nation. NSF, through their grants to university 
researcher, has funded the development of new engineering analysis and 
design techniques that allow engineers to make better and more cost 
effective decisions related to seismic design. FEMA has been able to 
leverage a small amount of funding into an impressive series of design 
guidelines, standards and codes that have spread the experience of a 
few to engineers nationwide. NIST has developed standards for federal 
buildings that have encouraged owners nationwide to recognize the 
earthquake vulnerabilities of their communities. It has been a 
successful program with significant results.
    Determining the proper seismic hazard level for a community is 
still the most consequential information needed for seismic resistant 
design. The new USGS hazard maps, develop in conjunction with 
Structural Engineers, have significantly influenced engineering 
community. Some areas in the Nation, such as the Central Valley of 
California, have learned that their seismicity is much lower than 
traditionally held. Some of California's essential business operational 
facilities have been relocated to these low seismic areas to reduce 
their vulnerability and the need for and cost of seismic rehabilitation 
in these areas has been significantly reduced. At the other extreme, 
areas of the Nation, such as in the Portland Oregon area, have learned 
that their seismic exposure is much greater and steps are being taken 
to increase their resilience to damage through new codes and 
rehabilitation programs. Because of the detailed, scientifically based 
maps, billions of dollars of construction is being spent more wisely, 
both in terms of reduced construction costs and reductions in expected 
damage. Similar example could be cited across the Nation.
    Buildings today all over the world are being built on isolation 
systems or have energy absorbing systems built within their structures. 
These advanced construction techniques grew out of fundamental NSF 
research begun by Dr. Jim Kelly at the University of California at 
Berkeley and others in the late 1970's. Their work was ``curiosity 
based'' and not held in high regard at the time. Over the past 30 years 
it has matured into a commonly used system that protects essential 
facility and historic structures in a superior manner. Basic NSF funded 
research, such as this, has yield dozens of analysis and design 
techniques that are of significant benefit to the public and the 
Nation.
    The Nation's ability to arrest the growth of its seismic 
vulnerability and reduce it to acceptable levels depends on the efforts 
of all practicing engineers, nationwide. FEMA, recognizing the need for 
published guidelines and standards, has leveraged the volunteer talents 
of an army of engineers by providing travel funds, meeting spaces, and 
publication support. Over the past 20 years, dozens of FEMA ``Yellow 
Books'' have been published on various aspects of seismic design and 
rehabilitation. ASCE has been able to use this material in their 
standards process to produce state of the art design standards such and 
ASCE 7 and ASCE 31. These new standards are used to train engineers 
nationwide and guide their seismic design and rehabilitation efforts. 
These efforts, in turn are providing the Nation with a much more 
reliable constructed environment.
    The first 25 years of NEHRP has proven that limited federal funds, 
applied to the Nation's earthquake vulnerability, can be leveraged 100 
times over in terms of savings in construction and limiting the loss 
after an earthquake. We believe that the program is just now developing 
its stride and maturity and is ready for additional funds that will 
provide new levels of understanding about the vulnerability and tools 
for the analysis and design. Significant progress will then be made 
toward reducing the Nation's vulnerability to an acceptable level.

ASCE RECOMMENDATIONS

    Specifically, ASCE asks that in reauthorizing NEHRP, Congress 
provides for stronger leadership, increased authorization and improved 
interagency coordination. Further, ASCE supports changes to NEHRP 
which:

        <bullet> Increase applied research, testing, and accelerated 
        technology transfer of research results.

        <bullet> Adopt and enforce standards for seismic design and 
        construction of new and existing public buildings.

        <bullet> Adopt and enforce building codes and zoning 
        provisions to incorporate improved seismic design and 
        construction standards of new and existing buildings and 
        lifelines by State and local governments and by industry.

        <bullet> Improve earthquake preparedness, particularly for 
        building safety, lifeline systems and emergency response.

        <bullet> Increase public education about earthquakes and 
        engineering concepts for hazard reduction.

    Additionally, ASCE supports practices and policies to assist local 
communities in the use of state-of-the-art performance standards for 
existing critical, essential, educational and disaster-recovery 
facilities, such as hospitals, schools and emergency shelters. There 
needs to be improvements in community preparedness and related civil 
infrastructure to make them economically resilient to earthquake 
hazards. Work must continue on development and adoption of nationally 
accepted, consensus-based standards for evaluation and retrofit of 
existing buildings. Finally, ASCE supports the development of national 
seismic standards for new and existing lifelines.

EARTHQUAKE ENGINEERING RESEARCH INSTITUTE REPORT

    The Earthquake Engineering Research Institute (EERI), with 
financial support from the National Science Foundation, recently 
published a report, ``Securing Society Against Catastrophic Earthquake 
Losses.'' This report highlights the accomplishments of NEHRP along 
with the challenges that still must be met. We have an opportunity to 
build on the existing knowledge gained from past research and to create 
new knowledge. The report contains a detailed plan, including cost 
estimates, to meet those remaining challenges.
    The report summary concludes that:

        ``The earthquake engineering community is poised for a 
        fundamental shift in the mitigation of earthquake risks by 
        developing new ways of thinking about the performance of 
        structures and new societal choices about seismic safety. The 
        time is now to launch a new, bold initiative to provide 
        security for the United States from the effects of catastrophic 
        earthquakes.''

    ASCE encourages Congress to incorporate the recommendation of the 
EERI report into the legislation to reauthorize NEHRP. It is time to 
make a good program a great one.
    Thank you for this opportunity to express our views. ASCE is ready 
to assist in any way we can. If you have questions or need additional 
information, contact Martin Hight, Senior Manager, Government Relations 
at (202) 326-5125 or by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d9b4b1b0beb1ad99b8aababcf7b6abbef7">[email&#160;protected]</a>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Appendix 2:

                              ----------                              


                   Answers to Post-Hearing Questions

                   Answers to Post-Hearing Questions
Responses by Anthony S. Lowe, Administrator, Federal Insurance 
        Mitigation Administration; Director, Mitigation Division, 
        Emergency Preparedness and Response Directorate (Federal 
        Emergency Management Agency), Department of Homeland Security

Questions submitted by Chairman Nick Smith

Q1. LMr. Lowe noted during the hearing that the Federal Emergency 
Management Agency (FEMA) has not submitted the coordinated budget 
request report to the Office of Management and Budget (OMB) as required 
by Section 206 of Public Law 106-503. The Committee views these 
reporting requirements essential to ensuring that each agency's 
National Earthquake Hazards Reduction Program (NEHRP) expenditures are 
coordinated to create synergy and adequately reflect the Program's 
objectives. Please explain why this report has not been submitted.

A1. Since the language for Section 206 was included in the 
authorization of the NEHRP program, FEMA, now part of the Emergency 
Preparedness and Response Directorate (EP&R), has taken the 
requirements very seriously. As the NEHRP agencies moved toward 
completing the NEHRP Strategic Plan, EP&R considered the Plan a 
surrogate format that would satisfy the requirements of Section 206. 
Despite the fact that the issuance of the Plan was delayed, EP&R and 
the other NEHRP agencies were initiating and continuing work pursuant 
to the Plan within their respective existing resources. The Strategic 
Plan has served as the platform for compliance with Section 206 and has 
been a critical linkage in the coordination among the NEHRP agencies. 
The Strategic Plan created the synergy necessary to adequately reflect 
the Program's objectives.
    EP&R has put into place changes that will allow explicit compliance 
with Section 206 for the future. Those changes include:

        <bullet> The other NEHRP agencies have agreed with EP&R's 
        proposal for an overall Management Plan. This Management Plan 
        will articulate NEHRP priorities in the context of the policies 
        of the Administration and will be used to guide the efforts of 
        the senior career levels of the NEHRP, the Interagency 
        Coordinating Committee, or ICC.

        <bullet> In conjunction with the Management Plan, we will 
        collaborate in the development of an annual Plan of Work, which 
        will lay out each of the proposed activities from the Strategic 
        Plan that we intend to accomplish during the year. This 
        coordinated effort will ensure that activities are 
        complementary. Each of these proposed activities will be 
        justified, using the Strategic Plan, to demonstrate its 
        importance in advancing the stated NEHRP objectives and goals. 
        For each planned activity, we will explicitly identify 
        associated funding requirements that are also represented in 
        each agency's overall request for appropriations.

        <bullet> The guidance from EP&R to each agency for the 
        preparation of requests for appropriations, as required by 
        Section 206, will occur in the form of our coordination of the 
        development of the annual Plan of Work in concert with the 
        Strategic Plan.

        <bullet> EP&R will submit the Plan of Work as the overall 
        NEHRP annual budget request to OMB, and this will satisfy our 
        agency requirements, as well as the overall program 
        requirement.

Q2. Section 406 (C) of Public Law 107-296 states that FEMA ``shall 
have the primary responsibility within the executive branch to prepare 
for and mitigate the effects of nonterrorist-related disasters in the 
United States.'' However, the Committee learned on May 2nd that $4.4 
million in FEMA Emergency Management Performance (EMP) Grants would be 
administered from the Office for Domestic Preparedness (ODP) within the 
Border and Transportation Security Directorate, which is dedicated to 
protecting the country from acts of terrorism.

Q2a. Given that ODP is not one of the four NEHRP agencies, why are 
these funds considered part of the NEHRP budget?

Q2b. Please explain how the purpose and structure of ODP grant program 
that will distribute the $4.4 million is related to the FEMA EMP Grants 
program.

Q2c. How will FEMA ensure that an appropriate amount of ODP grants are 
directed toward earthquake hazards mitigation?

A2a,b,c. In FY 2003, $4.4 million of NEHRP funds are provided to States 
as part of the Emergency Management Performance Grants (EMPGs), along 
with funds from other programs within EP&R. The EMPG program was 
created in 1999 to consolidate funding streams to the states and to 
allow state emergency management directors to direct resources to the 
risk reduction priorities that they identify for their population at 
risk from various hazards.
    With the creation of the Department of Homeland Security (DHS), 
EMPGs are being consolidated with other grants, to be managed by the 
Office for Domestic Preparedness (ODP), beginning in FY 2004. 
Consolidating the management of grants will provide efficiency and cost 
effectiveness in grants administration as it has under the EMPG 
program.
    As part of the Administration's effort to increase states' 
flexibility in FY 2004, there is not explicit funding set aside for 
this purpose. Of course, states may use the ODP funds for a similar 
purpose if they so choose.

Q3. How many full-time equivalents within the Department of Homeland 
Security (DHS) are dedicated to NEHRP activities? How will DHS balance 
staff-time devoted to carrying out day-to-day NEHRP activities with 
other emergency needs such as responding to tornadoes and floods?

A3. Within DHS, 46 full-time equivalents (FTEs) are funded with NEHRP 
funds, 30 FTEs at headquarters and 16 in the regional offices. The 
headquarters contingent consists of 7 FTEs that are specifically 
designated to work on NEHRP activities, 11 that are dedicated to multi-
hazard initiatives, and 12 support staff and management FTEs. EP&R's 
staff resources are leveraged among the many programs, and the 
functional alignment of EP&R's organization allows for the most 
effective use of resident expertise. There are a number of EP&R 
employees who work primarily in the NEHRP area, but who are funded from 
other sources as well.
    As with all EP&R programs, NEHRP employees are subject to 
deployment during disaster situations.

Q4. Please provide written comments on:

Q4a. Witness testimony recommending the designation of a single OMB 
examiner to review the NEHRP budget.

A4a. The Department of Homeland Security can not comment on the 
staffing plan of the Office of Management and Budget. The Committee 
will have to direct those questions directly to OMB.

Q4b. Witness testimony recommending the establishment of an external 
advisory committee (much like the current USGS Scientific. Earthquake 
Studies Advisory Committee) to provide recommendations on NEHRP.

A4b. In recent months EP&R has re-energized the high-level Policy 
Coordinating Committee (PCC) to provide increased direction to the 
Interagency Coordinating Committee (ICC). This will be accomplished 
through a Management Plan, which will guide the PCC's oversight of the 
implementation of the NEHRP Strategic Plan. This Management Plan will 
articulate NEHRP priorities in the context of the policies of the 
Administration. In addition, the ICC will develop, each year, a Plan of 
Work that will contain specific metrics, which will evolve over time 
and will provide a results-oriented approach. This will assist the PCC 
in gauging the success of NEHRP initiatives against the metrics, so 
that the PCC can make decisions about how to effectively allocate NEHRP 
resources. We believe that this system of oversight by the PCC, 
previously dormant, will provide excellent support and direction for 
NEHRP, obviating the need for an advisory committee.
    Based on these management initiatives, as well as the newly formed 
Research Coordination Subcommittee, we feel that an advisory committee 
is not needed to provide guidance for NEHRP.

Q4c. The five-fold R&D program, priorities, and funding levels 
detailed in the Earthquake Engineering Research Institute's (EERI) 
Research and Outreach Plan.

A4c. In the National Science Foundation's (NSF) written testimony, it 
``. . .supported the Earthquake Engineering Research Institute (EERI) 
to develop a long-term research and education plan to advance the 
state-of-the-art and the state-of-the-practice in earthquake 
engineering and earthquake loss reduction. The result is a 
comprehensive, community-held vision that includes buy-in from all 
sectors and disciplines including academics, practicing engineers and 
geoscientists, social scientists, and government employees and 
regulators. . .''
    EP&R supports the process through which this research and education 
plan was developed because it represents a consensus of many of the 
experts in the stakeholder community. EP&R anticipates that the EERI 
plan will prove beneficial as we implement the NEHRP Strategic Plan, 
particularly as we integrate components of other research plans, such 
as the National Institute of Standards and Technology (NIST) research 
plan (ATC 57), the performance-based earthquake engineering design plan 
(ATC-58), and the United States Geological Survey (USGS) research plan, 
into our efforts, through the Research Coordination Subcommittee.
    With respect to funding levels, the EERI plan calls for roughly a 
tripling of the current NEHRP budget over the next 20 years. EP&R will 
consider EERI recommendations as it develops the FY 2005 budget 
request,

Q5. The National Science Foundation's written testimony noted the need 
to develop an ``all-agency Internet portal for dissemination of 
information about research opportunities and outcomes, news releases, 
plans and activities in a form that can be easily accessed by the 
research community at large.'' Is development of such a one-stop 
shopping website for NEHRP planned for the near future?

A5. EP&R is in the process of developing a NEHRP website that will 
reside on the EP&R server and will be the primary vehicle to 
disseminate general NEHRP and EP&R programmatic information relevant to 
NEHRP. The NEHRP website will provide linkage to other NEHRP 
information including NEHRP agency websites, state earthquake program 
websites, earthquake consortia websites, earthquake information 
research institutions with relevant information or programs, relevant 
associations and nonprofit organizations, and university programs.
    EP&R has also set up a Research Coordination Subcommittee, under 
the ICC, that is charged with identifying synergies among research 
programs. This subcommittee is also charged with making research 
findings more available to the NEHRP stakeholders, as well as to other 
appropriate audiences. EP&R's NEHRP website will also encapsulate the 
work of the subcommittee.

Questions submitted by Ranking Member Eddie Bernice Johnson

Q1. Explain how the strategic plan influenced the FY 2004 budget 
request for the earthquake program.

A1. The NEHRP Strategic Plan lays out the present and future activities 
of NEHRP and its four agencies and is organized around the four goals 
of the program, which are:

        A. Develop effective practices and policies for earthquake 
        loss-reduction and accelerate their implementation.

        B. Improve techniques to reduce seismic vulnerability of 
        facilities and systems.

        C. Improve seismic hazard identification and risk assessment 
        methods and their use.

        D. Improve the understanding of earthquakes and their effects.

    Although this Plan has only recently been approved by OMB and sent 
to Congress, the four agencies have been operating and reporting 
according to its draft guidance for two years, while remaining within 
existing resource constraints. Therefore, each agency's 2004 budget 
request for NEHRP activities was designed to fulfill the goals of the 
Strategic Plan, while remaining within the Administration's 2004 budget 
allowances.

Q2. What level of priority does NEHRP assign to completion of the 
Advanced National Seismic System (ANSS), and what efforts have been 
made to get an adequate budget request for ANSS in the President's 
budget submission?

A2. The NEHRP places the completion and implementation of ANSS among 
its highest priorities. Specifically, its priority is described in the 
recently released NEHRP Strategic Plan, Expanding and Using Knowledge 
to Reduce Earthquake Losses. Page 12 of the Plan identifies the need 
for real-time seismic monitoring and reporting of ground motion 
intensities that would be provided by ANSS as the first of the 
program's future challenges, opportunities, and priorities. Under that 
section, the Plan states that:

        ``Recent and unprecedented advances in information technology, 
        telecommunications, and digital electronics now allow for real-
        time, high fidelity monitoring of seismicity across the Nation. 
        An upgraded seismic monitoring system in the U.S. would enable 
        rapid assessments of the distribution and intensity of 
        earthquake shaking, thereby allowing emergency response 
        officials to assess, within minutes of an event, where the 
        damage is likely to be concentrated and how emergency resources 
        should be allocated. Someday, the new technology may even allow 
        for a few seconds of warning of impending strong seismic 
        shaking from distant earthquakes already in progress. The USGS 
        funds the Advanced National Seismic System (ANSS), an effort to 
        update current instrumentation and provide this real-time 
        monitoring capability.''

    Further, the NEHRP Strategic Plan also lists this objective under 
Goal C: ``Provide rapid, reliable information about earthquakes and 
earthquake-induced damage.'' Under this objective, NEHRP specifically 
calls for the implementation of ANSS.
    The responsibility for securing adequate funding for ANSS or any 
other program has historically been with the individual agency--in this 
case the USGS. In the future, however, we will use the NEHRP Management 
Plan to submit a coordinated and consolidated NEHRP budget request that 
fully complies with Section 206.

Q3. Dr. O'Rourke in his testimony indicated that there are 
insufficient research funds in NEHRP to take full advantage of the new 
equipment and simulation facilities being made available by the George 
Brown Network for Earthquake Engineering Simulation. Is this a subject 
of discussion during the planning process for NEHRP? Explain how 
program priorities being developed to balance research and research 
infrastructure needs.

A3. The operation of the NEHRP over the last 25 years has worked within 
the research community to establish what is essentially a market-driven 
balance between funded research work and available research 
infrastructure. With the advent of the first phase of the Network for 
Earthquake Engineering Simulation (NEES) program, we are presently 
increasing the available research infrastructure. However, even more 
important, with the remainder of the NEES program, we will be 
significantly improving how this expanded research infrastructure can 
be used through the NEES Co-Laboratory infrastructure. The NEES Co-
Laboratory will ultimately allow research to be done much more 
efficiently, as it will allow researchers to utilize research 
facilities via the Internet. So, while we are presently expanding the 
available research infrastructure, we also in effect are lowering the 
cost of doing research by making it easier for researchers to access 
that expanded infrastructure.
    The expansion of the research infrastructure under the first phase 
of NEES was called for and directed by the Assessment of Earthquake 
Engineering Research and Testing Capabilities in the United States, a 
report prepared for NSF and NIST by EERI that was called for under the 
NEHRP Reauthorization Act of October 1994. That report was published by 
EERI in September 1995.
    NSF has tasked the National Research Council to investigate 
research needs post-NEES and to prepare a report documenting this 
issue. This report is due to NSF later this year, and will be used as 
part of our NEHRP planning process for funding future research. In 
particular, this report will be utilized by the new Research 
Coordination Subcommittee of the NEHRP ICC as it moves to improve the 
coordination of NEHRP-funded research activities.


                              Appendix 3:

                              ----------                              


                   Additional Material for the Record


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
